 Office of Inspector General

SEMIANNUAL REPORT TO
    THE CONGRESS
     April 1–September 30, 2011
               

               

               

               

OFFICE OF INSPECTOR
                    GENERAL
               
    SEMIANNUAL REPORT
     TO THE CONGRESS
             



   April 1–September 30, 2011
                                Inspector General
                                         HOTLINE
The hotline makes it easy to report allegations of fraud, waste, abuse, mismanagement, or misconduct in the
programs and operations of the United States Agency for International Development (USAID), the Inter–
American Foundation (IAF), the United States African Development Foundation (USADF), and the
Millennium Challenge Corporation (MCC). Employees of USAID, IAF, USADF, and MCC, contractors,
program participants, and members of the general public may report allegations directly to the Office of
Inspector General (OIG). Complaints may be submitted electronically by using e–mail or OIG’s online complaint
form.

E–mail                  ig.hotline@usaid.gov
Complaint form          http://www.usaid.gov/oig/hotline/hotline.htm

Individuals who are concerned about the confidentiality or anonymity of electronic communication may
submit allegations by telephone or mail.

Telephone        1–202–712–1023
                 1–800–230–6539
Mail             USAID OIG HOTLINE
                 P.O. Box 657
                 Washington, DC 20044–0657

The Inspector General Act of 1978, as amended, and other laws protect persons making hotline complaints.
Individuals who contact the hotline are not required to identify themselves and may request confidentiality
when submitting allegations. However, OIG encourages those who report allegations to identify themselves so
that they can be contacted if OIG has additional questions.

OIG will not disclose the identity of an employee of USAID, IAF, USADF, or MCC who provides
information unless that employee consents or unless the Inspector General determines that such disclosure is
unavoidable during the course of an investigation. 


                  Semiannual Report to the Congress: April 1–September 30, 2011 
                                USAID Office of Inspector General



                                      Contents
  

 
    Message from the Inspector General…………………………………………………………......... 1
 
    Introduction……………………..……………………………………………………................................... 3 
 
    Semiannual Report to the Congress………………………….……………………………………… 4
          United States Agency for International Development

          United States African Development Foundation

          Inter–American Foundation

    Reporting Requirements……………………………………….………………………………………………….. 6

    Summary Table of Audits Conducted…………………………………..…………………………………... 8

    Significant Findings–USAID………….…………………………………………………………………………                   9

          Peace and Security………………………………………………………………………………………… 9

                Afghanistan…………………………………………..…………………………………………... 9

                Pakistan………………………………………………….……………………………………..…. 14

                Iraq………………………………………………………….……………………………………..… 17

                West Bank and Gaza…………………………………………………………………….….… 19

          Just and Democratic Government…………….…………………………………………………… 20

                Good Governance…….……………………………………………………….………………. 20

                Rule of Law and Human Rights……………………………………………….…….….. 21

          Economic Growth and Prosperity……..……………………………………………………….…. 22

                Economic Security…………………………………………………………………………….. 22

          Environment…………………………………………………………………………………………….…. 23




                 Semiannual Report to the Congress: April 1–September 30, 2011
 
                                USAID Office of Inspector General


     

          Investment in People…………..……………………………………………………………………....                           25

                 Humanitarian Assistance……………………………………………………………….....                        26

                 Education….………………………………….……………...........................................   28

                 Food Security……..………………………….………………………………………….……..                           30

                 Health…………………………………………………………………………………..………….                                32

          Management Capabilities….…………………….……………………………………………………                             43

                 Employee Misconduct….…………………………………………………….…………..…                           44

                 Financial Management.………….……………………………………………………..….                          46

                 Expanding Accountability………………………….…………………………………..…                         47

                 Accountability Over Contractors and Grantees….……………….………………                 48

    Significant Findings–USADF and IAF……………………………………………………….……..…….                          52

    Significant Recommendations Described Previously Without Final Action…………..…...          53
    Investigative Activities……………………………………………..……………………………………………….                           58
    Fraud Awareness Briefings Conducted Worldwide………………………………………….………                        59

    Incidents in Which OIG Was Refused Assistance or Information…………………………….                 62

    Statistical Reports………….……………………………………………………………………………….….….                              63

          Financial Audits…………………………………………………………….………….……….……..                              63

          Performance Audits…………………………………………………………….……………….……                                98

          Miscellaneous Reports…………….…………………………………………………………………                               102

          Reports With Questioned and Unsupported Costs………….………………………....                    107

          Reports With Recommendations that Funds Be Put to Better Use.………........           109




                 Semiannual Report to the Congress: April 1–September 30, 2011
 
                                  USAID Office of Inspector General




    Reports Over 6 Months Old With No Management Decision…………............................... 111

    Significant Revisions of Management Decisions……………………………………………………….. 113

    Management Decisions With Which the Inspector General Disagrees……….………………. 114

    Noncompliance With the Federal Financial Management Improvement Act of 1996…. 114

    Significant Findings From Contract Audit Reports…….…………………………………………….. 115

    Peer Reviews………………………………………………………………………………………………………….. 116

    Semiannual Report to Congress–Millennium Challenge Corporation…….                       117

    Introduction……………………………………………………………………………………………..…………… 119

    Significant Findings–MCC………….…………………………………………………….…………………… 121

           Economic Growth and Prosperity……………………………………………………………..... 121

                  Economic Security……………………………………………………………………………. 121

           Management Capabilities….…………………….……………………………………………….….. 122

                  Information Technology….………………………………………………………………. 122

                  Financial Management….…………………………………………………….…………... 122

                  Fund Accountability Statements……………………………………………….…..…. 123

                  General Management Capability……………………………………………….….….                      129

    Significant Recommendations Described Previously Without Final Action………………             132

    Investigative Activities……………………..…………………………………………………………………….                           134

    Incidents in Which OIG Was Refused Assistance or Information…………………………....              135

    Statistical Reports………….……………………………………………………………………………………...                             136

           Financial Audits………………………………………………………………………………………...                             136

           Performance Audits…………………………………………………………………………………...                             139




                   Semiannual Report to the Congress: April 1–September 30, 2011
 
                                          USAID Office of Inspector General


 
 

                              
            Miscellaneous  Reports…………….……………………………………………………………….                                                   141

            Reports With  Questioned and Unsupported Costs………….………………………..                                          143

            Reports With  Recommendations that Funds Be Put to Better Use.…………....                                  144

    Reports Over 6 Months
                          Old With No Management Decision…………..........................                             145

    Significant Revisions
                          of Management Decisions…………………………………………………….                                              147

    Management Decisions
                         With Which the Inspector General Disagrees…………………….                                        148
                      the Federal Financial Management Improvement Act
    Noncompliance With
                       
             of 1996…………………………………………………………………………………………………….                                                         149
    Significant Findings From Contract Audit Reports…….………………………………………….                                            150
 
    Peer Reviews………………………………………………………………………………………………………                                                             150
 
    Abbreviations................................................................................................   151
 

 

 

 

 

 

 

 

 

 

 




                      Semiannual Report to the Congress: April 1–September 30, 2011
 
                                      USAID Office of Inspector General


                                                          accountability in foreign assistance programs. 1
Message From the Acting
                                                          OIG works in partnership with foreign assistance
   Inspector General
                                                          agencies and implementing partners to further
I am pleased to present the Semiannual Report to          this goal.
the Congress for the period April 1—
                                                          Sustainability is a key aspect of the success of all
September 30, 2011. This report features
                                                          foreign assistance programs, and OIG’s oversight
highlights of oversight activities of the Office of
                                                          work examines whether programs are likely to
Inspector General (OIG) for the United States
                                                          continue and succeed once assistance funding has
Agency for International Development (USAID),
                                                          been completed. Several of our reports this
the United States African Development
                                                          reporting period address sustainability issues,
Foundation (USADF), the Inter–American
                                                          including our audits of health programs in
Foundation (IAF), and the Millennium
                                                          Afghanistan, Namibia, and Guinea; family
Challenge Corporation (MCC).
                                                          planning activities in India; community
During this reporting period:                             rehabilitation efforts in Pakistan; and

$78.3 million in questioned costs and                     microfinance activities in Iraq.
funds recommended to be put to better
use                                                       In general, we have centered our operations on
                                                          foreign assistance programs that are particularly
$5.8 million in investigative recoveries
and savings                                               important to the Congress and the
                                                          administration, including oversight of efforts in
1 conviction
                                                          Afghanistan and Pakistan, civil society programs
23 administrative actions
                                                          in the Middle East, humanitarian aid in Haiti,
                                                          and worldwide programs addressing HIV/AIDS,
Our audits and investigations focus on programs           malaria, and tuberculosis.
and operations that are at the greatest risk for
                                                          We are pleased to report that USAID has seen
fraud, abuse, or mismanagement—e.g., those in
                                                          positive results from its Palestinian Authority
high–risk environments and those that employ
                                                          Capacity Enhancement Program and Centers of
funding mechanisms that may limit oversight.
                                                          Excellence initiative in the West Bank. USAID’s
During this reporting period, we testified before         activities have upgraded service centers for
Congress about the need to improve                                                                                    
                                                          1
                                                            See “USAID: Following the Money,” May 11, 2011.
                                                          http://www.usaid.gov/oig/whoweare/testimony_051111.pd
                                                          f


            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 1 

                                                       
                                      USAID Office of Inspector General


citizens, partnered with ministries to conduct             We have seen notable developments as a result of
self–assessments, and empowered government                 our investigative work, such as a recent
employees to identify needs and reforms. The               $5 million settlement agreement with a major
program has received support from all levels of            implementer of foreign assistance programs in
the ministries in which it operates and is likely to       Afghanistan and Pakistan for false claims charges.
be sustained.                                              In this case, the implementer was cited for
                                                           problems with adhering to contract specifications
Although our audit of HIV/AIDS activities in
                                                           and properly supervising activities, for not
Southern Africa found managerial and data
                                                           reporting defects in internal controls, and for
collection problems, we note that USAID’s
                                                           potential corruption among its subcontractors.
efforts in this area have increased the number of
new patients enrolled in treatment. In addition,           OIG continues to issue financial audits to verify
clinic staff members said that the program was             how U.S. taxpayers’ funds are being spent,
helping change the social stigma associated with           actively investigate allegations of fraud all over
HIV and ensuring that patients adhere to                   the world, and educate our partners about the
treatment regimens.                                        risk of fraud and how to identify it. As a result of
                                                           these efforts, the agencies for whom we provide
In other instances, we have uncovered areas for
                                                           oversight have recovered millions of dollars in
improvement. Our recent audit of the Afghan
                                                           funds that can be put to better use.
Civilian Assistance Program—an initiative
designed to assist Afghan families and                     We support agencies’ efforts to improve their
communities that have suffered losses as a result          own processes—such as USAID’s recent efforts
of military operations against insurgents and the          in procurement reform—and we provide
Taliban—disclosed problems with food that was              guidance as these processes are being
being stored in unhygienic conditions, making it           implemented. This semiannual report further
virtually unusable for those it was intended to            describes our activities and achievements and
help.                                                      includes comprehensive statistics and data
                                                           regarding our work.
Our audit of efforts to provide shelter in Haiti
found substantial delays in construction. We will          We look forward to working with the Congress
continue to make Haiti a priority for oversight            and our partners and stakeholders to continue to
and focus on accountability as programs in that            improve the efficiency and effectiveness of U.S.
country move from humanitarian assistance to               foreign assistance programs.
reconstruction.

            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 2 

                                                        
                                                               USAID Office of Inspector General



                                                                   Introduction
          History and Mandated                                                    interests and needs, alignment with strategic goals,

                Authority                                                         program funding levels, and the risks associated
                                                                                  with the agency programs, including potential
USAID’s OIG was established on December 16,                                       vulnerabilities in internal controls.
                                                      2
1980, by statutory amendment to the Foreign
Assistance Act of 1961. 3 On December 29,
                                                                                           Areas of Responsibility
1981, the International Security and
Development Cooperation Act of 1981 4 brought                                     Audits. OIG audits activities relating to
the USAID Inspector General under the purview                                     worldwide foreign assistance programs
of the Inspector General Act of 1978. 5 OIG                                       and agency operations of USAID, USADF, IAF,
assumed audit and investigative oversight of                                      and MCC. Audit activities include performance
USADF and IAF in 1999 6 and of MCC in 2004. 7                                     audits and reviews of programs and management
                                                                                  systems, financial statement audits required
The Inspector General Act authorizes the Inspector
                                                                                  under the Chief Financial Officers Act of 1990, 8
General to conduct and supervise audits and
                                                                                  and audits related to financial accountability of
investigations. Our mission is to protect
                                                                                  grantees and contractors.
and enhance the integrity of U.S. foreign assistance
programs and operations administered by USAID,                                    Investigations. OIG investigates allegations of

USADF, IAF, and MCC. Some of our work is                                          fraud, mismanagement, and misconduct relating

mandated by statute or other requirements; other                                  to the foreign assistance programs and agency

work is performed at the discretion of OIG. When                                  operations of our client agencies. Investigations

identifying and prioritizing appropriate audit and                                of criminal, civil, and administrative violations

investigative activity, we consider stakeholder                                   cover all facets of these worldwide operations.
                                                                                  OIG also works proactively by providing fraud
                                                            
2
 International Security and Development Cooperation Act                           awareness training and literature, audiovisual
of 1980, Public Law 96–533.
3
                                                                                  aids, and advice on fraud prevention strategies
    Public Law 87–195.
4
    Public Law 97–113.                                                            for agency personnel and employees of foreign
5
    Public Law 95–452.                                                            assistance implementers worldwide.
6
 Consolidated Appropriations Act, 2000, Public Law 106–
113, Division B, Section 1000(a)(7), Admiral James W.
Nance and Meg Donovan Foreign Relations Authorizations
Act, Fiscal Years 2000 and 2001.
7
  Consolidated Appropriations Act, 2004, Public Law 108–
199, Division D, Title VI, Millennium Challenge Act of                                                                                        
                                                                                  8
2003.                                                                                 Public Law 101–576.

                     Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 3 

                                                                               
                                        USAID Office of Inspector General


Locations of OIG Offices. OIG carries out its              Department of State, the Government
audit and investigative work in about                      Accountability Office (GAO), the Special
100 countries from offices in:                             Inspector General for Iraq Reconstruction, the
                                                           Special Inspector General for Afghanistan
•   Baghdad, Iraq
                                                           Reconstruction, the U.S. Army Audit Agency,
•   Cairo, Egypt
                                                           the Naval Audit Service, the Air Force Audit
•   Dakar, Senegal
                                                           Agency, and the Defense Contract Audit Agency.
•   Islamabad, Pakistan
•   Kabul, Afghanistan                                     Iraq Council of Inspectors General.
•   Manila, Philippines                                    Oversight organizations operating in Iraq meet
•   Port–au–Prince, Haiti                                  quarterly to discuss ongoing and planned
•   Pretoria, South Africa                                 activities and to share information, resolve
•   San Salvador, El Salvador                              conflicts, and avoid duplication. The Special
•   Tel Aviv, Israel                                       Inspector General for Iraq Reconstruction chairs
•   Washington, DC                                         the meetings, which are attended by
                                                           representatives of the Offices of Inspector
    Joint Work and Partners                                General for USAID and the Departments of

OIG participates on task forces and cooperates             State and Defense, as well as by representatives of

with other interagency groups. In this reporting           other oversight offices in the Department of

period, for example, OIG contributed to task               Defense.

forces to provide oversight for accountability and
                                                           Department of Justice Task Forces. OIG
transparency in USAID operations in
                                                           actively participates on two Department of Justice
Afghanistan and Pakistan and to assist the
                                                           task forces—the National Procurement Fraud
Department of Justice in addressing procurement
                                                           Task Force and the International Contract
and grant fraud.
                                                           Corruption Task Force. The mission of both task

Southwest Asia Joint Planning Group. This                  forces is to promote the early detection,

group, formed to coordinate oversight activities           prevention, and prosecution of procurement and

in Afghanistan and other countries in the region,          grant fraud associated with increased contracting

issued its most recent Comprehensive Audit Plan            activity for national security and other

for Southwest Asia in March 2011. The group                government programs.

comprises representatives of the Offices of
Inspector General for USAID and the


            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 4 

                                                        
                       USAID Office of Inspector General




              OFFICE OF INSPECTOR GENERAL

                      SEMIANNUAL REPORT
                       TO THE CONGRESS

               UNITED STATES AGENCY FOR
              INTERNATIONAL DEVELOPMENT
        UNITED STATES AFRICAN DEVELOPMENT
                   FOUNDATION
                                   AND

              INTER-AMERICAN FOUNDATION




    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 5 

                                       
                                      USAID Office of Inspector General




                               Reporting Requirements

The Inspector General Act of 1978, as amended            7. A summary of each particularly significant
(5 U.S.C. Appendix 3), and other public laws set             report.
forth congressional reporting requirements for
                                                         8. Statistical tables showing:
the Offices of Inspector General. There are 15
                                                             (a) The total number of reports at the
general categories of reporting requirements.
                                                                 beginning of the period for which a
The summaries of significant findings, starting on               management decision had not been
page 13, respond to Requirements 1 and 2;                        made, including the total dollar values of
responses to the remaining requirements follow                   questioned and unsupported costs
the summaries.                                                   associated with these reports.

                                                             (b) The total number of reports during the
1. Significant problems, abuses, and deficiencies
                                                                 reporting period, including the total
    uncovered.
                                                                 dollar value of questioned costs and
2. Recommendations for corrective action
                                                                 unsupported costs associated with these
    identified.
                                                                 reports.
3. Recommendations described previously for
                                                             (c) The total number of reports during the
    which corrective action has not been
                                                                 reporting period for which a
    completed.
                                                                 management decision was made,
4. Investigative activities, including matters                   including the dollar value of disallowed
    referred to prosecutive authorities.                         costs and the dollar value of costs

5. Reports of incidents in which OIG was                         allowed.

    refused assistance or information.                       (d) The total number of reports for which

6. Questioned costs (QC), unsupported costs                      no management decision has been made

    (UN), and the dollar value of                                by the end of the reporting period.

    recommendations that funds be put to better            9. Statistical tables showing:
    use (BU).



            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 6 

                                                      
 
                                          USAID Office of Inspector General
 




      (a) The total number of reports at the                       management decision has not been made,
          beginning of the period for which a                      and a statement concerning the desired
          management decision had not been                         timetable for achieving a management
          made, including the total dollar values of               decision on each such report.
          recommendations that funds be put to               11.   Revisions of management decisions,
          better use.                                              including a description and explanation of
      (b) The total number of reports issued                       the reasons.
          during the reporting period, including             12.   Management decisions with which the
          the total dollar value of funds put to                   Inspector General is in disagreement.
          better use.
                                                             13.   Noncompliance with the Federal Financial
      (c) The total number of reports during the                   Management Improvement Act of 1996.
          reporting period for which a
                                                             14.   Significant audit findings from contract
          management decision was made,
                                                                   audit reports.
          including the dollar value of
          recommendations that were agreed to by             15.   Peer review results, including the following:

          management, and the dollar value of                      (a) Reviews conducted on OIG during the
          recommendations that were not agreed                         reporting period, or the date of its last
          to by management.                                            peer review and any unimplemented

      (d) The total number of reports for which                        recommendations.

          no management decision has been made                     (b) A list of reviews conducted by OIG
          by the end of the reporting period.                          during the reporting period.

10.     Reports previously issued for which no                     (c) A list of outstanding recommendations
        management decision has been made by                           made by OIG during the reporting
        the end of the reporting period (including                     period.
        the date and title of each such report), an
        explanation of the reasons such




              Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 7 

                                                          
 
                                  USAID Office of Inspector General
 




             Summary Table of Audits Conducted
                 USAID, USADF, and IAF
                              April 1–September 30, 2011
                                                                         Amount of
                                                     Number of
                Type of Report                                        Recommendations
                                                      Reports
                                                                           ($)
    Financial Audits
    USAID programs and operations                           0                    0

    Foundations’ programs and operations                    0                    0

    U.S.-based contractors                                 15             6,822,172

         Quality-control reviews                            0                    0

    U.S.-based grantees                                    46             1,956,506

          Quality-control reviews                           1                    0

    Foreign-based organizations                           149            12,893,969

          Quality-control reviews                          10                    0

    Enterprise funds                                        2                    0

    Performance Audits

    USAID economy and efficiency                           33            32,474,785

    Foundations’ economy and efficiency                     0                    0

    Other                                                   7             8,965,791

    Total                                                263           63,113,223




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 8 

                                                  
 
                                       USAID Office of Inspector General
 


                                     Significant Findings
                                                    USAID
                                                          that had expired, some with dates as far back as
         Peace and Security
                                                          2004. Rats had gnawed open dozens of food bags,

                   Afghanistan                            and auditors noted feces inside and around the
                                                          bags. Further, expired and contaminated food
Review of USAID/Afghanistan’s Afghan
                                                          items were mixed together with food that was fit
Civilian Assistance Program (Report No.
                                                          for use. Other items such as wheelbarrows and
F-306-11-005-S). The Afghan Civilian
                                                          shovels were stored in disorganized piles or even
Assistance Program was designed to assist Afghan
                                                          kept outside.
families and communities that have suffered
losses as a result of military operations against
insurgents and the Taliban. The program is
implemented through a $76 million, 4½–year
cooperative agreement with the International
Organization for Migration (IOM).

Beneficiaries under the program are generally
given in–kind assistance, often in the form of kits
that include food, household items, school
supplies, or tools and equipment for agriculture
                                                           Rodent feces mix with spilled beans on the floor of
or small business activities. So far as OIG could              the IOM food warehouse in Lashkar Gah
                                                                           (photo by OIG).
determine, IOM did not adopt any specific
criteria or guidelines for commodity management           In addition to problems with the commodities,
under the program, and as a result, multiple              there were also difficulties with verifying reported
problems were found. For example, because of a            beneficiaries. A report commissioned by IOM to
lack of inventory records, IOM staff members              confirm assistance concluded that at least
were never able to quantify what materials were           34 percent of the beneficiaries could not be
in the warehouses.                                        verified, most likely because of fraud. Moreover,
                                                          the report’s authors believed that program
As for the quality of products provided, at various
                                                          personnel were actively working to undermine
warehouses auditors found large quantities of
                                                          the results of their investigation. Other funds
flour, beans, rice, tomato sauce, and cooking oil

            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 9 

                                                       
 
                                       USAID Office of Inspector General




              Wheelbarrows in an unusable tangle at an IOM warehouse in Kabul (photo by OIG).

were misspent when IOM used more than                     International Relief and Development
$3.6 million in program funds to purchase cars            Incorporated (IRD) and USAID OIG received
for beneficiaries without USAID’s approval.               information from the U.S. Army that it had
Furthermore, OIG determined that $180,000                 detained and arrested the president of the Ahsan
embezzled by field staff had not been properly            Aman Construction Company (AACC) for
reimbursed to USAID.                                      supporting and facilitating Taliban attacks in
                                                          Kandahar, Afghanistan.
OIG made seven recommendations and
identified more than $8.3 million in                      After confirming AACC was a subcontractor on
questioned costs, of which over $2.6 million              the USAID–funded and IRD–implemented
was for expired or contaminated food.                     Afghanistan Vouchers for Increased Productive
Management decisions have been made on                    Agriculture (AVIPA) Program, OIG worked with
three recommendations, and final action has               the U.S. Army and the USAID Office of Security
been taken on two. OIG investigators are                  to confirm the company’s president was a known
reviewing the allegations of fraud.                       insurgent sympathizer and material supporter.
                                                          From OIG’s referral, AACC and its president
Suspension of Afghan Construction
                                                          were subsequently debarred from any
Company With Connections to Terrorist
Organizations. On September 30, 2010,
           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 10 

                                                       
 
                                       USAID Office of Inspector General

involvement with U.S. Government programs as              travel by Aircraft Charter Solutions personnel led
of May 25, 2011.                                          to more than $525,000 in questioned costs.

Review of USAID/Afghanistan's Portion of                  Furthermore, Aircraft Charter Solutions did not
the Embassy Air Program (Report No. F-                    provide the mission with required work plans,
306-11-004-S). On January 4, 2010, USAID                  performance management plans, or progress
awarded Aircraft Charter Solutions, Inc., a               reports that would detail problems encountered
2–year, $361 million contract to supply air               or resolved, best practices, flights or activities
transportation in Afghanistan. The contractor is          completed, or performance standards. Without
providing aircraft, personnel, equipment, tools,          these reports, the mission was unable to
material, maintenance, spare parts, and                   effectively monitor the program.
supervision for transportation to and from
                                                          OIG also noted that USAID markings were
various locations in the country. The aircraft
                                                          missing from all of the aircraft and that
provided by the contractor includes seven 18–
                                                          environmental requirements for the contract
passenger Beechcraft 1900s, three 8–passenger
                                                          were ambiguous and needed to be updated.
Beechcraft Super King Air 200s, two Bell 412
helicopters, and four MI–8 helicopters.                   Management decisions have been reached on five
                                                          of eight recommendations, with final action
OIG’s review found that the USAID–funded
                                                          taken on three.
portion of the Embassy Air Program is providing
safe and reliable air service in support of               Audit of USAID/Afghanistan’s On-Budget
provincial reconstruction teams and other U.S.            Funding Assistance to the Ministry of
Government development assistance programs in             Public Health in Support of the
Afghanistan; however, the review identified many          Partnership Contracts for Health
opportunities for improvement.                            Services Program (Report No. F-306-11-
                                                          004-P). In 2008, USAID signed an
For instance, between February 2010 and January
                                                          implementation letter with the Government of
2011, 20 percent of passengers (almost 10,000
                                                          the Islamic Republic of Afghanistan to provide
people) with reservations on Embassy Air did not
                                                          the mission’s first core–budget funding assistance
appear for their flights but did not cancel
                                                          to the Ministry of Public Health (MoPH) in
24 hours in advance as required. If these
                                                          support of the Partnership Contracts for Health
passengers had canceled their reservations as
                                                          Services Program.
required, their seats could have been offered to
others. In addition, unapproved international


            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 11 

                                                       
 
                                                               USAID Office of Inspector General

Under this program, the mission planned to                                        visited. Doctors and staff at several facilities
provide MoPH with up to $236 million in budget                                    complained that the volume of patients was up to
assistance over 5 years to support the delivery of                                double their capacity to handle. Patients would
standardized health services in more than a dozen                                 sometimes have to wait up to 5 hours before
target provinces. In 2009, MoPH awarded
$80 million in contracts to ten nongovernmental
organizations (NGOs). These NGOs were
responsible for providing standardized health
services in more than 500 health facilities and
5,500 health posts 9 throughout the target
provinces.

OIG’s audit found that sustainability of the                                          The waiting room at a basic health center in
program was a concern. The government’s                                                 Badakhshan Province (photo by OIG).

extremely low contribution to health care raised                                  receiving medical services, and others would go
questions about the long–term viability of health                                 home without receiving treatment. Some of the
services. With shrinking donor support in the                                     health facilities had old equipment that needed
foreseeable future, the Afghan Government’s                                       repair or replacement. One health facility had a
ability to increase health care coverage to                                       newly donated anesthesia machine, but the
90 percent of the population appears unlikely,                                    responsible NGO ignored repeated staff requests
while its ability to sustain the current level of                                 for training on the equipment. Several of the
coverage remains uncertain. Unless the Afghan                                     buildings were in poor condition, requiring
government is able to generate sufficient revenue                                 repairs, renovation, and painting.
to cover its health care costs, the health sector’s
dependency on donor support will continue.                                        Program management also needs to be improved.
                                                                                  Confusion over who responds to MoPH’s
Although the program has contributed to                                           technical inquiries has led to delayed responses
increasing access and use of health services, OIG                                 or inadequate feedback from USAID. In
noted deficiencies in quality at all health facilities                            addition, the mission has limited experience in
                                                                                  managing on–budget assistance activities.
9
  Health posts each serve approximately 100–150 rural
families, equal to 1,000–1,500 people. Posts are ideally
staffed by a male and a female community health                                   In fact, when trying to resolve the problem of
worker, delivering services from their homes.                                     consistently late payments to the NGOs, Ministry
                                                                                  and USAID staff had difficulty explaining the

                    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 12 

                                                                               
 
                                      USAID Office of Inspector General

lengthy and complicated process, and OIG could           elections and has contributed to the credibility of
not find anyone who could explain the process            elections themselves.
from start to finish. Staff attempted to explain
                                                         The IEP program has also performed well,
the process within their own areas of
                                                         training tens of thousands of Afghans who
responsibility, but they contradicted one another,
                                                         participated in elections as political party or
and most were not sure what happened outside
                                                         coalition members and election observers.
of their own areas.
                                                         Furthermore, IEP implemented civil and voter
OIG made 13 recommendations, and                         education programs that reached hundreds of
management decisions have been reached on 12             thousands of people.
of them.
                                                         Despite these accomplishments, however, no
Audit of USAID/Afghanistan’s Support to                  persuasive evidence exists that these short–term
the Electoral Process and Support for                    results have produced increased citizen awareness
Increased Electoral Participation in                     of the electoral process or a stronger democratic
Afghanistan Programs (Report No. F-306-                  political party system.
11-003-P). To help strengthen Afghanistan’s
                                                         The auditors reported several longer–term issues
electoral system, USAID/Afghanistan has
                                                         that need to be addressed to better ensure
provided assistance through two programs: the
                                                         credible elections, including legal reforms to
Support to the Electoral Process (STEP) Program
                                                         protect the independence of the IEC and ECC,
implemented under a contract with the
                                                         reform of the “single nontransferable vote”
International Foundation for Electoral Systems,
                                                         system of representation in favor of a system in
and the Increased Electoral Participation in
                                                         which votes and electoral results have a more
Afghanistan (IEP) Program implemented through
                                                         predictable and proportional relationship, actions
a cooperative agreement with the Consortium for
                                                         to make Afghanistan’s electoral system more
Election and Political Process Strengthening.
                                                         sustainable, and a more reliable voter registry.
The STEP program has achieved many short–
                                                         Moreover, costs could have been reduced by
term objectives—in particular, those dealing with
                                                         consolidating consortium expenses. Specifically,
civic education and outreach, training, and
                                                         each consortium participant had its own Kabul–
staffing of the Independent Election Commission
                                                         based home office, living quarters, and support
(IEC) and the Electoral Complaints Commission
                                                         functions such as security, human resources, and
(ECC). The program has helped to increase the
                                                         information technology. Combining these costs
capacity of both commissions to administer


           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 13 

                                                      
 
                                        USAID Office of Inspector General

would have saved the mission from $6 million to            by officials from the local satellite office in
$8 million.                                                Peshawar have strengthened the management of
                                                           the road activities, and the use of fixed–amount
Management decisions have been reached on five
                                                           reimbursement agreements has reduced financial
of nine OIG recommendations.
                                                           risk to the program.
                    Pakistan
                                                           The FATA Secretariat hired the Frontier Works

Audit of USAID/Pakistan’s Road                             Organization (Frontier Works) of Pakistan to

Rehabilitation and Reconstruction                          carry out road activities. For additional support,

Activities Under the Quick Impact                          Frontier Works subcontracted with the Pakistani
Projects in South Waziristan (Report No.                   engineering firm National Engineering Services
G-391-11-005-P). In 2009, the Governments                  Pakistan Limited (NESPAK).

of Pakistan and the United States signed a
                                                           Both Frontier Works and NESPAK have
strategic agreement that provided a commitment
                                                           extensive experience in building roads and other
to help generate broad–based economic growth
                                                           infrastructure projects, and both will work on all
through infrastructure development. According
                                                           the Quick Impact Projects in South Waziristan,
to the agreement, USAID is providing
                                                           including the water infrastructure and power
$55 million directly to the Federally
                                                           systems. OIG found that these two entities
Administered Tribal Areas (FATA) Secretariat to
                                                           contributed to the initial success of the road
implement Quick Impact Projects—i.e., rebuild
                                                           activities.
roads, develop water infrastructure, and improve
power systems.                                             Despite early successes, however, OIG found
                                                           room for improvement. The scope of work for
OIG conducted an audit of these activities in
                                                           the contractor selected to build the capacity of
South Waziristan, part of FATA. Despite some
                                                           the FATA Secretariat was too broad, and
difficulties OIG noted with mission operations,
                                                           subsequent changes caused deliverables to be far
auditors determined that the road rebuilding
                                                           behind schedule. Contract files were missing
efforts were on track. Two sections of road
                                                           critical documentation such as branding and
totaling 215 kilometers were completed to
                                                           marking plans; site visit reports; meeting notes;
specifications and had met all requirements for
                                                           and correspondence with contractors, including
reimbursement by USAID.
                                                           documentation related to extensions and
Although security issues caused some delays,               justifications.
work progressed on schedule. Multiple site visits


              Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 14 

                                                        
 
                                     USAID Office of Inspector General

Environmental assessments did not meet                  Audit of USAID/Pakistan’s Community
regulations and caused delays of up to 5 months.        Rehabilitation Infrastructure Support
In addition, although no ethical problems arose,        Program (Report No. G-391-11-006-P). 

neither the mission nor the contractor had ethics       One of the many problems facing Pakistan is
procedures or policies in place in accordance           poor infrastructure for delivering basic human
with federal regulations.                               services such as education, health care, water
                                                        supply, sanitation, electricity, and transportation.
Management decisions have been made on all
                                                        To address these issues, USAID/Pakistan signed
nine OIG recommendations to improve various
                                                        a 5–year, $150 million cooperative agreement
aspects of the program. Final action has been
                                                        with Winrock International to implement the
taken on six.
                                                        Community Rehabilitation Infrastructure
Guilty Pleas of Four Pakistanis in                      Support Program.
Kickback Scheme Related to USAID
                                                        OIG found that Winrock made very little
Project in the Federally Administered
                                                        progress toward achieving any of the main goals
Tribal Areas. In July 2011, Pakistan’s National
                                                        of the program. Although tasked with rebuilding
Accountability Bureau (NAB) announced that
                                                        or renovating up to 2,000 schools and
four men entered voluntary pleas for their roles
                                                        constructing up to 350 small to medium–size
in a bid–rigging scheme related to the USAID–
                                                        infrastructure projects, the program was far
funded Federally Administered Tribal Areas
                                                        behind schedule. Specifically, more than 2 years
Livelihood Development Program (FATA LDP).
                                                        after signing the agreement, the mission had
The goal of FATA LDP was to provide social and
                                                        completed only six career centers, four minor
economic stabilization in FATA.
                                                        renovations of universities, and two design
The $150 million cooperative agreement with the         projects. It had also conducted two feasibility
Academy for Educational Development (AED)               studies and procured furniture and equipment
was terminated for cause by USAID in June 2010          for a children’s health institute.
after an ongoing investigation by OIG and the
                                                        Part of the program’s lack of progress was due to
FBI revealed indications of widespread fraud.
                                                        poor program design. Although Winrock is the
Under Article 25(A) of the NAB Ordinance
                                                        main implementer, 70 percent of the award’s
(1999), the four men returned Rs 12 million
                                                        budget was implemented by subcontractors, who
(approximately $140,000) as part of their
                                                        in turn employed subcontractors. Employing
agreement. The recovered funds will be returned
                                                        multiple subcontractors led to duplicate layers of
to USAID.
                                                        construction oversight. According to the mission,

            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 15 

                                                     
 
                                       USAID Office of Inspector General

Winrock did not have the staff or technical                regarding problems with service delivery or
expertise to monitor subcontractors’ management            criminal misconduct by employees of the Sindh
of the projects effectively.                               Rural Support Organization (SRSO). SRSO is a
                                                           recipient of subcontracts from USAID
In the few cases where projects were completed,
                                                           implementing partners executing flood relief
the mission often did not consider whether they
                                                           efforts for USAID’s mission in Pakistan, Office
could be sustained. For instance, $900,000 worth
                                                           of Foreign Disaster Assistance, and Office of
of furniture and equipment was delivered to the
                                                           Food for Peace.
Khyber Institute of Child Health in Peshawar,
but a year after its delivery, most of the material        To date, the OIG investigation has revealed
remained in storage, unused.                               significant issues with internal controls for the
                                                           distribution of cash and relief goods, as well as
The institute’s director said that the institute did
                                                           the distribution of food and nonfood items to
not have the funding to support the operations of
                                                           undesignated areas. As a result of the
the facility, adding he could not even pay the
                                                           investigation, the NGO has terminated
monthly electric bill. By not ensuring that the
                                                           21 employees to date.
institute was viable, the mission spent more than
$900,000 that could have been put to better use.           Audit of USAID/Pakistan’s Management
                                                           of Preaward Assessments (Report No. G-
Furthermore, according to the program’s activity
                                                           391-11-004-P). The Enhanced Partnership with
approval document, projects above $500,000
                                                           Pakistan Act of 2009 authorized $7.5 billion in
required written consent. However, nearly $13
                                                           U.S. Government assistance over 5 years to
million in projects were implemented without
                                                           promote an enhanced strategic partnership with
such approval. The report also described other
                                                           Pakistan and its people. In authorizing these
improvements needed in internal controls.
                                                           funds, the act encourages the U.S. President, as
Management decisions have been made on all ten             appropriate, to use Pakistani firms and NGOs to
recommendations, and final action has been                 work with local leaders to build local capacity. To
taken on two.                                              facilitate this strategy, USAID estimated that
                                                           approximately 50 percent of fiscal year 2010
Personnel Terminations Related to
                                                           funding, or $750 million, would go through
Corruption in Pakistan Disaster Relief
                                                           Pakistani federal and provincial agencies and
Projects. During the spring and summer of
                                                           local organizations.
2011, the USAID OIG Pakistan Anti–Fraud
Hotline received more than 200 complaints


            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 16 

                                                        
 
                                      USAID Office of Inspector General

OIG found that mission’s preaward process did            contract to the Louis Berger Group (LBG) to
provide a reasonable basis for identifying               expand the competitiveness of the private sector
significant financial management vulnerabilities;        in the agriculture and agribusiness sectors.
however, OIG noted weaknesses in the mission’s
                                                         Program goals included increasing agricultural
management of the preaward process. For
                                                         sector productivity and total sales of USAID–
instance, the mission did not prioritize or follow
                                                         assisted enterprises by at least $300 million;
up on significant vulnerabilities identified in
                                                         increasing and monitoring the value of financial
assessments. Of the 28 assessment reports
                                                         resources raised by assisted enterprises (i.e.,
completed during fiscal year 2010, the 8 selected
                                                         agribusiness loans); and generating at least
for testing noted over 250 weaknesses in the
                                                         40,000 new agricultural and agribusiness jobs:
potential recipients’ ability to properly manage
                                                         20,000 full time and 20,000 part time. Despite its
funds.
                                                         contractual obligations, LBG fell short on all of
The mission did include 55 of the reported               its goals.
weaknesses in the recipients’ agreements and
                                                         In almost all cases, LBG did not measure results,
stipulated that the weaknesses should be
                                                         report results, or show adequate documentation.
adequately addressed. However, the mission did
                                                         The lack of supportable agribusiness program
not include or otherwise address the remaining
                                                         results was attributed to several factors,
195 weaknesses. In addition, for two of the eight
                                                         mismanagement being foremost. The mission
audited assessments that contained special award
                                                         proposed a rigorous methodology for measuring
conditions, the mission disbursed $204 million
                                                         results of the program, but neither USAID nor
to the Government of Pakistan before it obtained
                                                         the contractor focused on managing for results.
any evidence that conditions had been met and
weaknesses resolved.                                     Numerous problems existed with program
                                                         implementation. Although over the 3–year
OIG made four recommendations to help the
                                                         period this contract had five different contracting
mission improve various aspects of the process.
                                                         officer’s technical representatives (COTRs),
Management decisions have been made on all of
                                                         USAID could not explain why the performance
them, and final action has been taken on three.
                                                         monitoring plan was not used. The last two
                       Iraq                              COTRs both stated that the performance
                                                         monitoring plan was not useful—one calling it
Audit of USAID/Iraq’s Agribusiness
                                                         an inflexible document and the other
Program (Report No. E-267-11-002-P). In
                                                         acknowledging that it needed to be revised.
May 2007, USAID/Iraq awarded a $343 million

           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 17 

                                                      
 
                                      USAID Office of Inspector General

Documentation that was essential to project              USAID/Iraq’s current microfinance activity
oversight—such as proof of any of the COTRs’             began in January 2008 with the Provincial
inspection and receipt or acceptance of                  Economic Growth Program. Contracted to LBG,
deliverables and copies of other performance             it is expected to cost $174 million and be in
records—was not included in any program files.           operation through January 2013. The Provincial
                                                         Economic Growth Program includes seven
Because of these problems, USAID/Iraq did not
                                                         program areas, one of which is microfinance.
track whether the agribusiness program goals
                                                         Under the microfinance activity, LBG has
were on or behind schedule. In addition,
                                                         provided funding and technical assistance and
subcontracts lacked adequate documentation and
                                                         training to nine microfinance institutions, 10 and
were susceptible to fraud. Grants with special
                                                         as of December 2010, the USAID–supported
conditions, as well as grants awarded to
                                                         microfinance institutions have provided
microfinance institutions, were not monitored
                                                         257,209 loans valued at $593 million.
and were also susceptible to fraud.
                                                         Although OIG was unable to confirm any loans
The audit report made 17 recommendations to
                                                         with borrowers because of security restrictions,
the mission. Management decisions were reached
                                                         the auditors determined that the mission’s
on eight and final action taken on three. Three of
                                                         microfinance activity had increased access to
the recommendations pending management
                                                         sustainable financial services. The contractor had
decisions involved $23 million in questioned
                                                         also had made progress in promoting
costs.
                                                         institutional development.
Audit of USAID/Iraq’s Microfinance
                                                         OIG found that multiple improvements could be
Activity Under Its Provincial Economic
                                                         made, however. The contract with LBG did not
Growth Program (Report No. E-267-11-
                                                         specifically require a focus on loans to the poor,
003-P). In Iraq, collateral requirements are high,
                                                         and the activity did not have indicators to
and many poor and low–income individuals are
                                                         measure such lending, despite statutory and
excluded from bank services. Microfinance
                                                         regulatory direction to do so. In addition, LBG
institutions were established in Iraq starting in
                                                         did not consistently calculate the number of jobs
2003 with funds from the U.S. Government to
                                                         that were sustained at firms receiving microloans.
provide financial services to members of this
                                                         As the contractor changed the methodology for
population who would otherwise be unable to
secure loans.                                                                                                        
                                                         10 According to the contractor, three additional
                                                         microfinance institutions received technical assistance and
                                                         training, but did not receive grants.

           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 18 

                                                      
 
                                      USAID Office of Inspector General

calculating jobs from year to year and the mission       authorized a continuing INP II program with
neither verified data nor conducted a data quality       estimated expenditures of $750 million for
assessment, OIG questioned the reliability of the        construction activities. Recently, USAID awarded
reported number of jobs.                                 a $150 million indefinite quantity contract to
                                                         Black & Veatch for construction management,
OIG made three recommendations for
                                                         and the mission was evaluating proposals from
improvements in performance monitoring and
                                                         construction firms.
data quality assessments, and management
decisions have been reached on all of them.              OIG audited three task orders awarded to
                                                         American Intercontinental Constructors for
            West Bank and Gaza
                                                         construction and rehabilitation of water systems

OIG’s Oversight Activities in the West                   and found that only one was completed on time.

Bank and Gaza. During this period, OIG                   Under that task order, OIG found that

issued 42 final audits of contractors and                construction of pipelines and reservoirs in the

grantees in the West Bank and Gaza. The                  western Hebron Governorate had reduced water

reports identified questioned costs of                   loss that was previously due to leakage and also

approximately $2 million of the $22 million              reduced reliance on water being transported by

audited. In addition, the reports identified areas       truck at five times the cost of that provided by the

for improvement in internal controls and                 Palestinian water system.

instances of noncompliance with agreements.  
                                                         However, the two other task orders suffered from

Audit of USAID/West Bank and Gaza’s                      multiple delays and unreliable documentation.
Infrastructure Needs Program I: Selected                 Because of data reporting weaknesses, USAID
Water Task Orders (Report No. 6-294-                     could not rely on the information to track
11-008-P). In 2008, USAID launched the                   progress, make decisions about future allocations
Infrastructure Needs Program (INP) I, a project          of funds, or report accurately to Congress.
with $300 million devoted to construction
                                                         OIG made five recommendations, and
activities—such as rehabilitation of roads, water
                                                         management decisions have been reached on all
systems, and schools in the West Bank—and
                                                         of them.
$58 million directed to engineering and
construction management services.                        Audit of USAID/West Bank and Gaza’s
                                                         Palestinian Authority Capacity
With most INP I projects completed or nearing
                                                         Enhancement Program (Report No. 6-
completion, USAID/West Bank and Gaza
                                                         294-11-009-P). In September 2008,

           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 19 

                                                      
 
                                        USAID Office of Inspector General

USAID/West Bank and Gaza awarded a 3–year,                 recently approved the formation of a national
$20 million task order to Chemonics                        steering committee to support the COE
International to implement the Palestinian                 initiative.
Authority Capacity Enhancement Program to
                                                           Although USAID/West Bank and Gaza and its
support public sector reform efforts.
                                                           implementer worked to develop indicators that
The program has been highly successful. Sixteen            measure the program impact described above,
citizen service facilities across the West Bank have       OIG found that some indicators’ reported results
been refurbished and upgraded to provide more              were unsupported and some of the baseline data
effective and efficient citizen services, such as          had errors.
issuance of licenses, passports, and certificates.
                                                           Management decisions have been made on all
The Centers of Excellence (COE) initiative,                five recommendations, and final action has been
under which the implementer interacts with five            taken on two.
partner ministries to conduct self–assessments
and empower government employees to identify                       Just and Democratic
needs and reforms, has contributed to the                                  Government
development of a citizen–centered, results–
focused institutional culture. Consequently, the                           Good Governance
program has received support from all levels of
                                                           Civil Settlement Related to Fraud in
the ministries in which it operates. For example,
                                                           USAID-Funded Programs in Afghanistan
one COE team leader at the Ministry of
                                                           and Pakistan. In June 2011, the Academy for
Transportation said that employees used to face
                                                           Educational Development (AED) agreed to settle
resistance, but now they are part of the overall
                                                           allegations that the company submitted false
transformation within the ministry, and women,
                                                           claims to USAID in connection with two
in particular, are more recognized for their skills.
                                                           cooperative agreements under which AED
Chemonics believes that the changes in culture             provided foreign assistance in Afghanistan and
brought about by the COE process will have a               Pakistan. Although certain terms of the
lasting effect when the program ends, and the              settlement with the Department of Justice are
progress made thus far will likely be sustainable          contingent on future events, AED has already
despite the uncertainties about the future                 paid $5,635,000 toward these claims and could
leadership and budget of the Palestinian                   pay up to $10 million more over the next 3 years.
Government. In fact, the Palestinian Cabinet


            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 20 

                                                        
 
                                      USAID Office of Inspector General

Prior to the settlement agreement, the U.S.              OIG found that the program is making progress
Government alleged that AED failed to ensure             in helping the Government of Vietnam
that its actions under these two cooperative             strengthen its regulatory system to reduce the
agreements complied with applicable regulations          costs and risks of doing business in Vietnam. It is
concerning competition in procurements,                  also supporting the development and financing
adherence to contract specifications, and                of infrastructure to improve public services and
supervision of its subcontractors. The                   increasing the government’s and private sector’s
government further alleged that AED failed to            understanding of key competitiveness issues.
inform USAID that it had discovered defects in
                                                         Although the program has been successful, the
its internal control systems and that certain AED
                                                         contractor’s lack of a clear monitoring and
subcontractors may have been involved in
                                                         evaluation methodology led to inconsistent and
corruption and wrongful activities.
                                                         incomplete performance data. The contractor
Contractor Employee in Haiti Arrested in                 submitted required monthly reports, but they did
Coordination With OIG. An OIG                            not convey a complete picture of progress made
investigation confirmed an allegation that Foyer         toward achieving planned results. The reports
Civique de la Jeunesse Haitienne, a subcontractor        were only a few pages long and did not track
in Haiti, had stolen tens of thousands of dollars        progress against targets.
on an election–related activity. OIG coordinated
                                                         OIG made four recommendations to improve the
the investigation with the Haitian National Police
                                                         monitoring and evaluation of the project.
(HNP), who later arrested the accused for
                                                         Management decisions have been made on all of
claiming to have committed project funds to
                                                         them, with final action taken on one.
nonexistent organizations. OIG made a referral
to USAID to seek repayment of $66,000 that was                 Rule of Law and Human Rights
used for fraudulent purposes.
                                                         Follow-Up Audit of USAID/Colombia’s
Audit of USAID/Vietnam’s                                 Human Rights Program (Report No. 1-
Competitiveness Initiative Phase II                      514-11-008-P). USAID/Colombia’s Human
(Report No. 5-440-11-007-P). USAID
                                                         Rights Program is the largest USAID initiative of
awarded a 4½–year, $12.4 million task order              its type in the world. The program is
contract to the DAI/Nathan Group to                      implemented by Management Sciences for
implement the second phase of the Vietnam                Development, Inc., under a $38.8 million
Competitiveness Initiative, a program that has           contract that began in 2006. One of the
been in place since 2001.                                program’s main activities is strengthening the

           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 21 

                                                      
 
                                     USAID Office of Inspector General

Early Warning System (EWS) used by the Office           of Norway, the European Commission, the
of the National Ombudsman, the Colombian                World Bank, and other international donors to
institution responsible for promoting human             assist with supplying electricity to selected areas.
rights.
                                                        To this end, USAID entered into two contracts
OIG conducted a follow–up audit to determine            with International Resources Group (IRG),
whether the recommendations in our fiscal year          valued collectively at nearly $20 million. IRG was
2009 report had been completed. Currently, all          responsible for implementing the Emergency
but one has been fully addressed. The remaining         Power Program and the Liberia Energy Assistance
recommendation deals with establishing                  Program, which were designed to
timelines for EWS to prepare and forward risk           recommercialize the Liberia Electricity
reports, which detail potential human rights            Corporation and increase access to affordable
abuses.                                                 energy supplies to foster economic, social, and
                                                        political development.
USAID provided a consultant to draft timelines,
but the draft had not been implemented at the           OIG’s audit determined the mission had
time of the audit. OIG reiterated the need for          increased access to modern energy services, but
this documentation to be completed, and USAID           the lack of documentation meant results were not
has reached a management decision on the                always supported. From 2006 through 2009, the
recommendation.                                         mission operated in reactive mode, trying to help
                                                        as many Liberians as rapidly as possible and
      Economic Growth and                               responding to quickly changing and urgent needs

                Prosperity                              rather than establishing long–term plans and
                                                        targets. The mission also experienced
              Economic Security                         considerable staff turnover and shortages.

Audit of USAID/Liberia’s Energy                         For example, both energy programs had four
Program Activities (Report No. 7-669-11-                different COTRs during the implementation
007-P). For more than a decade, Liberia suffered        period. In addition, the mission’s activities were
through a civil war that destroyed most of its          high risk given the postconflict working
infrastructure and devastated its economy. In           environment. With the increased size of the
response to the Liberian Government’s priorities        mission budget each fiscal year, the staff faced
for national recovery, USAID is collaborating           greater demands and had less time to perform
with the Liberian Government, the Government            routine functions. Therefore, monitoring and


           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 22 

                                                     
 
                                      USAID Office of Inspector General

evaluation activities did not always meet                Investigation Leads to $105,000 Savings
requirements.                                            and Termination of Subcontract by DAI.
                                                         A DAI procurement officer instructed his
In addition, OIG auditors found that the mission
                                                         subordinate to contact companies bidding on
did not complete a required initial
                                                         subcontracts under the RAMP UP EAST
environmental examination for either program.
                                                         program in Afghanistan and request that they
Furthermore, the mission did not properly
                                                         increase their bids to cover the cost of a kickback
monitor or enforce branding requirements.
                                                         to the DAI employees for awarding the
Management decisions have been reached on all            subcontract. Farid Construction Professional
seven recommendations.                                   Company (FCPC) subsequently entered into an
                                                         agreement with the DAI employee to increase its
Liberian USAID Contractors Sentenced
                                                         bid to cover the cost of the kickback.
to 12 Years’ Incarceration in the United
States. As reported in our previous semi–                In exchange for this payment, FCPC would be
annual report, two former employees of World             awarded the contract. DAI terminated the
Vision Liberia were convicted in November 2010           employee in April 2011. Because of these
of conspiracy, wire fraud, false claims, witness         findings, DAI did not award the contract to
tampering, and mail fraud for selling food that          FCPC, resulting in a savings of $105,000.
was intended for Liberian families on the black
market and diverting construction materials to                         Environment
their own homes.
                                                         Audit of Selected USAID Missions’ Efforts
In addition to 142 months’ imprisonment, each            to Mitigate Environmental Impact in

was sentenced in April 2011 to 3 years’                  Their Project Portfolios (Report No. 9-

supervised release; restitution of $1.2 million;         000-11-002-P). Adverse environmental effects

and special assessments of $1,200 and $1,300,            stemming from economic development are a

respectively. USAID suffered a loss of nearly            fundamental concern in the developing world. As

$2 million because of the actions of the two             USAID–funded projects are implemented across

individuals.                                             the globe, the environmental impacts of those
                                                         projects must be carefully considered and
    142 months’ imprisonment of two                      mitigated to the extent appropriate. OIG
      defendants and restitution of                      conducted four audits—including 39 projects
        $1.2 million in OIG case                         valued at approximately $459 million—of



           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 23 

                                                      
 
                                      USAID Office of Inspector General

activities implemented by USAID/Democratic                 Management decisions have been made on all
Republic of Congo, USAID/Egypt,                            three recommendations.
USAID/Kenya, and USAID/Kosovo.
                                                           Audit of USAID/Bangladesh’s Integrated
Although the four missions were generally                  Protected Area Co-Management Project
achieving their goal to mitigate environmental             (Report No. 5-388-11-008-P). Bangladesh’s
impact in their project portfolios, OIG found              unique geography makes it extremely vulnerable
opportunities for improvement. For instance, at            to global climate change. To support the
three of the four missions, officials did not always       management and restoration of Bangladesh’s
incorporate the environmental requirements into            natural resources, USAID/Bangladesh initiated
solicitations and awards, omissions that may               the $12.8 million Integrated Protected Area Co–
prevent USAID from enforcing these                         Management (IPAC) Project through a $12.8
requirements.                                              million contract with IRG.

In addition, some missions neglected to monitor            OIG determined that the project has made
environmental impact during the course of                  progress by developing a national protected area
project activities. Mission representatives in some        co–management strategy, 11 by building
instances either were not aware of the compliance          government and community capacity in protected
responsibilities or did not remember to observe            area co–management, by providing alternative
environmental conditions during site visits.               forms of income generation, and by expanding
Furthermore, two of the four missions had                  the area under co–management. In addition, the
difficulty staffing full–time environmental advisor        project assisted the development or reform of
positions.                                                 15 laws and regulations to expand co–
                                                           management practices within Bangladesh.
OIG made recommendations to the four
missions to address the issues noted above.                According to the implementing partner, these
However, the audit team was concerned that                 laws and regulations seek to strengthen
projects at other missions throughout the world            environmental protection and decentralize
might have the same environmental compliance               natural resource management. They include the
issues. Given the importance of preventing                 declaration of nine new protected areas and a
adverse environmental effects stemming from                new policy granting 50 percent of revenues from
economic development, OIG believes that all
missions should develop clear and explicit                                                                             
                                                           11
                                                             Co–management establishes the idea of participation by
procedures to mitigate environmental impact.               local communities and government officials in developing
                                                           sustainable management practices for natural resources.

             Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 24 

                                                        
 
                                       USAID Office of Inspector General

entry fees to protected areas to finance                  Audit of USAID/Ecuador’s Environment
community development.                                    Program (Report No. 1-518-11-009-P).
                                                          Ecuador has one of the highest rates of
The project has trained 11,313 participants in
                                                          deforestation in Latin America. The country’s
subjects such as the concept of co–management
                                                          economic development model exploits natural
in protected areas, natural resource management
                                                          resources at an unsustainable rate, increasing the
and biodiversity conservation, and adaptation to
                                                          vulnerability of biodiverse areas.
and mitigation of climate change. The project
also trained community members in developing              To help protect threatened biodiverse areas while
alternative income generation skills such as home         improving the livelihoods of the populations
vegetable gardening, bamboo product                       living in and around these territories,
development, pond fish culture, and native cloth          USAID/Ecuador currently supports three
weaving.                                                  multiyear projects: the Sustainable Coasts and
                                                          Forests Project, a $13.3 million contract
However, auditors identified several
                                                          implemented by Chemonics; the Integrated
implementation difficulties. For instance, because
                                                          Management of Indigenous Lands Project, a
of delays in the approval of key project proposal
                                                          $6.1 million cooperative agreement implemented
documents by the Bangladesh government and
                                                          by the Wildlife Conservation Society (WCS); and
the redirection of previously earmarked funds,
                                                          the Protecting Water Resources to Conserve
matching funds originally intended to be used for
                                                          Biodiversity Project, a $3 million cooperative
the project may not be available, and many
                                                          agreement implemented by Fondo para la
activities will need to be postponed or canceled.
                                                          Conservación del Agua (FONAG), an
Although sustainability is a key component for            Ecuadorian institution also responsible for
the project’s success and is crucial for the              managing the Quito water endowment fund.
continued management and restoration of
                                                          OIG found that the three projects were making
Bangladesh’s natural resources, sustainability
                                                          positive contributions to the conservation and
concerns have not yet been fully addressed.
                                                          protection of Ecuador’s diverse habitats. For
OIG made three recommendations. Management                example, Chemonics had provided effective
decisions have been made on all of them and               technical assistance to Ecuador’s Ministry of
final action has been taken on two.                       Environment in park and forest management and
                                                          was working to implement a system of
                                                          monitoring and surveillance in threatened
                                                          marine areas.

            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 25 

                                                       
 
                                       USAID Office of Inspector General

WCS had helped indigenous groups obtain titles            earmarked funds to restore the positions, as well
and joint management agreements for their                 as pay for other administrative costs. As a result
lands, was making some progress with                      the mission did not have about $657 thousand in
institutional strengthening of indigenous                 earmarked funds available for its biodiversity
leadership, and was helping indigenous                    activities. These funds were meant for the
communities qualify for benefits. FONAG was               programs and therefore shifting them to salaries
implementing several unique environmental                 and other costs reduced the impact the funding
education and training programs and supporting            could have had.
the development of water funds in other parts of
                                                          Management decisions have been made on all
the country.
                                                          nine recommendations.
Despite these successes, OIG found that multiple
problems were still present in all three programs.              Investment in People
For instance, none the three implementers had a
                                                                   Humanitarian Assistance
clear methodology for determining or verifying
economic benefits from the project’s activities. As       Audit of USAID’S Efforts to Provide
a result, the reported data regarding economic            Shelter in Haiti (Report No. 1-521-11-003-
benefits is of limited use. In addition,                  P). Following the January 2010 earthquake in
sustainability is an issue with the WCS program.          Haiti, USAID’s Office of Foreign Disaster
Despite the many achievements with indigenous             Assistance (OFDA) funded 16 grants valued at
partners, OIG determined that most jobs and               more than $138 million, which included
projects will cease after the funding stops,              significant support for transitional shelter. These
undermining the work done.                                grants provided for the construction and repair of
                                                          shelters and homes to serve as secure locations
Another issue was the mission’s use of earmarked
                                                          for families to live in for up to 3 years. OFDA
funds to cover administration and oversight
                                                          intended to construct or repair more than
activities. Because USAID/Washington
                                                          47,000 shelters and homes by the end of
eliminated funding for two key mission positions,
                                                          November 2010.
USAID/Ecuador chose to use $1.1 million of




            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 26 

                                                       
 
                                      USAID Office of Inspector General




                      A shelter built with OFDA funds perches on a hillside (photo by OIG).



OIG’s audit of these activities found that poor             number of shelters to be constructed under their
planning and delays contributed to grantees not             grants by 24 percent.
meeting their construction goals. By mid–
                                                            In addition, grantees committed to repair
November, grantees had built only
                                                            65 percent fewer homes damaged by the
7,179 transitional shelters, or 22 percent of the
                                                            earthquake than OFDA targeted for repairs. OIG
building target. Completed shelters varied greatly
                                                            found that OFDA did not provide standardized
in terms of quality and price, and some did not
                                                            shelter designs that could have reduced costs,
fully comply with international standards.
                                                            prevented delays, and ensured that the shelters
In addition, the audit found that without the               met international standards for basic security,
infusion of more funds—approximately                        privacy, and comfort. OFDA also did not provide
$10 million for transitional shelters alone—                timely assistance in resolving problems related to
OFDA was not likely to achieve its construction             importing building materials, such as clearing
goals. Because of rising costs and unrealistic              customs delays. Moreover, the grants did not
initial cost estimates, grantees reduced the

           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 27 

                                                         
 
                                                               USAID Office of Inspector General

include requirements for mechanized removal of                                    implementers of education activities to help in
rubble, which further impeded the progress.                                       the rebuilding process. American Institutes for
                                                                                  Research (AIR), which was implementing the
USAID has made management decisions and
                                                                                  Haitian Program Supporting Education Reform
taken final action on two out of seven
                                                                                  (PHARE), was asked to erect provisional school
recommendations.
                                                                                  structures and provide training to educators.
                                 Education
                                                                                  The mission directed its second main

Audit of USAID/Haiti’s Education                                                  implementer, Education Development Center,

Activities (Report No. 1-521-11-005-P).                                           Inc., to develop the capacity of the Haitian Out–

Even before the January 2010 earthquake                                           of–School Youth Livelihood Initiative so that it

devastated Haiti, supply and demand for                                           could become an independent, standalone NGO

education in the country were imbalanced.                                         by March 2011. Total obligations for both pre–

Although a high social demand for schooling                                       and post–earthquake programs for these two

exists, the State’s capacity to provide education                                 implementers came to more than $44 million.

services and govern the education sector is weak.
                                                                                  OIG auditors determined that under PHARE,

More than 85 percent of primary schools are                                       AIR had constructed 322 classrooms with plans

managed with minimal oversight by churches,                                       to construct 300 additional classrooms by July

NGOs, and for–profit operators. In addition,                                      2011. The mission provided evidence

primary school enrollment rates are low—close to                                  demonstrating that it had monitored the

50 percent 12—compared with the average in                                        construction of the schools and in some cases

Latin America and the Caribbean of 94                                             hosted public ceremonies upon their completion.

percent. 13
                                                                                  However, after the schools’ completion, the

An assessment following the earthquake revealed                                   mission did not verify that the classrooms

that 80 percent of the schools in the west of Haiti                               continued to be used as originally intended.

were destroyed or damaged, 14 so the USAID
                                                                                  Although AIR reported that it had delivered
mission redirected the efforts of its two main
                                                                                  training to 56 individuals after the earthquake,
                                                                                  the implementer had not developed a systematic
                                                            
12
  Haiti Poverty Reduction Strategy Paper Progress Report,                         process to obtain feedback from those attending
IMF 2009.
13
  UNESCO Institute for Statistics, Montréal, Canada,
                                                                                  training.
2008.
14
  Haiti Ministry of National Education and Vocational
Training.

                    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 28 

                                                                               
 
                                                               USAID Office of Inspector General

                                                                                  thousands the number of teachers and educators
                                                                                  and the number of officials and administrators
                                                                                  trained with U.S. Government support.

                                                                                  In addition, AED was supposed to finalize
                                                                                  textbooks for Grades 1 through 6 by the end of
                                                                                  2007. According to USAID and AED officials,
                                                                                  the textbooks were finalized at the end of 2008,
                                                                                  1 year later than planned. Moreover, the
                                                                                  performance management plan does not allow
      Secondary–school students attend classes in a
                                                                                  USAID to determine the effectiveness of the
     USAID constructed classroom (photo by OIG).
                                                                                  USAID–funded activities.
OIG made two recommendations to improve the
effectiveness and implementation of                                               Another problem stemmed from cost sharing.

USAID/Haiti’s education activities.                                               FEPADE reported technical support and

Management decisions have been made on both                                       volunteer hours as cost sharing; however, it did

recommendations.                                                                  not have support to show how these technical
                                                                                  resources contributed to the program (e.g.,
Audit of USAID/El Salvador’s Education
                                                                                  activity reports or time sheets). As a result,
Activities (Report Number 1-519-11-007-
                                                                                  FEPADE overreported approximately
P). In 2005 and 2006, USAID signed agreements
                                                                                  $1.4 million in questioned cost–sharing
with the Academy for Educational Development
                                                                                  contributions. Furthermore, donated supplies
(AED) 15 and the Fundación Empresarial para el
                                                                                  from the International Book Bank (IBB) were
Desarrollo Educativo (FEPADE) for education
                                                                                  incorrectly valued. AED valued the total donated
projects in El Salvador with a combined value of
                                                                                  books at more than $4 million, and IBB claimed
almost $20 million.
                                                                                  their value was $3 million. This large difference

OIG found that both implementers were                                             in estimated prices makes it difficult to evaluate

contributing to the goal of increasing and                                        the reasonableness of either IBB or AED cost

improving basic education opportunities,                                          estimates and thus the accuracy of AED’s claimed

although certain aspects needed to be improved.                                   cost share.

For instance, the mission overreported by several
                                                                                  Management decisions were made on all seven of
                                                                                  OIG’s recommendations, and final action has
15
  On June 8, 2011, the nonprofit organization Family
Health International (FHI) purchased all assets and                               been taken on four.
programs belonging to AED.

                    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 29 

                                                                               
 
                                       USAID Office of Inspector General

                  Food Security                           proceeds from the sale of cereal in his home.
                                                          Because he maintained no accounting records,
Audit of USAID’s Food Assistance Under
                                                          reconciling the cash with sales was impossible. In
the Multiyear Assistance Program in
                                                          addition, only 18 bags of cereal were in the
Niger (Report No. 7-683-11-008-P). The
                                                          inventory, although the cereal bank should have
Food for Peace (FFP) program in Niger focuses
                                                          been fully stocked.
on agricultural production, maternal and child
health and nutrition, natural resource
management, and marketing and income
generation. USAID engaged multiple partners,
including Africare, Counterpart International,
and a consortium led by Catholic Relief Services
(CRS) that included CARE and Helen Keller
International. These organizations were tasked
with implementing related nonemergency
activities at a cost of nearly $67 million.
                                                          A cereal bank storekeeper retrieved these bundles of
                                                                   cash (approximately $5,400) from
OIG determined that the audited food assistance
                                                                       his house (photo by OIG).
activities are not on track to meet the program’s
                                                          At another cereal bank in the department of
goals of improving food security and maternal
                                                          Mainé Soroa, no inventory records were
and child health and nutrition. Security
                                                          available. Furthermore, the bags of cereal in the
concerns, including kidnappings and killings of
                                                          store were disorganized and not palletized, and
expatriates, have affected cooperating sponsors’
                                                          some bags were open. In the cereal bank in the
ability to implement their programs. Travel and
                                                          village of Koutoutourou, the warehouse was
monitoring efforts of program officials have been
                                                          completely empty and, although some records
restricted, and some targeted villages could not be
                                                          existed, they were impossible to reconcile.
reached, forcing cooperating sponsors to find
alternate methods to implement programs.                  Management decisions have been reached on all
                                                          ten recommendations, and final action has been
For instance, implementers did not track or
                                                          taken on five.
manage inventory effectively at the Food for
Peace cereal banks or warehouses in Niger. OIG            Audit of USAID/Rwanda’s Agricultural
found that some were not operating as intended,           Activities (Report No. 4-696-11-008-P).
and at one cereal bank, the storekeeper kept the          OIG conducted an audit of several agricultural

            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 30 

                                                       
 
                                       USAID Office of Inspector General

activities implemented by USAID in Rwanda:                However, the project recently leveraged more
programs to promote the production and sale of            than $900,000 in private investment and helped
coffee, pyrethrum (a natural insecticide), chili          facilitate five deals between banks and
peppers, and dairy products; to improve milk and          cooperatives.
coffee quality; and to increase food security by
                                                          Although some evidence suggested that USAID’s
linking surplus staple crops to markets.
                                                          agricultural interventions were beneficial, no
The implementers of the audited projects—                 overall data was available to measure the
cumulatively valued at nearly $16 million—were            mission’s progress toward meeting its primary
the Texas Agricultural Experiment Station, Land           goals. Data reported was often inaccurate or
O’Lakes, the African Breeders’ Service Total              incomplete because the mission officials lacked
Cattle Management and CHF International, and              guidance about their monitoring and evaluation
CARANA Corporation.                                       responsibilities. In addition, multiple project
                                                          locations did not display signs identifying USAID
A number of program achievements were noted.
                                                          as a sponsor, and USAID officials could not
For instance, Land O’Lakes—through its Dairy
                                                          explain why signs were not posted at these
Competitiveness Program—supported the
                                                          locations.
creation of the Rwanda National Dairy Board
and established the country’s first milk–quality–         Management decisions have been reached on all
testing laboratory. Through small grants and              four of OIG’s recommendations for program
training, the project also increased income               improvements.
generation for people living with HIV/AIDS. In
                                                          Audit of USAID/Bolivia’s Integrated Food
addition, since 2005, the SPREAD Project
                                                          Security Program (Report Number 1-
(Sustaining Partnerships to Enhance Rural
                                                          511-11-006-P). The 5–year Integrated Food
Enterprise and Agribusiness Development) has
                                                          Security (IFS) Program, implemented under a
led to an increase in coffee quality and
                                                          contract with Abt Associates, Inc., is USAID’s
production from which Rwandan farmers have
                                                          sole program focused on food insecurity in
derived numerous economic benefits.
                                                          Bolivia. 16 This complex program strives to
Other projects had mixed results. For example, in         promote sustainability and integration of
the project to link surplus crops to markets, key         USAID’s food security components (e.g., food
first–year production goals were not achieved             availability and access). Originally awarded at
because the mission initially underestimated the                                                                      
                                                          16
                                                            Bolivia was not included as a beneficiary for USAID’s new
difficulty of enlisting private sector support.           poverty and hunger program, Feed the Future, and previous
                                                          food security programs were discontinued as of 2010.

            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 31 

                                                       
 
                                     USAID Office of Inspector General

$24 million, the contract was increased to $26.3          used on approximately 4,000 acres in the past
million in September 2010 because additional              year. 17
funds became available to the mission.
                                                          Other problems with the program stemmed from
USAID/Bolivia expected that the new funding               the potential overcompensation of program
would expand the program; however, despite the            subcontractors. The mission did not effectively
increase, Abt proposed a reduction in the                 monitor Abt’s cost–sharing agreements with the
program’s scope. The contract initially required          communities. In one community, Abt and the
implementation in 18 municipalities, but Abt              communities were each planning to fund the
intends to decrease this to between 7 and 11              same subcontractor for the same work,
municipalities. This decrease is partly because the       potentially overpaying him by more than
contractor underestimated the project funds               $13,000.
needed to implement the program in remote
                                                          In addition, USAID lists Abt as one of its top
locations.
                                                          20 vendors but has not audited Abt’s accounting
The mission is also potentially facing problems           system since 2000. Therefore, USAID does not
with a subgrantee, the Center for Promotion of            know whether the system is adequate for
Sustainable Technologies (CPTS in Spanish). The           accumulating and reporting costs under
mission awarded a cooperative agreement to                government contracts, thereby putting U.S.
CPTS in September 2006 to design quinoa–                  taxpayer money at risk. Management decisions
harvesting equipment. However, Abt, under the             have been made on all 12 OIG recommenda–
IFS Program, awarded CPTS $2.2 million for the            tions, and final action has been taken on 2 of
same task. Although the mission paid for the              them.
design of the equipment, it has not seen the
blueprints and may have problems obtaining                                                   Health 
patent rights.
                                                          Audit of USAID/Sudan’s Maternal and
Along with the harvesting equipment, CPTS used            Child Health Activities (Report No. 4-
USAID funds to design an organic pesticide that           650-11-010-P). In 2004, USAID initiated the

it intends to patent. Aside from issues with the          Sudan Health Transformation Project to improve
patent rights, the pesticide has never been put           the overall health of people in Southern Sudan. 18
through the Environmental Protection Agency’s
                                                                                                                      
vetting process. This product has already been            17Pursuant to this audit, USAID determined that the
                                                          pesticide was vetted by the EPA.
                                                          18In July 2011, Southern Sudan and the Government of
                                                          Southern Sudan became the new country known as The

             Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 32 

                                                       
 
                                                                USAID Office of Inspector General

JSI Research and Training Institute implemented                                                 Another issue stemmed from the frequent
Phase I through a 5–year, $40 million cooperative                                               unavailability of medical supplies at health
agreement that ended on September 2009. For
Phase II, USAID/Sudan entered into a 3–year,
$44.3 million task order with Management
Sciences for Health (MSH) in February 2009.

OIG noted that the mission’s interventions had
provided better access to basic health services in
Southern Sudan. However, the auditors found
that the mission had not delivered the quantity
or quality of maternal and child health services
                                                                                                  Health–care workers at this facility in Mundri East
planned, and contractor performance was                                                          County had not treated patients in 2 months because
                                                                                                of the absence of essential drugs and supplies. Mission
poor. According to mission officials, MSH had                                                   officials were unaware of the situation (photo by OIG).
not satisfactorily shifted the Sudan Health
                                                                                                centers. Contrary to contractual requirements, no
Transformation Project from an emergency relief
                                                                                                condoms were available at any of the five health
intervention to a longer–term development effort
                                                                                                facilities visited, even though family planning and
as required, and many second–phase activities
                                                                                                HIV prevention were two of the seven high–
were delayed.
                                                                                                impact health services targeted. Subcontractors
These performance problems and delays had                                                       and health facility staff also said that they
several causes, first among them staffing.                                                      consistently lacked clean–delivery kits and had
Ultimately, all personnel in key staff positions                                                never received HIV test kits required to prevent
resigned or were replaced after the beginning of                                                mother–to–child transmission of the disease.
Phase II. In addition, the mission and MSH fell
                                                                                                Furthermore, all five health facilities reported
short in achieving the number of deliveries
                                                                                                lack of at least one essential drug and shortages of
assisted by trained health service providers
                                                                                                some vaccines during the previous quarter; one
because of an insufficient pool of candidates able
                                                                                                was completely out of essential drugs. When they
to be trained—a fact that they previously were
                                                                                                were asked which party was specifically
not aware of.
                                                                                                responsible for procuring, transporting, and
                                                                                                storing certain items, overseers and implementers
                                                                                                gave confusing and sometimes contradictory
Republic of South Sudan. As the project predates this event,
the audit summary continues to refer to the previous                                            responses.
designations.

                    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 33 

                                                                                             
 
                                           USAID Office of Inspector General

OIG made seven recommendations; management                      breakdown in monitoring and reporting on the
decisions have been reached on all, and final                   program, as well as from uncertainty as to
action has been taken on one.                                   whether reported results were attributable to
                                                                program efforts.

                                                                Outreach in the Break the Cycle (BTC) campaign
                                                                was inefficient as well. BTC contains a 3–part
                                                                priority message to be conveyed to sex workers
                                                                who inject drugs. However, only 932 of the
                                                                10,965 sex workers reached by these program
                                                                activities actually were injecting drug users; the
                                                                rest were sex workers who engaged in other drug
    Delivery supplies are stored on top of the facility’s       use or did not use drugs at all.
         broken birthing table (photo by OIG).
                                                                Moreover, only a small percentage of that
Audit of USAID/Vietnam’s Social
Marketing Prevention and Supportive                             number (fewer than 300) received the entire BTC

Services Program (Report No. 5-440-11-                          message. Compounding the program’s

009-P). USAID/Vietnam’s Social Marketing                        inefficiency, the audit found that 15 percent of

Prevention and Supportive Services Program                      the sex workers received the message from 11 to

supports the U.S. Government’s HIV/AIDS                         35 times. This finding indicates a potentially

efforts in Vietnam under the President’s                        wasteful effort.

Emergency Plan for AIDS Relief (PEPFAR). To                     Another problem with the program stemmed
implement the program, USAID’s Regional                         from promoting products and services relating to
Development Mission for Asia signed a 5–year,                   HIV prevention. For instance, many outreach
cost–plus–fixed–fee task order with Population                  workers interviewed overstated the effectiveness
Services International (PSI) for approximately                  of condoms in protecting the user against HIV
$15.5 million.                                                  infection. In addition, although condom sales

OIG found that although the promotion of                        through the program increased from 3.5 million

HIV–prevention products and services has shown                  to 5.6 million from 2008 to 2010—a 60 percent

some success, the program has demonstrated only                 increase—some guesthouses and hotels were

limited progress in increasing safe behavior and                selling expired products.

in reducing the initiation of drug use. This                    The auditors also had difficulty obtaining
underperformance resulted from a fundamental                    information from implementers in the An Giang

               Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 34 

                                                             
 
                                                               USAID Office of Inspector General

Province, despite multiple requests. In fact, PSI                                 HIV/AIDS activities, USAID focuses on
withheld the fact that there were more than                                       increasing the number of persons receiving
120 outlets to inspect, instead telling auditors                                  antiretroviral therapy and on building sustainable
about only 27 of them. In the end, auditors were                                  local capacity for HIV/AIDS treatment.
able to visit only five outlets and of those five,
                                                                                  In order to achieve these goals, USAID/Southern
one was providing condoms that had expired,
                                                                                  Africa entered into agreements with
one had no condoms at all, and one had been
                                                                                  13 implementing partners that worked with the
closed for 2 months.
                                                                                  South African Government and local
Management decisions have been reached on all                                     communities. The four largest agreements were
ten recommendations in OIG’s report, and final                                    held by Anova, Right to Care, Foundation for
action has been taken on one.                                                     Professional Development, and Wits Health
                                                                                  Consortium/Reproductive Health & HIV
Four Contractor Employees in Nigeria
                                                                                  Research Unit, each with a 5–year agreement
Referred to USAID for Debarment. Family
                                                                                  with a total value of almost $532 million. In
Health International, which manages a
                                                                                  addition to these agreements, the mission entered
$200 million HIV/AIDS program in Nigeria,
                                                                                  into a 5–year, $22.9 million contract with John
terminated four local employees after discovering
                                                                                  Snow, Inc. (JSI), to improve data management
they were involved in illegal activities, including
                                                                                  and use in HIV/AIDS programs in South Africa.
soliciting kickbacks. OIG opened an investigation
to determine whether evidence of additional                                       Through site visits to 16 health facilities, OIG
improprieties existed. Simultaneously, OIG                                        determined that USAID/Southern Africa’s
referred the four terminated employees to                                         HIV/AIDS treatment activities have increased
USAID for consideration of debarment.                                             the number of new patients enrolled on
                                                                                  antiretroviral treatment and of those currently
Audit of USAID/Southern Africa’s
                                                                                  receiving treatment. Staff at clinics that were
HIV/AIDS Treatment Activities (Report
                                                                                  visited said that the program was helping reduce
No. 4-674-11-009-P). With almost 6 million
                                                                                  the social stigma associated with HIV and
of its more than 48 million citizens infected with
                                                                                  ensuring that patients adhere to treatment
HIV, South Africa has the world’s largest
                                                                                  regimens.
population living with HIV/AIDS, as well as the
world’s largest treatment program. 19 In its                                      Despite these positive results, OIG found some
                                                                                  notable weaknesses. For instance, the HIV/AIDS
                                                            
19
  PEPFAR Technical Leadership and Support Expenses:                               treatment team leader, who also served as an
Fiscal Year 2010.

                    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 35 

                                                                               
 
                                      USAID Office of Inspector General

agreement officer’s technical representative               USAID awarded a $31.9 million cooperative
(AOTR), managed 75 percent of the fiscal year              agreement to RTI International in 2007;
2009 budget. The sheer number of                           subsequent modifications have extended the
responsibilities in the dual roles led to managerial       agreement through 2011. In addition, USAID
deficiencies, created the opportunity for errors in        funded the 5–year Fistula Care Project (FCP)
oversight, and resulted in incomplete adherence            implemented by EngenderHealth through a
to Agency regulations. For example, despite being          $5 million cooperative agreement.
obligated to monitor a cost–sharing contribution
                                                           OIG determined that the mission’s activities
of $207 million (primarily of drugs provided by
                                                           partially achieved their goals. Faisons Ensemble
the South African Government), the AOTR did
                                                           reportedly reached 246,580 people with
not do so because she was not aware of the
                                                           community outreach that promoted HIV/AIDS
requirement.
                                                           prevention in 2009, exceeding its target of
In addition, a data warehouse that USAID spent             175,000. The project also provided HIV
$4.6 million developing and maintaining is not             counseling, testing, and test results to
providing consistently reliable or useful                  52,236 people, far exceeding its target of 16,000.
information. Moreover, partner officials also
                                                           For FCP, site visits and interviews confirmed the
complained about the unreliability of reports
                                                           positive impact of the mission’s fistula care
generated by the database, which affects the
                                                           activities, with many women receiving life–saving
reliability of data reported to Washington
                                                           treatment. Nevertheless, multiple issues with
stakeholders.
                                                           sustainability and monitoring and evaluation still
Management decisions have been reached on all              exist.
six recommendations.
                                                           Although FCP has trained and treated many
Audit of USAID/Guinea’s HIV/AIDS and                       people, results show that only a little more than
Fistula Care Activities (Report No. 7-675-                 half of the 3,000 women targeted received
11-010-P). In 2006, USAID formulated a new                 treatment, and training for 2009 and 2010 fell
strategy for Guinea, focusing its aid program on           short of projections by approximately 56 percent.
advancing democratic governance and improving              Furthermore, the implementing partners of FCP
service delivery in health care, education, and            did not always have the documentation to
agriculture. This focus led to the development of          support the numbers they were reporting.
the multisectoral project known as Faisons
                                                           Moreover, of all the women OIG interviewed,
Ensemble (“Working Together”). For this project,
                                                           not one knew that USAID had funded the

           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 36 

                                                        
 
                                                               USAID Office of Inspector General

program or the treatment they received. The local                                 effort to reduce the burden of malaria, and the
partners of Faisons Ensemble were pleased with                                    United Republic of Tanzania (including the
the impact the project was making, but many                                       mainland and Zanzibar) was one of the first three
expressed concerns about the sustainability of                                    countries to be included under PMI.
their NGOs. Because of political instability and
                                                                                  The goal of PMI was to reduce malaria–related
limited funding, no long–term plan was put in
                                                                                  deaths by 50 percent after 3 years of
place. Although some activities may continue
                                                                                  implementation in each country by reaching
without financial support and project oversight,
                                                                                  85 percent of the most vulnerable segments of
the NGOs’ attempts to continue their work will
                                                                                  the population. This goal was to be achieved with
not be as effective as they otherwise might have
                                                                                  proven preventive and therapeutic interventions,
been.
                                                                                  including insecticide–treated mosquito nets (bed
Monitoring and evaluation by the mission were                                     nets), indoor residual spraying, intermittent
also problematic. The mission had difficulty                                      preventive treatment for pregnant women, and
identifying the Washington–based AOTR in                                          artemisinin–based combination therapy (ACT).
charge of the project, indicating a clear lack of
                                                                                  OIG found that the mortality rate for children
communication. Only two site visits had been
                                                                                  under 5 in Tanzania had decreased by almost
made in over 2 years, and policies were not
                                                                                  28 percent since USAID began malaria
followed on either visit.
                                                                                  interventions under PMI; however, the mission
Management decisions have been made on six                                        was generally not meeting the targets it set. In
recommendations and final action taken on four.                                   some cases, the goals themselves could not
                                                                                  realistically be achieved in the operating
Audit of USAID/Tanzania’s Ongoing
                                                                                  environment.
Activities Under the President’s Malaria
Initiative (Report No. 4-621-11-007-P).                                           In addition, OIG had concerns about the
Malaria is estimated to cause between                                             mission’s ability to sufficiently track the
300 million and 500 million illnesses worldwide                                   availability of ACT at health facilities, partly
annually and kill up to 2 million people each                                     because of its reliance on surveys with
year. 20                                                                          questionable data.

The President’s Malaria Initiative (PMI) began in                                 During the audit, OIG also examined whether
2005 as a 5–year, $1.2 billion U.S. Government                                    earlier PMI successes on Zanzibar noted in a
                                                                                  2007 audit had been sustained. Although bed net
20
  President’s Malaria Initiative: Technical Guidance on the
Prevention and Control of Malaria, January 10, 2009.                              usage by children and pregnant women decreased

                    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 37 

                                                                               
 
                                       USAID Office of Inspector General

slightly, the significant decrease in malaria               activities implemented by four partners: JSI, PSI,
prevalence in Zanzibar appears to have been                 RTI International, and CARE.
sustained.
                                                            As of January 31, 2011, the mission had used
OIG made two recommendations to address the                 more than 80 percent of the funds set aside to
findings. Management decisions have been                    procure malaria commodities (nearly $24 million
reached on both recommendations, and final                  in total for this activity) and had successfully
action has been taken on one.                               completed its main task of delivering more than




    This dwelling with two doors in Kamona may be reported as one or two structures, depending on the spray
                                          operator (photo by OIG).

Audit of USAID/Mali’s Malaria Program                       800,000 USAID–funded nets to health facilities.
(Report No. 7-688-11-009-P). Mali is one of                 RTI noted achievements in spraying and training,
15 original focus countries benefiting from PMI.            and community doctors credited RTI with
During fiscal years 2009 and 2010, at a cost of             lowering malaria–related fatalities; however,
nearly $30 million, USAID/Mali worked to                    spraying results were unreliable because of the
implement PMI activities through partnerships               difficulties involved in compiling large amounts
with 15 prime partners. The audit covered                   of data, insufficient data reviews, and confusion



             Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 38 

                                                         
 
                                      USAID Office of Inspector General

about the definition of the word “structure”             OIG found that the programs used a successful
when tracking the number of structures sprayed.          door–to–door net–hanging campaign, along with
Specifically, the audit noted that some results          a behavior–change communications strategy, that
were doubled counted and that spray operators            resulted in a near doubling of the rate of bed net
were inconsistently applying the term “structure,”       use. The mission’s indoor spraying program also
making it difficult to confirm the actual results        promoted entomologic training and research and
achieved.                                                provided employment opportunities that
                                                         contributed to the country’s capacity building.
In addition, auditors found that some reported
results and targets were inconsistent, the               OIG found that some problems still exist in the
mission’s monitoring of program performance              RTI program. RTI’s indoor spraying data cards
was weak, reported results were inaccurate,              revealed falsified information that neither the
controls over receipt and distribution of nets           mission nor the partner had detected.
were inadequate and inconsistent, and USAID’s            Specifically, data was manipulated to increase the
sponsorship of spraying was not recognized.              numbers of structures found, the numbers of
                                                         structures sprayed, the number of people
Management decisions have been reached on all
                                                         protected by spraying, or a combination of all
12 audit recommendations, and final action has
                                                         three.
been taken on 3.
                                                         Aside from inflated numbers, the overwritten
Audit of USAID/Ghana’s Malaria
                                                         cards contained the names of fictional
Program (Report No. 7-641-11-011-P).
                                                         beneficiaries, along with those of possibly
The Ghana Health Service reported 3.7 million
                                                         fictional spray operators and accompanying data.
cases of malaria in the country in 2009. The same
                                                         These problems went undetected because of a
year, the World Health Organization found that
                                                         lack of monitoring and verification of reported
malaria accounted for 25 percent of all deaths of
                                                         data by both the partner and the mission.
children under 5. Because of this high malaria
burden, Ghana is one of 17 countries benefiting          Management decisions have been made on all
from PMI. During fiscal years 2009 and 2010, the         five recommendations, and final action has been
mission worked to implement PMI activities               taken on three.
through cooperative agreements and task orders
                                                         USAID/El Salvador’s Maternal and Child
with 13 prime partners. OIG selected for audit
                                                         Health Activities (Report No. 1-519-11-
implementers of the three largest programs: JSI,
                                                         004-P). In 2009, USAID initiated a project with
RTI, and the University Research Company.
                                                         the Government of El Salvador to help improve

            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 39 

                                                      
 
                                      USAID Office of Inspector General

the country’s management of child and                     monitoring and oversight, USAID did not
reproductive health services and to improve social        conduct site visits or require implementers to
sector investments and transparency. USAID                comply with quarterly reporting requirements.
awarded more than $8 million to two                       Further, implementers reported inaccurate
implementers, University Research Corporation             achievement information in the fiscal year 2010
(URC) and Abt Associates Inc., to carry out               performance plan.
program activities.
                                                          Another matter that was problematic was the
OIG’s audit found that problems often occurred            mission’s noncompliance with environmental
because the mission and the Ministry of Health            regulations. In order to address a 2010 dengue
did not always coordinate well. Since the 2009            outbreak, the mission asked URC to purchase
change in El Salvador’s administration, USAID             thermal fumigating nebulizers for the Ministry of
has not entered into a strategic objective grant          Health. In authorizing the procurement, the
agreement with the current government. In                 mission did not develop an environmental
addition, USAID did not meet with new Ministry            mitigation plan to address the possible effects of
representatives to discuss the mission’s maternal         this action and therefore could not be confident
and child health activities until the program was         that the equipment recipients were aware of its
already under way, limiting its impact and results.       proper use.

Implementers’ activities demonstrated mixed               In addition, URC included a photograph in its
results. Quality–improvement training was                 annual report showing a worker using USAID–
provided to hospitals and maternity wards, and            branded equipment without proper personal
the availability of drugs, medical supplies, and          protective equipment. Although URC said that
contraceptives was improved through the                   the photograph was “staged”—taken specifically
installation of a supply warehousing system.              for the annual report—it gives the appearance that
                                                          USAID and URC are not complying with
However, the implementer responsible for the
                                                          regulations.
training did not report until the end of the first
year that only 2 percent of the hospitals were in         Management decisions have been reached on all
the process of institutionalizing quality                 11 recommendations in the report, and final
improvement procedures. Moreover, OIG noted               action has been taken on 3.
concerns about the supply warehousing system’s
                                                          Audit of USAID/Egypt’s Communication
utility and ease of use that may cause users to see
                                                          for Healthy Living Program (Report No.
the system as a hindrance to their work. As for
                                                          6-263-11-007-P). USAID/Egypt’s Office of

           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 40 

                                                       
 
                                       USAID Office of Inspector General

Health and Population developed the                       trained women leaders on marriage, postpartum
Communication for Healthy Living program to               care, family health and welfare, and other topics.
effect behavior change that addresses the
                                                          However, the auditors also found that upon
Government of Egypt’s priority health issues:
                                                          making the award, the mission did not obtain the
family planning, reproductive health, maternal
                                                          required certification on antiterrorist financing
and child health, infectious diseases and
                                                          from the implementer.
infection control, healthy lifestyles, and health
sector reform. The program was designed to be a           Moreover, the implementer did not ascertain
catalyst in developing partnerships with the              whether individuals and entities to which it
private sector and NGOs to sustain the health             provided material support appeared on the lists
communication activities designed and                     maintained by the U.S. Government and the
implemented.                                              United Nations for terrorist affiliation, and it did
                                                          not include the mandatory clauses on the
In 2003, USAID/Egypt awarded a 7½ –year,
                                                          prohibition of terrorist financing in two of five
$25 million agreement with the Center for
                                                          subcontracts valued at $2.5 million. Further,
Communication Programs, Johns Hopkins
                                                          Johns Hopkins did not always report accurate
Bloomberg School of Public Health. Johns
                                                          data—often over– or underreporting results—and
Hopkins hired five major subimplementers to
                                                          did not update targets with changes in activities.
help achieve these goals.
                                                          Final action has been taken on three of seven
OIG auditors found much success with the
                                                          recommendations.
program. The program contributed to increasing
the percentage of women who used a family                 Audit of Phase III of USAID/India’s
planning method for the first time after the birth        Innovations in Family Planning Services
of the first child, a national health indicator for       Project (Report No. 5-386-11-010-P). India
Egypt. The program also expanded its nutrition            is the second most populous country in the
activities and reported a decline in infant               world, inhabited by more than 1.2 billion people.
malnutrition rates. Almost 350 community                  Nearly 70,000 children are born daily, leading to
health workers were trained to conduct home               some 25 million births annually. In 1992,
visits to newlyweds to provide family health              USAID and the Government of India signed a
counseling, and prenatal classes were conducted           bilateral grant agreement to implement the
for women who were pregnant for the first time            Innovations in Family Planning Services Project,
or had a high–risk pregnancy. The program also            now in its third phase of implementation.



            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 41 

                                                       
 
                                      USAID Office of Inspector General

The program has made some noteworthy                      In addition, the methodology used to value
contributions to strengthening health systems.            benchmarked activities was problematic, which
For instance, in one of the three states where the        resulted in USAID’s paying more than was
project was being implemented, the project                necessary. The project will end in March 2012
provided training for staff at state resource             with many benchmarked activities having not
centers in strategic planning and management              been achieved or canceled and with less than
information systems. This training led one of             $23 million of the more than $70 million
these centers to develop manuals that aided in            authorized having been obligated. As a result, a
training 11,000 female community activists.               major opportunity to strengthen India’s health
                                                          systems has been lost.
The project has also succeeded in making
primary health care services available to people in       Another issue stemmed from the lack of a
remote rural areas of Uttarakhand, a state in the         sustainability plan for the State Innovations in
northwestern part of India. Mobile health vans            Family Planning Services Project Agency
began offering medical services such as laboratory        (SIFPSA), an agency created by the Government
tests, ultrasound, x–rays, antenatal checkups, and        of India to implement the project. Since the
family planning services that served more than            project began in 1992, SIFPSA has accumulated
30,000 patients. In addition, outreach has                approximately $40.1 million from funds
increased sales of condoms and other forms of             remaining after completion of activities, and it
birth control. In the state of Uttar Pradesh,             has no clear plan to manage or use these funds.
condom sales reportedly increased from                    However, with less than a year remaining on the
132 million in 2006 to 259 million in 2010.               project and without immediate intervention,
                                                          USAID/India may lose its influence over the
However, several problems existed, notably
                                                          future of SIFPSA and the use of these
regarding the benchmarks set by USAID/India,
                                                          accumulated savings.
the Indian Government, and the local state
governments. Of the 155 benchmarks set to be              Management decisions have been reached on all
completed by March 2011, only 43 (or                      six of the report’s recommendations, and final
28 percent) had been accomplished, with the               action has been taken on one.
remainder canceled or not achieved. This result
                                                          Audit of USAID/Namibia’s HIV/AIDS
was despite multiple extensions given by the
                                                          Care Program (Report Number 4-673-11-
mission, sometimes up to 14 months.
                                                          011-P). PEPFAR seeks to provide care services
                                                          for millions of people around the world,


            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 42 

                                                       
 
                                                               USAID Office of Inspector General

including orphans and vulnerable children. Care                                   these activities, 22 USAID/Namibia’s Health
services for these individuals include a broad                                    Office has made significant improvements in its
range of activities, such as clinical, psychological,                             monitoring and oversight activities.
social, spiritual, and preventive services. They
                                                                                  Despite the positive findings, OIG identified
seek to increase patients’ retention in treatment
                                                                                  areas for improvement in the sustainability of
programs, maximize their functional ability, and
                                                                                  programs and accountability for funds.
minimize morbidity. In Namibia, where
                                                                                  Specifically, the implementing partners did not
approximately 13.3 percent of the population
                                                                                  evaluate whether government ministries were on
between aged 15–49 has HIV, 21 care services are
                                                                                  track to make the transition from outside
of paramount importance.
                                                                                  assistance to self–sufficiency as planned, and
In fiscal year 2010, the main bilaterally funded                                  subrecipients were not prepared for their annual
programs were the $49 million Namibia HIV                                         audits. The audit made two recommendations to
Prevention, Care and Support Project and the                                      further the effectiveness of USAID/Namibia’s
$32 million Community REACH Namibia                                               care program. Management decisions have been
Program. The first program provides grants and                                    reached on both and final action taken on one.
technical assistance to small faith–based
                                                                                  Audit of USAID/Madagascar’s Family
organizations that focus on service delivery, in
                                                                                  Planning and Reproductive Health
order to build their capacity to provide care
                                                                                  Activities (Report Number 4-687-11-012-
services. The second program intends to increase
                                                                                  P). USAID/Madagascar’s health, population,
and sustain comprehensive HIV/AIDS services
                                                                                  and nutrition programs are designed to expand
through Namibian and international
                                                                                  the use of selected health services and products
implementing partners.
                                                                                  and improve health practices. The mission
OIG’s audit found that USAID/Namibia’s                                            entered into a 5–year, $31.8 million contract
bilateral HIV/AIDS care program was achieving                                     with RTI International to implement Santénet2,
its goal to care for and support HIV–infected and                                 the second phase of a community–based health
–affected individuals. As for implementing                                        program the mission had implemented earlier. In
recommendations from a prior OIG audit of                                         addition, the mission entered into a 5–year,
                                                                                  $25.5 million cooperative agreement with PSI, of


                                                            
21
  Ministry of Health and Social Services [Namibia],                                                                                           
Directorate of Special Programmes, 2008/2009 Estimates and                        22
                                                                                    Audit of Selected Partners Implementing
Projections of the Impact of HIV/AIDS in Namibia, December                        USAID/Namibia’s President’s Emergency Plan for AIDS
2009.                                                                             Relief, Report No. 4–673–08–005–P, July 31, 2008.

                    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 43 

                                                                               
 
                                      USAID Office of Inspector General

which approximately 30 percent was expected to              Management Capabilities
be budgeted for family planning activities.
                                                                     Employee Misconduct
OIG determined that both programs have been
successful in improving health services. In              Former USAID Employee Pleads Guilty
addition to meeting its performance goals, the           to Embezzlement. In February 2011, a
program expanded access to family planning and           USAID employee was arrested and charged with
reproductive health care services and products.          theft of government property and filing a false
However, OIG found that USAID/Madagascar                 income tax return.
needed to improve oversight by monitoring
                                                            Former USAID employee pleads
environmental compliance, performance data,
cost–sharing contributions, and commodity                         guilty to embezzlement
storage during site visits.
                                                         The former employee was responsible for

Some problems existed with the reliability of            handling loan default payments due from banks

data, in particular with records of the numbers of       that had received U.S. Government funds. The

contraceptive products implementers distributed.         investigators found that, over time, the employee

Because PSI and RTI recorded information                 had instructed multiple banks and partners to

differently, there was potential for data to be          forward payments in amounts exceeding $47,000

double–counted. In addition, the mission did not         to his personal bank account. In September

verify performance data before submitting it to          2011, the employee pleaded guilty to one count

USAID/Washington because the mission staff               of theft of public money and one count of

members responsible did not understand their             subscribing to false income tax returns in the

reporting responsibilities. Nonetheless, even            District of Columbia. As part of the plea

accounting for the weaknesses with data, the             agreement, the employee will pay almost

program met its performance goals.                       $2 million in penalties to the IRS, as well as pay
                                                         restitution to USAID.
Management decisions have been made on all
                                                         AED Employee Terminated for Writing
seven recommendations, and final action has
                                                         Request for Applications for $100 Million
been taken on three.
                                                         Project. Prior to AED’s suspension and its
                                                         ultimate dissolution, an employee of AED agreed
                                                         to a request by a USAID employee to write the
                                                         request for applications for a $100 million


            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 44 

                                                      
 
                                      USAID Office of Inspector General

agreement, thus giving AED a competitive                 $28,400 was charged to a USAID program. The
advantage over other applicants.                         funding that the former employee misappropria–
                                                         ted was credited by the contractor, DAI, to
AED later submitted an application and won the
                                                         USAID.
$100 million award. Following the investigation,
the contracting officer’s representative                 OIG then referred the matter to USAID for
designation for the USAID employee was                   consideration of the individual’s debarment from
revoked, and the AED employee resigned in lieu           federal programs.
of being terminated.
                                                         Investigation Results in 2–Year Probation
USAID Contracting Officer Removed                        and $6,988 in Fines and Assessments. As
From Post Following OIG Investigation.                   reported in our previous semiannual report, OIG
OIG investigated a USAID contracting officer for         special agents arrested a former background
submitting false claims to the government for            investigator assigned to the USAID Office of
reimbursement of his child’s special education           Security after an investigation revealed he had
allowances. The investigation found that he had          falsified documents associated with background
submitted false claims of more than $3,000 over          investigations that he had been assigned to
the course of a year, claiming that he was               complete. The former employee pleaded guilty on
providing a special tutor for his child when in          August 8, 2010, in U.S. District Court for the
fact he had his nanny/housekeeper provide some           District of Columbia to making false official
tutorials.                                               statements.

The employee’s tour was curtailed, and he                On June 16, 2011, he was sentenced to
returned to Washington, D.C., where his                  24 months’ probation and required to pay
delegation of authority was revoked. The matter          $6,988 in fines and special assessments.
is currently under review by USAID Human
                                                         Afghan Sentenced to Prison on Child
Resources.
                                                         Pornography Charge. In April 2011, an
Former USAID Contractor Employee                         employee of DAI, working on a project funded by
Referred for Debarment After Pleading                    USAID, was found guilty of child pornography
to Fraud. A USAID contractor reported to OIG             and sentenced by an Afghan court to 1½ years in
that a former employee pleaded guilty in a               prison. DAI, a U.S.–based corporation has a
Maryland circuit court to incurring fraudulent           $36 million contract with USAID to implement
charges of approximately $43,000 on a company            the Afghanistan Small and Medium Size
purchase card. Of that amount, approximately

             Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 45 

                                                      
 
                                       USAID Office of Inspector General

Development Program, which is designed to                   As a result, PADF could not account for nearly
promote businesses in Afghanistan.                          $900,000 in expenditures for two programs.
                                                            Officials also stated that data on a third program
USAID OIG obtained and executed a U.S.
                                                            was lost after an accounting system upgrade in
federal search warrant on the employee’s
                                                            2008.
computer, which revealed clips of child
pornography. The employee was terminated and                Many of these problems stemmed from PADF’s
arrested by Afghan authorities in January 2011.             lack of internal controls such as incomplete
The case was prosecuted locally in Herat                    policies and procedures. For example, PADF
Province.                                                   made payments to employees or other third
                                                            parties rather than following proper procedures
              Financial Management
                                                            and paying vendors directly for services rendered.

Review of the Pan American                                  In one case, PADF paid approximately $14,000

Development Foundation’s Management                         to the director of the Ministry of Women, a

Controls (Report No. 1-521-11-002-S).                       partner on one of the programs.

The Pan American Development Foundation
                                                            In another instance, PADF paid more than
(PADF) is a private, nonprofit NGO that works
                                                            $17,000 to one individual from a vendor, even
exclusively in Latin America and the Caribbean.
                                                            though they had no contract with them or the
PADF has implemented multiple programs in
                                                            company they represented. Furthermore, PADF
Haiti under cooperative agreements totaling
                                                            did not always pay vendors and employees on
nearly $29 million. Programs have included solid
                                                            time, leaving themselves open to potential
waste removal, protection of human rights,
                                                            liability.
emergency shelter rehabilitation, and trafficking
in persons.                                                 OIG also noted problems with PADF’s controls
                                                            over the preaward process. OIG determined that
OIG found significant deficiencies in PADF’s
                                                            many of the subawards lacked documentation,
recordkeeping and monitoring and evaluation
                                                            including criteria for selection, names of the
abilities. For instance, PADF stated that a flood
                                                            selection committee, or justification for sole–
destroyed many of its accounting records in 2008.
                                                            source selections. Because PADF did not
However, officials did not report the loss of the
                                                            document these issues, they may have selected
records to USAID until they were required to
                                                            more costly subawardees.
produce them for OIG’s review in March 2011.
Officials also stated that records were lost after an       PADF’s financial controls were likewise

accounting system upgrade.                                  problematic. Officials did not obtain approvals

              Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 46 

                                                         
 
                                      USAID Office of Inspector General

for several expenditures, and as a result, were          Thus, SAIs may be called upon to audit funds
paid more than was allowable under the contract.         provided to host governments by USAID or
Moreover, they did not properly allocate program         other donors. OIG and USAID missions have
costs, which led to overpayment to PADF on               signed memorandums of understanding (MOUs)
multiple programs.                                       with SAIs in 22 countries. During this reporting
                                                         period, OIG signed an MOU with the SAI in
Management decisions have been made on all
                                                         Liberia.
14 recommendations, and final action taken on
12. USAID/Haiti is addressing more than                  Before SAIs can conduct audits for USAID, they
$61,000 in questioned costs.                             must have the necessary professional capacity and
                                                         independence. OIG often provides training to
          Expanding Accountability
                                                         SAIs on how to conduct financial audits of

Corruption and lack of accountability are major          USAID funds in accordance with USAID

impediments to development. These issues                 guidelines and U.S. Government auditing

threaten to negate years of economic growth,             standards. 23

especially in the areas of the world subject to          This training helps build capacity within SAIs to
political instability and violence.                      enhance their ability to audit all public funds.

OIG audits and investigations afford two                 The SAI, the USAID mission, and OIG then sign

methods of safeguarding USAID funds; however,            an MOU detailing standards and procedures to

OIG pursues additional methods to promote                be used in auditing USAID funds provided to the

accountability and transparency. For example,            host government.

OIG works with supreme audit institutions                As part of the shift to use host–country systems
(SAIs) to expand their capabilities and provides         to deliver foreign assistance, USAID and OIG
training in cost principles and fraud awareness.         intend to rely more heavily on SAIs and continue

Expanding Supreme Audit Institutions’                    working to build their capacity.

Capabilities. OIG continues to work closely
                                                         Training USAID Staff and Others. OIG
with selected SAIs in countries where USAID is
                                                         remains committed to preventing losses of
present. SAIs are the principle government audit
                                                         development funds and continues to provide
agencies in the recipient countries and are often
                                                         training in cost principles and fraud awareness to
the only organizations that have a legal mandate
to audit the accounts and operations of their                                                                        
                                                         23
governments.                                               Government Auditing Standards, July 2007 Revision
                                                         (GAO–07–731G).

            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 47 

                                                      
 
                                        USAID Office of Inspector General

USAID employees, contractors, grantees, SAIs,                   Accountability Over Contractors and
and auditors from local accounting firms.
                                                                                             Grantees
Cost Principles Training. USAID’s contracts
                                                           USAID is required by the Federal Acquisition
and grants include cost principles provisions that
                                                           Regulation, the Single Audit Act, 24 OMB
define the types of costs that can be legitimately
                                                           circulars, and its own internal policies and
charged to USAID programs. Although the full
                                                           procedures to obtain appropriate and timely
text of these cost principles is contained in the
                                                           audits of its contractors, grantees, and enterprise
Federal Acquisition Regulation and various
                                                           funds. OIG provides oversight of these audit
Office of Management and Budget (OMB)
                                                           activities, ensuring that audits are conducted in
circulars, USAID agreements generally contain
                                                           accordance with appropriate quality standards
only a single sentence that refers to these
                                                           and that they enhance accountability over
principles.
                                                           USAID contractors and grantees.
To increase awareness of—and compliance
                                                           Also, in accordance with provisions in USAID
with—cost principles and to promote the highest
                                                           contracts and agreements, OIG reviews reports of
standards, OIG conducts training for overseas
                                                           audits conducted on foreign organizations that
USAID staff, contractors, grantees, and others.
                                                           receive USAID funds.
This training provides a general overview of U.S.
                                                           Audits of U.S.-Based Contractors. U.S.–
Government cost principles and actual examples
                                                           based contractors carry out many USAID–funded
of instances that demonstrate concepts such as
                                                           activities. The Defense Contract Audit Agency
reasonableness, allocability, allowability, and
                                                           (DCAA) conducts audits, reviews, and preaward
various specific cost principles (e.g., travel
                                                           surveys of U.S.–based contractors on USAID’s
expenses and entertainment costs). The training
                                                           behalf. OIG then reviews DCAA’s reports and
also includes financial audit requirements and
                                                           transmits them to USAID management.
accountability issues.
                                                           During this reporting period, OIG reviewed and
During this reporting period, OIG provided
                                                           transmitted nine DCAA reports covering
training in cost principles and related subjects in
                                                           approximately $35 million in costs (with
8 countries and trained over 400 individuals.
                                                           questioned costs of more than $6 million).
Fraud Awareness Training. OIG also
provided 97 fraud awareness training sessions to
                                                                                                                       
2,628 individuals during the reporting period.             24
                                                             Single Audit Act of 1984, Public Law 98–502, as
                                                           amended.

              Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 48 

                                                        
 
                                     USAID Office of Inspector General

Audits of U.S.-Based Grantees and                       DCAA to perform special financial audits and
Enterprise Funds. U.S.–based nonprofit                  with independent public accounting firms to
organizations also receive significant USAID            perform Agency–contracted financial audits of
funds to implement development programs                 U.S.–based grantees.
overseas. As required by OMB Circular A–133,
                                                        OIG reviewed and issued an audit report of
“Audits of States, Local Governments, and Non–
                                                        CARE 25 that disclosed numerous findings
Profit Organizations,” nonfederal auditors
                                                        concerning programs that were funded by
perform annual financial audits of USAID
                                                        USAID grants, cooperative agreements, and
grantees that spend over $500,000 of federal
                                                        contracts in the amount of $181.7 million for
funds annually. These auditors are required to
                                                        fiscal year 2010. OIG reviewed the independent
identify:
                                                        auditor’s OMB Circular A–133 report on
•   Significant deficiencies involving major            compliance and internal control and the
    programs.                                           schedule of questioned costs and audit findings.
•   Material noncompliance with laws and
                                                        The report identified the following issues: over
    regulations.
                                                        $43,000 in questioned costs related to three
•   Known fraud affecting a federal award.
                                                        major USAID programs; 31 instances of
•   Misrepresentations of the status of prior
                                                        noncompliance with requirements that could
    audit findings.
                                                        have a direct and material effect on each major
•   Reasons why the auditor’s report on
                                                        program, 13 of which were material; 15 material
    compliance for major programs is other than
                                                        weaknesses and 23 significant deficiencies in
    unqualified.
                                                        internal control relating to compliance with the
OIG provides oversight for the nonfederal               requirements of laws, regulations, contracts, and
auditors performing these audits and reviews to         grants applicable to federal program; and 11
determine whether auditors have prepared audit           significant deficiencies in internal control related
reports in accordance with the reporting                to financial reporting.
requirements of OMB Circular A–133.
                                                        OIG made two recommendations to the Cost,
OIG also conducts quality–control reviews to            Audit and Support Division of USAID’s Office
determine whether the underlying audits                 of Acquisition and Assistance to (1) determine
complied with OMB A–133 audit requirements              the allowability of the questioned costs and
and generally accepted government auditing                                                                          
                                                        25 CARE operates a variety of projects including nutritional

standards. In some instances, OIG contracts with        support, children’s health, agriculture and natural resources,
                                                        and education.

            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 49 

                                                     
 
                                                               USAID Office of Inspector General

collect, as appropriate, any disallowed amount                                    Audits of Foreign-Based Contractors and
from the auditee and (2) follow up with the                                       Grantees. OMB Circular A–133 does not apply
auditee to ensure that it implements the                                          to foreign–based contractors and grantees. Given
independent auditor’s recommendations for                                         the high–risk environment in which USAID
those instances of noncompliance and                                              operates, however, USAID has extended similar
deficiencies.                                                                     audit requirements to its foreign–based
                                                                                  contractors and grantees through standard
Enterprise funds are U.S.–based nonprofit
                                                                                  provisions included in grants, cooperative
organizations established under the Support for
                                                                                  agreements, and contracts through OIG’s
East European Democracy (SEED) Act of 1989. 26
                                                                                  Guidelines for Financial Audits Contracted by Foreign
USAID currently has two enterprise funds, one
                                                                                  Recipients (February 2009). Financial audits of
of which invests in countries in Eastern Europe
                                                                                  foreign–based contractors and grantees are
and one that invests in Southern Africa.
                                                                                  normally conducted by independent audit firms
Enterprise funds are subject to annual audits of
                                                                                  approved by OIG’s overseas regional offices.
financial statements performed by private
accounting firms and reviewed by OIG.                                             Under the recipient–contracted audit programs,
                                                                                  audits are required for all foreign nonprofit
OIG activities during the reporting period:
                                                                                  organizations that spend $300,000 or more
•      Issued 38 desk reviews for A–133 Single                                    during their fiscal year. USAID may also request
       Audit Act reports and issued 55 desk reviews                               financial audits of nonprofit organizations that
       for Agency–contracted audit reports covering                               fall below the $300,000 threshold.
       USAID funds of approximately $2.4 billion
                                                                                  OIG issued a closeout audit of USAID resources
       spent by U.S.–based grantees.
                                                                                  managed by Joint Clinical Research Center
                                                                                  under a cooperative agreement with USAID/
•      Completed one quality–control review
                                                                                  Uganda. The purpose of this agreement was for
       covering over $147 million in grantee
                                                                                  the expansion of antiretroviral treatment services
       expenditures.
                                                                                  and provision of treatment to HIV/AIDS
                                                                                  patients in need. The audit report included over
•      Issued two enterprise fund audits, covering
                                                                                  $865,000 in questioned costs and three internal
       over $154 million in grantee expenditures.
                                                                                  control and noncompliance findings.

                                                                                  The majority of the questioned costs were related
                                                                                  to medical supplies over and above the approved
26
     Public Law 101–179.

                    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 50 

                                                                               
 
                                      USAID Office of Inspector General

budget. OIG recommended that                             agreements are normally satisfied under the
USAID/Uganda determine the allowability of               recipient–contracted audit program. However,
the questioned costs and correct the internal            agency–contracted audits may be initiated by
control and noncompliance findings.                      either USAID or OIG to provide additional audit
Management decisions are pending.                        coverage or address specific concerns.

OIG also issued the closeout audit of USAID              OIG reviews all audit reports and, if they are
resources managed by the Church Alliance for             found to be in compliance with Guidelines for
Orphans under a grant with USAID/                        Financial Audits Contracted by Foreign Recipients,
Washington. The purpose of the grant was to              transmits the reports to the appropriate USAID
build capacity, provide technical assistance, and        mission for corrective actions. Audit firms are
facilitate financial assistance to churches and          also notified of any problems identified in the
faith–based organizations in Namibia that are            audit reports.
committed to care and support of orphans and
                                                         During this reporting period, OIG reviewed and
vulnerable children. OIG reported more than
                                                         transmitted 149 audits of foreign–based
$255,000 in questioned costs, approximately
                                                         organizations, covering over $281 million in
$522,000 in ineligible cost sharing contributions,
                                                         expenditures and resulting in about $13 million
and nine internal control and noncompliance
                                                         in questioned costs. OIG also completed
findings.
                                                         11 quality–control reviews to ensure that the
The majority of the questioned costs were related        audits were completed in accordance with
to a foreign exchange difference of over                 appropriate audit standards.
$242,000. OIG recommended that USAID’s
Office of Acquisition and Assistance determine
the allowability of the questioned costs, correct
the internal control and noncompliance findings,
and determine whether the Church Alliance for
Orphans complied with the cost–sharing
contribution agreement and recover the shortfall
of approximately $522,000. Management
decisions are pending.

USAID’s financial audit requirements
concerning its contracts, grants, and cooperative


            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 51 

                                                      
 
                               USAID Office of Inspector General



            Significant Findings–USADF and IAF

                                        USADF
    During this reporting period, OIG did not conduct any audits or reviews with significant
    findings of USADF programs and operations.


                                            IAF
    During this reporting period, OIG did not conduct any audits or reviews with significant
    findings of IAF programs and operations.




     Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 52 

                                                 
                                                                USAID Office of Inspector General




       Significant Recommendations Described Previously
                      Without Final Action
                           USAID
                                                               April 1–September 30, 2011

Section 5(a)(3) of the Inspector General Act of 1978 requires each inspector general to identity
each significant recommendation described in previous semiannual reports on which corrective
action has not been completed.

                                                                                                                   Final
         Report                                                                    Issue     Rec.   Management Action
                                               Subject of Report
         Number                                                                    Date      No.    Decision Date Target
                                                                                                                   Date


                                                                                               2       1/15/09     3/12
                                           Audit of Engender Health's                          3       1/15/09     3/12
     1-511-09-004-P 27                     Management of Activities                1/15/09     5       1/15/09     3/12
                                           Financed by USAID/Bolivia                           7       4/27/09     3/12
                                                                                               8       4/27/09     3/12


                                           Audit of USAID's Financial
     0-000-10-001-C                        Statements for Fiscal Years         11/13/09        1       11/13/09    3/12
                                           2009 and 2008
                                           Audit of USAID's
                                           Compliance with the
     A-000-10-001-P                        Federal Information                 11/17/09       15       11/17/09   12/12
                                           Security Management Act
                                           for Fiscal Year 2009
                                                                                               2       9/29/10    12/11
                                           Audit of USAID's Internally
                                                                                               3       9/29/10    12/11
      E-267-10-001-P                       Displaced Persons                       3/31/10
                                                                                               4       9/29/10    12/11
                                           Activities in Iraq
                                                                                               5       9/29/10    12/11
                                           Audit of
                                           USAID/Afghanistan's
                                           Partnership for Advancing                           1       10/28/10   10/11
      5-306-11-001-P                                                           10/28/10
                                           Community-Based                                     3       10/28/10   10/11
                                           Education in Afghanistan
                                           (PACE-A) Program
                                                            
27
     The vendor has appealed to the Procurement Executive.

 

                    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 53 

                                                                                
                                  USAID Office of Inspector General


                                                                                       Final
      Report                                           Issue     Rec.   Management Action
                       Subject of Report
      Number                                           Date      No.    Decision Date Target
                                                                                       Date
                                                                   1       11/05/10   10/11
                                                                   6       11/05/10   10/11
                                                                   8       11/05/10   10/11
                     Audit of
                                                                   9       11/05/10   10/11
                     USAID/Afghanistan's
    5-306-11-002-P                                 11/05/10       11       11/05/10   10/11
                     Support to the American
                                                                  12       11/05/10   10/11
                     University of Afghanistan
                                                                  13       11/05/10   10/11
                                                                  14       11/05/10   10/11
                                                                  15       11/05/10   10/11
                                                                   3       11/09/10   12/11
                                                                  6.1      11/09/10   12/11
                     Audit of USAID's
                                                                  6.2      11/09/10   12/11
                     Compliance with the
                                                                   7       11/09/10   12/11
                     Federal Information
    A-000-11-002-P                                 11/09/10        8       11/09/10   12/11
                     Security Management Act
                                                                   9       11/09/10   12/11
                     of 2002 for Fiscal Year
                                                                  10       11/09/10   12/11
                     2010
                                                                  25       11/09/10    2/12
                                                                  26       11/09/10    2/12
                     Audit of USAID's Financial
                                                                   1       11/12/10    3/12
    0-000-11-001-C   Statements for Fiscal Years   11/12/10
                                                                   2       11/12/10    6/13
                     2010 and 2009
                     Follow-up Audit of Selected
                     USAID/Lebanon’s
    6-268-11-003-P                                 12/06/10        8       08/17/11    8/12
                     Democracy and
                     Governance Activities
                     Audit of USAID/Pakistan's
                     Livelihood Development
    G-391-11-001-P   Program in the Lower          12/10/10        5       04/19/11    4/12
                     Region of the Federally
                     Administered Tribal Area
                     Audit of Selected
                                                                   1       12/14/10   12/11
                     USAID/Kenya Agricultural
                                                                   2       12/14/10   12/11
    4-615-11-002-P   Productivity and              12/14/10
                                                                   4       12/14/10   12/11
                     Agricultural Trade
                                                                   5       12/14/10   12/11
                     Activities
                     Review of the Bureau for
                     Democracy, Conflict and                       2        1/12/11   11/11
    2-000-11-001-S                                 12/17/10
                     Humanitarian Assistance's                     4       12/17/10   12/11
                     use of Compensatory Time
                     Audit of Assistance to                        1       1/26/11     1/12
                     Internally Displaced                          2       1/26/11     1/12
    1-514-11-002-P   Persons and Vulnerable            1/26/11     3       1/26/11     1/12
                     Groups Financed by                            4       1/26/11     1/12
                     USAID/Colombia                                5       1/26/11     1/12




           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 54 

                                                    
                                   USAID Office of Inspector General


                                                                                          Final
      Report                                              Issue     Rec.   Management Action
                       Subject of Report
      Number                                              Date      No.    Decision Date Target
                                                                                          Date
                                                                      1       2/04/11    12/11
                                                                      2       2/04/11    12/11
                                                                      3       2/04/11    12/11
                                                                      4       2/04/11    12/11
                                                                      5       2/04/11    12/11
                                                                      6       2/04/11    10/11
                                                                      7       2/04/11     3/12
                                                                      8       2/04/11     3/12
                                                                      9       2/04/11     3/12
                     Audit of USAID'S HIV/AIDS
    7-681-11-003-P                                        2/04/11    10       2/04/11    10/11
                     Activities in Cote d'Ivoire
                                                                     11       2/04/11     3/12
                                                                     12       2/04/11     3/12
                                                                     13       2/04/11     3/12
                                                                     14       2/04/11    12/11
                                                                     15       2/04/11     3/12
                                                                     16       2/04/11     3/12
                                                                     17       2/04/11     3/12
                                                                     18       2/04/11     3/12
                                                                     19       2/04/11     3/12
                     Audit of
                     USAID/Afghanistan's
    F-306-11-001-P   Agriculture, Water , and             2/13/11     1       2/13/11    11/11
                     Technology Transfer
                     (AWATT) Program
                                                                      3       2/14/11    12/11
                     Audit of USAID/Benin's                           4       2/14/11    12/11
    7-680-11-004-P   Implementation of the                2/14/11     5       2/14/11    12/11
                     President's Malaria Initiative                  12       2/14/11    12/11
                                                                     13       2/14/11    12/11
                     Audit of USAID/Namibia's
                                                                      1       2/24/11    10/11
    9-000-11-001-P   HIV/AIDS Efforts to Build            2/24/11
                                                                      2       2/24/11    10/11
                     Health Workforce Capacity
                     Audit of Selected Activities                     7       2/28/11     2/12
    6-279-11-005-P   From USAID/Yemen's Basic                         8       2/28/11     2/12
                                                          2/28/11
                     Education Support and                            9       2/28/11     2/12
                     Training Project                                10       2/28/11     2/12




           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 55 

                                                       
                                 USAID Office of Inspector General


 

                                                                                        Final
     Report                                             Issue     Rec.   Management Action
                        Subject of Report
     Number                                             Date      No.    Decision Date Target
                                                                                        Date
                                                                    1       7/21/11    12/11
                                                                    2       3/22/11    12/11
                                                                    3       3/22/11    12/11
                      Audit of USAID/West Bank
                                                                    4       3/22/11    12/11
    6-294-11-006-P    and Gaza's Technical and
                                                        3/22/11     5       7/19/11    12/11
                      Vocational Education and
                                                                    7       7/21/11    12/11
                      Training Program
                                                                    8       7/19/11    12/11
                                                                    9       3/22/11    12/11
                                                                   10       7/19/11    12/11
                      Audit of
                      USAID/Afghanistan's                           3       3/27/11    11/11
    F-306-11-002-P
                      Construction of Health and        3/27/11     9       3/27/11    10/11
                      Education Facilities                         10       3/27/11    11/11
                      Program
                      Risk Assessment of                             1      3/30/11     2/12
    6-279-11-001-S
                      USAID/Yemen's Major               3/30/11      2      3/30/11     2/12
                      Activities                                     3      3/30/11     2/12
                                                                     2      4/27/11    12/11
                      Audit of USAID's Social
                                                                     3      3/31/11    12/11
                      Marketing and Behavior
                                                                     4      3/31/11    12/11
                      Change Interventions for
    5-442-11-006-P                                                   5      4/27/11    12/11
                      HIV/AIDS, Reproductive            3/31/11
                                                                     6      3/31/11    12/11
                      and Sexual Health and Child
                                                                     7      3/31/11    1/12
                      Survival in Cambodia
                                                                     8      3/31/11    12/11
                      Project
                                                                     9      3/31/11    12/11




           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 56 

                                                     
                                  USAID Office of Inspector General




      Significant Recommendations Described Previously
                     Without Final Action
                       USADF and IAF
                               April 1–September 30, 2011
                                                                                     Final Action
      Report                                     Issue    Rec. Management
                      Subject of Report                                                 Target
      Number                                     Date     No. Decision Date
                                                                                         Date
                     Follow-up Audit of the
                     Awarding and Monitoring                16        6/12/08             12/11
    7-ADF-08-006-P                              6/12/08
                     of Grants by the African               18        6/12/08             12/11
                     Development Foundation
                     Audit of the African                    1        9/17/08*            12/11
                     Development                             7        9/17/08*            12/11
    7-ADF-08-007-P                              9/17/08
                     Foundation/Ghana Project               14        9/17/08**           12/11
                     Activities                            17.4       9/26/08             12/11

                                                            *Revised management decision 6/30/2011
                                                           **Revised management decision 5/03/2011




           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 57 

                                                  
                                           USAID Office of Inspector General




                 Investigative Activities Including Matters
                   Referred to Prosecutive Authorities
                     USAID, USADF, IAF, and MCC
                                      April 1–September 30, 2011

                    Workload                                                       Civil Actions

Investigations opened                               91           Civil referrals                             1
Investigations closed                               51           Civil declinations                          1
                                                                 Complaints                                  0
                                                                 Judgments                                   1
                                                                 Settlements                                 0
                                                                 Total                                       3

                Criminal Actions                                           Administrative Actions*

Prosecutive referrals                                6           Reprimands / demotions                      2
Prosecutive declinations                             4           Personnel suspensions                       2
Arrests                                              0           Resignations / terminations                 9
Indictments                                          0           Recoveries                                  3
Convictions                                          1           Savings                                     3
Sentencing                                           2           Suspensions / debarments                    3
Fines / assessments                                  2           Systemic changes                            0
Restitutions                                         0           Other                                       1
Total                                              15            Total                                      23
Judicial recoveries (criminal and civil)                                                            $5,641,988
Administrative recoveries                                                                             $80,565
Savings                                                                                               $11,275
Total savings / recoveries                                                                         $5,833,828


    *OIG made 48 administrative referrals during the reporting period.




               Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 58 

                                                           
                                       USAID Office of Inspector General



    Fraud Awareness Briefings Conducted Worldwide
                  USAID and MCC*
                                   April 1–September 30, 2011

    Month            Location               Sessions       Attendees                   Affiliation


               Kabul, Afghanistan               5             81            Personnel and contractors

               Washington, DC                   5             189           Personnel and contractors

               Tbilisi, Georgia                 2             24            Contractors

    APR        Port-Au-Prince, Haiti            2             46            Contractors

               Islamabad, Pakistan              2             19            Contractors

               Cape Town, South Africa          1             36            Contractors




              Kabul, Afghanistan                6             64           Personnel and contractors

              Abuja, Nigeria                    3             109          Personnel

              Mexico City, Mexico               2             107          Personnel and contractors

    MAY       Conakry, Guinea                   2             56           Personnel and contractors

              Lima, Peru                        1             80           Personnel

              Freetown, Sierra Leone            1              6           Personnel




          Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 59 

                                                        
                                     USAID Office of Inspector General



    Month          Location               Sessions       Attendees               Affiliation



             Dushanbe, Tajikistan             6             92           Personnel and contractors

             Almaty, Kazakhstan               4             90           Personnel and contractors

             Bishek, Kyrgyz Republic          4             61           Personnel and contractors


     JUN     Kabul, Afghanistan               3             19           Personnel

            San Salvador, El Salvador         3             162          Personnel

             Washington, DC                   2              41          Personnel and contractors

             Port-Au-Prince, Haiti            1             100          Personnel and contractors




            Bogota, Colombia                  8             176          Personnel and contractors

            West Bank/Gaza, Palestine         4             231          Personnel and contractors

            Cairo Egypt                       4             119          Personnel and contractors

            Kabul, Afghanistan                3             28           Personnel
     JUL
            Manila, Philippines               2             77           Personnel

            Washington, DC                    1             98           Contractors

            Jerusalem, Israel                 1             62           Contractors




       Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 60 

                                                      
                                        USAID Office of Inspector General


 


    Month             Location               Sessions       Attendees               Affiliation



                Kabul, Afghanistan               2             30           Personnel and contractors

                Washington, DC                   2             54           Personnel and contractors

      AUG       Tegucigalpa, Honduras            2             52           Personnel and contractors

                La Paz, Bolivia                  3             75           Personnel

                Port-Au-Prince, Haiti            1             11           Contractors




                Feyzabad, Afghanistan            3             50           Contractors

                Kabul, Afghanistan               2             19           Personnel and contractors

                Kigali, Rwanda                   2             106          Personnel
      SEPT
                Islamabad, Pakistan              1             16           Contractors

                Washington, DC                   1             42           Contractors




                TOTAL                           97            2,628




    *OIG did not conduct fraud awareness training for USADF and IAF in the reporting period.




          Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 61 

                                                         
                               USAID Office of Inspector General




            Incidents in Which OIG Was Refused
                  Assistance or Information
                  USAID, USADF, and IAF
                             April 1–September 30, 2011


    Section 6(b)(2) of the Inspector General Act of 1978 requires the Inspector General to
    report to the head of the agency whenever requested information or assistance is
    unreasonably refused or not provided.

    During this reporting period, there were no reports to the USAID Administrator or to
    the Board of Directors of USADF or IAF regarding instances in which information or
    assistance was unreasonably refused or not provided.




     Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 62 

                                                 
                                   USAID Office of Inspector General




                                      Financial Audits
                 Associated Questioned Costs, Unsupported Costs, and
               Value of Recommendations That Funds Be Put to Better Use
                                               USAID
                                   April 1–September 30, 2011
                                                                                   Amt. of
     Report          Date of                                                                  Type of
                                               Report Title                        Findings
     Number          Report                                                                   Findings
                                                                                    ($000)
                                    Foreign-Based Organizations
                               Audit of the Enterprise Incubator Foundation,
                               Under USAID Agreement No. 111-G-00-07-
    0-111-11-037-R    4/5/11
                               00044, for the Period September 30, 2007, to
                               December 29, 2009

                               Audit of Norwegian People's Aid, under USAID           90        QC
    0-000-11-038-R   5/18/11   Multiple Agreements for Fiscal Year Ended
                               December 31, 2006                                      61        UN


                               Audit of Norwegian People's Aid, under USAID
    0-000-11-039-R   5/18/11   Multiple Agreements for Fiscal Year Ended
                               December 31, 2007

                               Audit of Regional Society of Disabled People
    0-118-11-040-R   5/12/11   (Perspectiva), under USAID Multiple Agreements
                               for Fiscal Year Ended December 31, 2009

                               Audit of Samara Regional Social Organization
                               "Historical-eco-cultural Association" (Povolzje)
    0-118-11-041-R   6/21/11
                               under USAID Agreement No. 118-A-00-04-00024
                               for the Period February 10, 2004, to May 31, 2011

                               Audit of Vétérinaires Sans Frontières ASBL, Under
                               Agreements Number DFD-G-00-06-00054-00 and            32         QC
    0-000-11-042-R    7/7/11
                               EEM-G-00-04-00013-00 Fiscal Year Ended
                               December 31, 2008                                     32         UN


                               Audit of International HIV/AIDS Alliance under
    0-000-11-043-R    8/9/11   USAID Multiple Agreements for Fiscal Year Ended
                                                                                     92         QC
                               December 31, 2009


        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 63 

                                                 
                                   USAID Office of Inspector General


                                                                                  Amt. of
     Report          Date of                                                                 Type of
                                               Report Title                       Findings
     Number          Report                                                                  Findings
                                                                                   ($000)
                               Audit of Norwegian People's Aid, under USAID
                                                                                    40         QC
    0-000-11-044-R    8/1/11   Multiple Agreements for Fiscal Year Ended
                               December 31, 2008                                    36         UN

                               Audit of Oxfam GB under USAID Multiple               40         QC
    0-000-11-045-R    8/8/11
                               Agreements for Fiscal Year Ended March 31, 2010
                                                                                    36         UN
                               Audit of humedica e.V. under USAID Agreement
    0-000-11-046-R   8/10/11   No. DFD-G-00-09-00142-00 for the Period
                               April 1, 2009, to December 31, 2009

                               Audit of Russian Microfinance Center Foundation
                               under USAID Agreement No. 118-A-00-07-00029
    0-000-11-047-R   8/23/11   and Siberian Civic Initiatives Support Center
                               (SCISC) Agreement No. KR-RMC-09-04-01 for
                               the Period January 1, 2010, to December 31, 2010

                               Close-Out Audit of Support for Soup Kitchens
                               Project under USAID Cooperative Agreement No.
    0-000-11-048-R   9/29/11
                               111-A-00-04-00010-00, for the Period from
                               January 1, 2010, to January 31, 2011

                               Audit of Eurasia Partnership Foundation Under
    0-000-11-049-R   9/21/11   Multiple Agreements for Fiscal Year Ended
                               December 31, 2010

                               Audit of the humedica e.V. under USAID
    0-000-11-050-R   9/22/11   Agreement No. DFD-G-00-09-00142-00 for the
                               Fiscal Year Ended September 30, 2005.

                               Audit of the Mentor Initiative, under USAID
                               Agreements DFD-A-00-04-00212-00 and 690-A-            21        QC
    0-000-11-051-R   9/27/11
                               00-04-00254-00, for Fiscal Year Ended September
                               30, 2005                                              4         UN


                               Close-Out Audit of the USAID Resources
                               Managed by Fondasyon Kole Zepòl (FONKOZE)
                               Under Cooperative Agreement No. 521-A-00-09-
    1-521-11-025-R   4/26/11
                               00015-00 for the Project "Kredi Siklon" for the
                               Period From December 8, 2008, to December 9,
                               2009



        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 64 

                                                 
                                   USAID Office of Inspector General


                                                                                      Amt. of
     Report          Date of                                                                     Type of
                                                Report Title                          Findings
     Number          Report                                                                      Findings
                                                                                       ($000)
                               Close-Out Audit of USAID/DR Resources
                               Managed by Asociación Dominicana Pro-Bienestar
                               de la Familia, Inc. (PROFAMILIA) Under the Grant
                               Agreement for the Reproductive Health Services
                               in the Dominican Republic, USAID Grant
    1-517-11-026-R   4/26/11
                               Agreement for the Reproductive Health Services
                               in the Dominican Republic, USAID Grant
                               Agreement No. 517-G-00-01-00114-00, for the
                               Period January 1, 2008, Through September 30,
                               2009

                               Close-out Financial Audit of the Project Activities
                               to Improve Teacher Effectiveness (TEF Project),
                                                                                        571        QC
                               Cooperative Agreement No. 517-A-00-06-00102-
    1-517-11-027-R   4/29/11
                               00, Administered by the Pontificia Universidad           571        UN
                               Católica Madre y Maestra (PUCMM), for the
                               Fourteen Month-Period Ended August 31, 2009

                               Financial Audit of the Project Activities to Improve
                               the Educational System (Effective Schools
                               Program), Cooperative Agreement No. 517-A-00-            261        QC
    1-517-11-028-R   4/29/11   10-00102-00, Administered by the Pontificia
                               Universidad Católica Madre y Maestra (PUCMM),            261        UN
                               for the Period From August 20, 2009, to June 30,
                               2010

                               Audit of USAID Grant Agreement No. 527-
                               0407/527-0423; Strengthened Environmental
                               Management (STEM) Project; Managed by the
    1-527-11-029-R   5/17/11
                               "Ministerio del Ambiente -- MINAM" for the
                               Period From January 1, 2009, to December 31,
                               2009

                               Financial Audit of the Fund Accountability
                               Statement of the "Civil Society Action for
                               Improved Public Sector Performance" Program
                               and "Formation of Young Leaders of Political
                               Parties in the Dominican Republic―Phase II"
    1-517-11-030-R   5/23/11
                               Program, USAID Grant Agreement Nos. 517-A-
                               00-09-00103-00 and 517-A-00-09-00105-00
                               Managed by Participación Ciudadana for the
                               Period From September 1, 2009, to August 31,
                               2010


        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 65 

                                                  
                                   USAID Office of Inspector General


                                                                                   Amt. of
     Report          Date of                                                                  Type of
                                               Report Title                        Findings
     Number          Report                                                                   Findings
                                                                                    ($000)
                               Close-out Audit of the Cooperative Agreement
                               No. 514-A-00-07-00303-00 for the "National
                               Natural Parks System of Colombia" Managed by
    1-514-11-031-R   5/27/11   The Corporation for Environmental and Cultural
                               Protection and Land Development (CORPACOT),
                               for the Period From December 15, 2006, to
                               December 14, 2007

                               Close-out Audit of Cooperative Agreement No.
                               526-A-00-07-00050-00 "Good Governance and             350        QC
    1-526-11-032-R   6/30/11   Political Competition in Paraguay" Managed by
                               Gestión Ambiental (GEAM), for the Period From          2         UN
                               January 1, 2010, to September 30, 2010

                               Financial Audit of Strengthening the Democratic
                               Processes in Honduras, Close-out Audit of Citizen
                               Election Observation and Close-out Audit of
    1-522-11-033-R   7/12/11   Election Observation and Quick Count project,          16        QC
                               managed by the Federation of Non-Governmental
                               Organizations for the Development of Honduras
                               (FOPRIDEH)

                               Close-out Audit of the Program "Learning
                               Together: A Community-Based Approach to
                               Provide Education Opportunities and at Risk
                               Children and Youth out of the Education System"
    1-517-11-034-R   7/26/11
                               Cooperative Agreement No. 517-G-00-08-00106-
                               00, Administered by Catholic Relief Services
                               Dominican Republic (CRS/DR) for the Period
                               From May 20, 2008, to May 19, 2010

                               Close-out Audit of the Cooperative Agreement
                               No. 522-A-00-06-00302-00 for the "Strengthening
                               the Democratic Processes in Honduras," Managed
    1-522-11-035-R   7/27/11   by the Federation of Non-Governmental                  1         QC
                               Organizations for the Development of Honduras
                               (FOPRIDEH), for the Period From January 1, 2010,
                               to September 30, 2010




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 66 

                                                 
                                   USAID Office of Inspector General


                                                                                     Amt. of
     Report          Date of                                                                    Type of
                                               Report Title                          Findings
     Number          Report                                                                     Findings
                                                                                      ($000)
                               Close-out Audit of the Fund Accountability
                               Statement of the Program Central America and
                               the Dominican Republic Centers of Excellence for
                                                                                        68        QC
                               Teachers Training (CARD/CETT), Managed by
    1-522-11-036-R    8/1/11
                               Universidad Pedagógica Nacional Francisco                12        UN
                               Morazán (UPNFM) Under Cooperative
                               Agreement No. 522-A-00-06-00307-00, for the
                               Period From October 1, 2009, to August 31, 2010

                               Audit of the Agreements No. 532-IL-532-4-ENV-
                               AA-0007, 532-IL-532-4-ENV-AA-00009 and 532-
                               AG-2010-AA IL No. 2, for the "USAID/GOJ                  1         QC
    1-532-11-037-R    8/1/11   Gustav Agricultural Rehabilitation Project
                               (GARP)," Managed by the Ministry of Agriculture          1         UN
                               and Fisheries (MOA), for the Period From
                               February 1, 2009, to March 31, 2010

                               Audit of the USAID Cooperative Agreement No.
                               RLA-A-00-06-00065-00, FORTIS Consortium
                               "Programa Fortalecimento Institucional no Sul do         33        QC
    1-512-11-038-R   9/13/11   Amazonas" Managed by Instituto Internacional de
                               Educaçäo do Brasil (IEB) for the Periods From            33        UN
                               October 1, 2007, to September 30, 2008 and
                               October 1, 2008, to September 30, 2009

                               Audit of the "Family Planning and Reproductive
                               Health Services" Program Under USAID's
                               Cooperative Agreement No. 511-A-00-04-00298-
    1-511-11-039-R   9/20/11
                               00, Managed by Center for Research, Education
                               and Services (CIES), for the Year Ended December
                               31, 2010

                               Close-out Audit of the Fund Accountability
                               Statement of USAID Resources, Under
                               Cooperative Agreement No. 522-A-00-07-00702-
    1-522-11-040-R   9/28/11   00, Managed by the Association of Municipalities of
                               Honduras (AMHON) Under AMHON/FODEM
                               Program, for the Period From January 1, 2010, to
                               May 31, 2010




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 67 

                                                  
                                   USAID Office of Inspector General


                                                                                   Amt. of
     Report          Date of                                                                  Type of
                                               Report Title                        Findings
     Number          Report                                                                   Findings
                                                                                    ($000)
                               Audit of the Fund Accountability Statement of the
                               Project Health Services for Displaced Population
                               and Other Vulnerable Groups Managed by the
    1-514-11-041-R   9/28/11   Association for Colombian Family Welfare,              2         QC
                               PROFAMILIA, Under the Cooperative Agreement
                               514-A-00-07-00300-00, for the Period From
                               January 1, 2008, to December 31, 2008

                               Audit of the Fund Accountability Statement of the
                               Project Health Services for Displaced Population
                               and Other Vulnerable Groups Managed by the
    1-514-11-042-R   9/29/11   Association for Colombian Family Welfare,              70        QC
                               PROFAMILIA, Under the Cooperative Agreement
                               514-A-00-07-00300-00, for the Period From
                               January 1, 2009, to December 31, 2009

                               Audit of USAID Resources Managed by the Relief
                               Society of Tigray (REST) Under Cooperative
                               Agreement Nos. 663-A-00-02-00366-00-
    4-663-11-007-N    5/4/11                                                          7         QC
                               Intergrated Household Food Security and FFP-A-
                               00-08-00081-00 Productive Safety Net Program
                               for the year ended December 31, 2009

                               Agency Contracted Close-out Audit of USAID
                               Resources Managed by Mission for Essential Drugs
    4-615-11-008-N   7/14/11   and Supplies (MEDS) under Contract No. 623-C-
                               00-05-00008-00 for the period from September 1,
                               2009, to June 30, 2010

                               Agency Contracted Closeout Audit of USAID
                               Resources Managed by the Kenya Medical Training
                               Centre (KMTC) under Development Assistance
    4-615-11-009-N   9/21/11                                                          11        QC
                               Grant Agreement No. 615-003, Implementation
                               Letter No. 8 for the Period October 12, 2006, to
                               September 30, 2009

                               Audit of USAID Resources Managed by Water For
                               All (previously known as Playpumps International)      6         QC
    4-674-11-025-R   4/20/11   under Cooperative Agreement No. RLA-A-00-06-
                               00079-00 for the period from September 22,             2         UN
                               2006, to February 28, 2008




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 68 

                                                 
                                   USAID Office of Inspector General


                                                                                    Amt. of
     Report          Date of                                                                   Type of
                                               Report Title                         Findings
     Number          Report                                                                    Findings
                                                                                     ($000)
                               Audit of USAID Resources Managed by Water For
                                                                                       1         QC
                               All (previously known as Playpumps International)
    4-674-11-026-R   4/20/11
                               under Cooperative Agreement No. RLA-A-00-06-            1         UN
                               00079-00 for the Year Ended February 28, 2009

                               Audit of USAID Resources Managed by Water For
                               All (previously known as Playpumps International)
    4-674-11-027-R   4/20/11                                                           11        QC
                               under Cooperative Agreement No. RLA-A-00-06-
                               00079-00 for the year ended February 28, 2010

                               Audit of Nazarene Compassionate Ministries
                               under USAID Cooperative Agreement Nos. GHS-             28        QC
    4-663-11-028-R    5/4/11   663-A-00-09-00403-00 (NPI) and GPO-A-0004-
                               000230-00 (Zambia OVC) for the year ended               28        UN
                               December 31, 2008

                               Audit of Nazarene Compassionate Ministries
                               under USAID Cooperative Agreement Nos. GHS-             4         QC
    4-663-11-029-R    5/4/11   663-A-00-09-00403-00 (NPI) and GPO-A-0004-
                               000230-00 (Zambia OVC) for the year ended               4         UN
                               December 31, 2009

                               Audit of USAID Resources Managed by
                               International Peace-Building Alliance (Interpeace)     412        QC
    4-623-11-030-R   5/16/11   under Grant Nos. 623-G-00-06-00063-00, 696-G-
                               00-08-00129-00 and 623-G-00-08-00012-00 for            412        UN
                               the year ended December 31, 2009

                               Audit of USAID Resources Managed by Christian
                               Social Services Commission Under Cooperative
                                                                                       1         QC
                               Agreement No. GHN-A-00-07-00012-00 (Malaria
    4-936-11-031-R   5/16/11
                               Communities Program in Four Districts in                1         UN
                               Southern Tanzania) for the Period October 1,
                               2007, to December 31, 2009

                               Audit of USAID Resources Managed by
                               Confederaçäo das Associaçöes Economicas de             208        QC
    4-656-11-032-R   5/23/11   Moçambique (CTA Mozambique) under
                               Cooperative Agreement 656-A-00-04-00050-00              1         UN
                               for the year ended September 30, 2009




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 69 

                                                  
                                   USAID Office of Inspector General


                                                                                  Amt. of
     Report          Date of                                                                 Type of
                                               Report Title                       Findings
     Number          Report                                                                  Findings
                                                                                   ($000)
                               Closeout Audit of USAID Resources Managed by
                               Mothers 2 Mothers South Africa under Prime
                               Award No.U62/CCU223540/CFDA#93.941-
                               International Centre for AIDS Care and
                               Treatment Program (ICAP); and Audit of USAID
                               Resources Managed by Mothers 2 Mothers South
                               Africa under Cooperative Agreement No. GHH-
    4-674-11-033-R   5/24/11
                               A-00-07-00019-00-New Partners Initiative (NPI);
                               Sub-agreement No. P1321A0027-President's
                               Emergency Plan for AIDS Relief (PEPFAR); Sub
                               Agreement No. 36521-02-John Snow
                               Incorporated (Uganda) and Sub Agreement No.
                               13033-John Snow Incorporated (Swaziland) for the
                               Year Ended December 31, 2009

                               Close-out Audit of USAID Resources Managed by
                               Business Against Crime under Cooperative             4,277      QC
    4-674-11-034-R   5/24/11   Agreement No. 674-A-00-02-00012-00 for the
                               period June 1, 2008, to June 30, 2009, and           125        UN
                               transactions up to February 28, 2010

                               Audit of USAID Resources Managed by The
                                                                                     15        QC
                               Church Alliance for Orphans under Cooperative
    4-936-11-035-R   5/24/11
                               Agreement No. NP1/HUGS-GHA-A-G-00-07-                 15        UN
                               00015-00 for the year ended February 28, 2010

                               Audit of USAID Resources Managed by Hospice
                               Africa Uganda under Cooperative Agreement No.
                               617-A-00-05-00010-00 (Expanding Access and
    4-617-11-036-R   5/24/11                                                         7         QC
                               Scope of Palliative Care to People Living with
                               HIV/AIDS and their Families) for the year ended
                               March 31, 2010




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 70 

                                                 
                                   USAID Office of Inspector General


                                                                                  Amt. of
     Report          Date of                                                                 Type of
                                               Report Title                       Findings
     Number          Report                                                                  Findings
                                                                                   ($000)
                               Audit of USAID Resources Managed by the
                               African Palliative Care Association under
                               Agreement Nos. 621-A-00-07-00013-00 and 674-
                               A-00-09-00112-00 and Sub-Agreement Nos: HF-
                               F2-REG-06-P-PTR-APCA-00, H-F3-ZAM-06-P-
                               PTR-APPC-00, H-F3-BOT-07-P-PTR-APBO, H-F3-
                               CDI-07-P-PTR-APTB, GPO-A-00-03-00003-00,
    4-621-11-037-R   5/24/11
                               255033-TE2-APCA-02, P1102-P-0209,
                               APCAPACTPACAM02, P3125-C09-024,
                               U2GPS000631-03-07, and AIDSSTAR-ONE-001;
                               and Close-out Audit of Sub-agreement No. JOD
                               103, P1104-A0010, P1102-A0009, P1105-A0025,
                               H-F2-REG-06-P-PTR-APCA-00 for the year ended
                               March 31, 2010

                               Audit of USAID Resources Managed by Nawalife
                               Trust under Cooperative Agreement No. 690-A-
    4-673-11-038-R   5/25/11
                               00-07-00103-00 for the 4 Months Ended February
                               29, 2008

                               Audit of USAID Resources Managed by Nawalife
                               Trust under Cooperative Agreement No. 690-A-
    4-673-11-039-R   5/25/11
                               00-07-00103-00 for the Year Ended February 28,
                               2009

                               Audit of USAID Resources Managed by
                               Counselling Services Unit Under Grant Agreement
    4-613-11-040-R   5/25/11                                                         33        QC
                               613-G-00-01-00244-00 for the year ended
                               December 31, 2009

                               Audit of USAID Resources Managed by Kenya
                               Agricultural Research Institute KARI Under the
                               Strategic Objective and Development Assistance
    4-615-11-041-R   5/25/11
                               Grant Agreement No. 615-007, Implementation
                               Letter No. 3 and No. 17-KARI for the Period July
                               1, 2008, to June 30, 2010

                               Audit of USAID Resources Managed by Kenya
                               Wildlife Service Under Development Assistance         4         QC
    4-615-11-042-R   5/25/11   Grant Agreement No. 615–005, Implementation
                               Letter No. 8, for the Two Years Ended June 30,        4         UN
                               2010



        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 71 

                                                 
                                   USAID Office of Inspector General


                                                                                   Amt. of
     Report          Date of                                                                  Type of
                                               Report Title                        Findings
     Number          Report                                                                   Findings
                                                                                    ($000)
                               Audit of USAID Resources Managed by Pastoral
                               Activities and Services for People with AIDS Dar
                               es Salaam Archdiocese (PASADA) Under
    4-621-11-043-R   5/25/11
                               Development Assistance Grant Agreement No.
                               621-A-00-06-00011-00 for the Year Ended
                               December 31, 2008

                               Audit of USAID Resources Managed by
                                                                                     341        QC
                               Foundation for Community Development under
    4-656-11-045-R   5/27/11
                               Cooperative Agreement No. 656-A-00-04-00041-          341        UN
                               00 for the Year Ended September 30, 2009

                               Audit of USAID Resources Managed by Selian
                               AIDS Control Programme under Agreement No.
    4-621-11-046-R   5/27/11
                               621-A-00-07-00001-00 for the Year Ended
                               December 31, 2008

                               Closeout Audit of USAID Resources Managed by
                               the Children of God Relief Institute (COGRI) for
                               the Lea Toto Orphans and Vulnerable Children
                               Program under Cooperative Agreement No. 623-
    4-615-11-047-R   5/27/11                                                          39        QC
                               A-00-06-00037-00 and the Nyumbani Village
                               Program under Cooperative Agreement No. 623-
                               A-00-07-00001-00 for the Period June 12, 2006, to
                               June 11, 2009

                               Audit of USAID Resources Managed by Deloitte
                               Consulting Ltd – TUNAJALI Program under
                               HIV/AIDS Care and Treatment and Rapid Funding
                               Envelope Contract No. 621-C-007-00002-00, the
                               Community Care for PLWA and OVC                        54        QC
    4-621-11-048-R   5/27/11   Cooperative Agreement No. 621-A-00-07-00023-
                               00, and Quick Start Care and Treatment and             28        UN
                               Rapid Funding Envelope for HIV/AIDS under
                               Strategic Objective Agreement No. 621001-01,
                               Contract No. 623-C-00-03-00004-00 for the Year
                               Ended December 31, 2008

                               Audit of USAID Resources Managed by Wits
                               Health Consortium under Cooperative                    42        QC
    4-674-11-049-R   5/27/11   Agreement Nos. 674-A-00-08-00009-00 and 674-
                               A-00-08-000050-00 for the year ended September         42        UN
                               30, 2008


        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 72 

                                                 
                                   USAID Office of Inspector General


                                                                                     Amt. of
     Report          Date of                                                                    Type of
                                                Report Title                         Findings
     Number          Report                                                                     Findings
                                                                                      ($000)
                               Audit of USAID resources managed by Otse
                               Community Home Based Care Trust under
    4-936-11-050-R   5/27/11
                               Cooperative Agreement No.GHO-A-00-09-
                               00003-00 for the year ended March 31, 2010

                               Audit of USAID Resources Managed by Hamlin
                               Fistula Welfare and Research Trust, Addis Ababa
                               Fistula Hospital, USAID Support for Fistula
    4-663-11-051-R   5/27/11                                                            1         QC
                               Identification, Referral and Treatment in Ethiopia,
                               under Grant Agreement No. 663-G-00-06-00418-
                               00 for the year ended June 30, 2010

                               Audit of USAID Resources Managed by East,
                               Central and Southern Africa Health Community
    4-623-11-052-R   5/31/11   (ECSA-HC) Under Strategic Objective Agreement
                               No. 6230011.02-60087 for the year ended June
                               30, 2010

                               Audit of USAID Resources Managed by Integrated
                               Community Based Initiatives (ICOBI) Under
                               Cooperative Agreement No. GHO-A-00-08-
    4-936-11-053-R    6/1/11   00005-00; Scaling up Household Based Response
                               for Orphaned and Vulnerable Children (OVC) in
                               South Western Uganda for the Year Ended June
                               30, 2010

                               Closeout Audit of USAID Resources Managed by
                               Joint Clinical Research Centre under Cooperative
    4-617-11-054-R    6/3/11                                                           865        QC
                               Agreement No. 617-A-00-04-00003-00 for the
                               Fifteen-Month Period Ended September 30, 2010

                               Closeout Audit of USAID Resources Managed by
                               Sustainable Healthcare Foundation under
                                                                                        3         QC
                               Cooperative Agreement No. 623-A00-07-00005-
    4-615-11-055-R    6/6/11
                               00 (Using Micro-Franchising to Improve Access to         1         UN
                               Life Saving Medicines) For the Period January 1,
                               2009, to May 31, 2010




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 73 

                                                  
                                   USAID Office of Inspector General


                                                                                Amt. of
     Report          Date of                                                               Type of
                                               Report Title                     Findings
     Number          Report                                                                Findings
                                                                                 ($000)
                               Audit of USAID Resources Managed by the
                               Common Market for Eastern and Southern Africa
                               (COMESA) under Strategic Objective Grant
                               Agreement Nos. 6231005.01-3-30001 and
                               62300010.02-60100-10, Limited Scope Grant          344        QC
    4-623-11-056-R    6/7/11   Agreement Nos. 623-1005.01-3-50079 and 623-
                               LSGA0010.02-3-60078, Integrated Partnership        338        UN
                               Assistance Agreement 623-AA-09-001-00-EA and
                               Closeout Audit of Strategic Objective Grant
                               Agreement No. 6231006.01-3-30002 for the year
                               ended December 31, 2009

                               Closeout Audit of USAID Resources Managed by
                               Transparency International Zimbabwe under
    4-613-11-057-R    6/8/11   Cooperative Agreement No. 674-A-00-08-0051-         12        QC
                               00 for the Twenty-Seven Months Ended
                               September 30, 2010

                               Audit of USAID Resources Managed by Mulago-
                               Mbarara Teaching Hospitals' Joint AIDS Program
    4-617-11-058-R   6/10/11   (MJAP) Ltd., Cooperative Agreement 617-A-09-
                               00006 for the Period August 20, 2009, to
                               September 30, 2010

                               Audit of USAID Resources Managed by Genesis
                                                                                  368        QC
                               Trust under Cooperative Agreement No. GHH-A-
    4-936-11-059-R   6/10/11
                               00-07-00014-00 for the Year Ended December 31,     363        UN
                               2009

                               Audit of USAID Resources Managed by the Somali
                               Region Livestock, Crop & Rural Development          62        QC
    4-663-11-060-R   6/20/11   Bureau under Limited Scope Grant Agreement
                               No. 663-016 for the period November 15, 2006,       62        UN
                               to July 7, 2008

                               Audit of USAID Resources Managed by the
                               Botswana Retired Nurses Society Under
    4-936-11-061-R    7/5/11   Agreement No. GHO-A-00-09-00013-00
                               (Empowerment of HIV/AIDS Affected and Infected
                               People) for the Year Ended March 31, 2010




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 74 

                                                 
                                   USAID Office of Inspector General


                                                                                   Amt. of
     Report          Date of                                                                  Type of
                                               Report Title                        Findings
     Number          Report                                                                   Findings
                                                                                    ($000)
                               Audit of USAID Resources Managed by
                               Grassroots Alliance for Community Education            4         QC
    4-936-11-062-R    7/5/11   (G.R.A.C.E.) Africa under Cooperative Agreement
                               No. GHO-A-00-09-00004-00 For the Period                4         UN
                               December 1, 2008, to December 31, 2009

                               Closeout Audit of USAID Resources Managed by
                               Foundation for Community Development under
    4-656-11-063-R    7/6/11                                                          89        QC
                               Cooperative Agreement No. 656-A-00-04-00041-
                               00 for the Year Ended September 30, 2010

                               Audit of USAID Resources Managed by Regional
                               Centre for Quality of Health Care under Strategic     140        QC
    4-623-11-064-R    7/8/11   Objective Agreement No. 623-0011.02-60088 and
                               Purchase Order No. AID-623-0-09-00006 for the          19        UN
                               Year Ended June 30, 2010

                               Audit of USAID Resources Managed by The AIDS
                               Support Organization (TASO) Uganda Limited
    4-617-11-065-R   7/14/11   under Cooperative Agreement No. 617-A-00-09-
                               00005-00 for the Period July 1, 2009, to
                               December 31, 2009

                               Audits of USAID Resources Managed by Mildmay
                               International under Cooperative Agreement No.
                               623-A-00-07-00014-00 (Kenya), and by Mildmay
    4-623-11-066-R   7/19/11                                                          6         QC
                               International under Cooperative Agreement No.
                               621-A-00-07-00008-00 (Tanzania) for the year
                               ended March 31, 2010

                               Audit of USAID Resources Managed by Egerton
                               University–Tegemeo Institute under Development
    4-615-11-067-R   7/19/11   Assistance Grant Agreement No. 615-007,               250        QC
                               Implementation Letter No. 14, for the Period
                               October 1, 2008, to June 30, 2010

                               Audit of USAID Resources Managed by Water for
                               All (previously known as Playpumps International)
    4-674-11-068-R    8/2/11
                               under Cooperative Agreement No. RLA-A-00-06-
                               00079-00 for the Year Ended February 28, 2011




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 75 

                                                 
                                   USAID Office of Inspector General


                                                                                    Amt. of
     Report          Date of                                                                   Type of
                                               Report Title                         Findings
     Number          Report                                                                    Findings
                                                                                     ($000)
                               Audit of USAID Resources Managed by Ifakara
                               Health Institute under Cooperative Agreement
    4-621-11-069-R    8/2/11
                               No. 621-A-00-07-00015-00, for the period from
                               March 22, 2007, to May 31, 2008

                               Audit of USAID Resources Managed by Youth
                                                                                       4         QC
                               Health Organization under Cooperative
    4-936-11-070-R    9/8/11
                               Agreement No. NPI-GHH-A-00-07-00011-00 for              4         UN
                               the year ended March 31, 2008

                               Audit of USAID Resources Managed by Selian
                               AIDS Control Programme (ACP) under
    4-621-11-071-R   8/23/11   Development Assistance Grant Agreement No.
                               621-A-00-07-00001-00 for the year ended
                               December 31, 2009

                               Closeout Audit of USAID Resources Managed by
                               The Church Alliance for Orphans under                  777        QC
    4-936-11-072-R    9/8/11   Agreement No. NP1/HUGS-GHA-A-G-00-07-
                               00015-00 for the period from March 1, 2010, to         242        UN
                               March 31, 2011

                               Audit of USAID Resources Managed by the
                               Government of the United Republic of Tanzania
    4-621-11-073-R   9/15/11   Under Strategic Objective Grant Agreement 621-
                               0011.01, Implementation Letters 21, 27, and 30 for
                               the Year Ended June 30, 2010

                               Audit of USAID Resources Managed by Ifakara
                               Health Institute under Cooperative Agreement
    4-621-11-074-R   9/21/11
                               No. 621-A-00-08-00007-00 for the Period
                               November 1, 2007, to June 30, 2010

                               Audit of USAID Resources Managed by Lewa
                               Wildlife Conservancy under Cooperative                  4         QC
    4-615-11-075-R   9/21/11   Agreement Nos. 623-A-00-05-00010-00
                               (Closeout) and 623-A-00-09-00011-00 for the             3         UN
                               period January 1, 2008, to December 31, 2009




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 76 

                                                 
                                   USAID Office of Inspector General


                                                                                    Amt. of
     Report          Date of                                                                   Type of
                                               Report Title                         Findings
     Number          Report                                                                    Findings
                                                                                     ($000)
                               Audit of the USAID Resources Managed by
                               Ministry of Education (MoE) Under Development
                                                                                      196        QC
                               Assistance Grant Agreement No. 615-008,
    4-615-11-076-R   9/21/11
                               Implementation Letters No. 5, 6, 7, and 8 for the      179        UN
                               Period March 1, 2006, to June 30, 2008 and
                               August 1, 2004, to May 31, 2005

                               Audit of USAID Resources Managed by Luapula
                                                                                       15        QC
                               Foundation under Cooperative Agreement No.
    4-936-11-077-R   9/27/11
                               GHH-A-00-07-00021-00 for the period December            4         UN
                               1, 2006, through September 30, 2007

                               Financial Audit of USAID Resources Managed by
                               the Department of Health Services, Government
                               of Nepal, Under USAID Strategic Objective Grant         92        QC
    5-367-11-003-N   5/31/11   Agreement Project No. 367-0180, Implementation
                               Letter No. 5 for the Period from July 16, 2006, to      69        UN
                               July 15, 2007, and Implementation Letter No. 7 for
                               the Period from July 16, 2007, to July 15, 2008

                               Financial Audit of the Program "Scaling up the
                               Faith-based Response to HIV/AIDS in Vietnam",
                                                                                       6         QC
                               USAID Cooperative Agreement No. GHH-A-00-
    5-440-11-016-R   4/20/11
                               07-00018-00, Managed by Nordic Assistance to            2         UN
                               Vietnam (NAV), for the Year Ended December 31,
                               2009

                               Financial Audit of USAID Funds Managed by the          214        QC
    5-486-11-017-R   4/28/11   Freeland Foundation, for the Period from January
                               1, 2009, to December 31, 2009                           82        UN


                               Financial Audit of the Project "Rural
                               Empowerment Through Renewable Energy,"
                               USAID/Bangladesh Grant Agreement No. 388-G-
    5-388-11-018-R    5/4/11                                                           8         QC
                               00-05-00060-00, Managed By Grameen Shakti, for
                               the Period from January 1, 2009, to December 31,
                               2009




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 77 

                                                  
                                   USAID Office of Inspector General


                                                                                       Amt. of
     Report          Date of                                                                      Type of
                                                Report Title                           Findings
     Number          Report                                                                       Findings
                                                                                        ($000)
                               Financial Audit of the Anti-Trafficking in Persons
                               Pan-Asian Campaign, USAID/RDMA Cooperative
                               Agreement No. 486-A-00-06-00015-00, Managed
    5-493-11-019-R   6/16/11                                                              9         QC
                               by the MTV Europe Foundation (MTV), for the
                               Period from January 1, 2008, to December 31,
                               2008

                               Financial Audit of the Statement of Costs Incurred
                               and Billed to USAID/Indonesia by Swisscontact to
                               Implement The Aceh Polytechnic Program (TAPP),
    5-497-11-020-R   8/26/11
                               USAID/Indonesia Contract No. 497-C-00-08-
                               00001-00, for the Period from January 1, 2010, to
                               December 31, 2010

                               Financial Audit of USAID Funds Managed by the
                               Asian Disaster Preparedness Center for the
    5-493-11-021-R   9/22/11
                               Period from January 1, 2010, to December 31,
                               2010

                               Financial Audit of USAID Funds Managed by the
                               Philippine Business for Social Progress, Inc. (PBSP),
    5-492-11-022-R   9/29/11                                                              2         QC
                               for the Period from October 1, 2009, to
                               September 30, 2010

                               Audit of the Fund Accountability Statement of
                               USAID Resources Managed by Transparency
                               International e. V., Berlin, Germany, Grant
                               Number 263-G-00-07-00103-00, Measuring Anti-
    6-263-11-003-R   5/16/11
                               corruption Efforts and Building Demand for
                               Effective National Integrity Systems in Egypt and
                               the Arab World, for the Period From January 1,
                               2007, to December 31, 2007

                               Audit of the Fund Accountability Statement of
                               USAID Resources Managed by Transparency
                               International e. V., Berlin, Germany, Grant
                               Number 263-G-00-07-00103-00, Measuring Anti-
    6-263-11-004-R   5/26/11
                               corruption Efforts and Building Demand for
                               Effective National Integrity Systems in Egypt and
                               the Arab World, for the Period From January 1,
                               2008, to December 31, 2008




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 78 

                                                   
                                   USAID Office of Inspector General


                                                                                   Amt. of
     Report          Date of                                                                  Type of
                                               Report Title                        Findings
     Number          Report                                                                   Findings
                                                                                    ($000)
                               Audit of the Fund Accountability Statement of
                               USAID Resources Managed by Transparency
                               International e. V., Berlin, Germany, Grant
                               Number 263-G-00-07-00103-00, Measuring Anti-
    6-263-11-005-R   5/16/11
                               corruption Efforts and Building Demand for
                               Effective National Integrity Systems in Egypt and
                               the Arab World, for the Period From January 1,
                               2009, to December 31, 2009

                               Close-out Examination of Saqqa and Khoudary Co.
                               Ltd. Compliance With Terms and Conditions of
                               USAID Funded Contract Number 294-C-00-04-
    6-294-11-020-N   5/15/11                                                          6         QC
                               00225-00, Eastern Hebron Bulk Water Supply, for
                               the Period From January 1, 2007, to October 21,
                               2007

                               Close-out Examination of Al Hamdeyah Company
                               for General Contracts' Compliance With Terms
                               and Conditions of Sub-fixed Price Contracts
                               Number 24024-08-WB-SA054, 24024-08-WB-
                               SA014, 24024-08-WB-SA060, 24024-09-WB-
    6-294-11-021-N   5/15/11
                               SA075, 24024-09-WB-SA076 and 24024-10-WB-
                               SA004, Under Prime Cooperative Housing
                               Foundation's Cooperative Agreement Number
                               294-A-00-07-00213-00, the Emergency Jobs, for
                               the Period From May 30, 2008, to March 1, 2010

                               Close-out Examination of Al Saleh for Contracting
                               Company's Compliance with Terms and
                               Conditions of Sub-fixed Price Contracts Number
                               24024-08-WB-SA037 and 24024-08-WB-SA002,
    6-294-11-022-N   5/15/11
                               Under Prime Cooperative Housing Foundation's
                               Cooperative Agreement Number 294-A-00-07-
                               00213-00, Emergency Jobs Program, for the Period
                               from November 14, 2007, to March 10, 2009

                               Financial Audit of USAID/Egypt Resources
                               Managed and Expenditures Incurred by United
                               Group, Community Action Towards Transparency
    6-263-11-024-N   5/19/11                                                          1         QC
                               Program, Award Number 263-G-00-08-00065-00,
                               for the Period From September 25, 2008, to
                               September 30, 2009




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 79 

                                                  
                                   USAID Office of Inspector General


                                                                                  Amt. of
     Report          Date of                                                                 Type of
                                               Report Title                       Findings
     Number          Report                                                                  Findings
                                                                                   ($000)
                               Close-out Audit of the Cost Representation
                               Statement of Locally Incurred Costs of USAID
                               Resources Managed by Birzeit University,
                               Development Studies Program, Sub-Contract
    6-294-11-025-N   5/23/11   Under International Republican Institute
                               Cooperative Agreement Number 294-A-00-05-
                               00215-00, Support for Democratic Legislative and
                               Local Elections in West Bank and Gaza, for the
                               Period From June 7, 2005, to February 28, 2007

                               Close-out Examination of Qertaja Contracting
                               Company Compliance with Terms and Conditions
                               of Sub-fixed Price Contract under American Near
    6-294-11-028-N    6/8/11   East Refugee Aid, Cooperative Agreement
                               Number 294-A-00-08-00219-00, Emergency
                               Water and Sanitation Program II, for the Period
                               From October 28, 2009, to August 1, 2010

                               Close-out Examination of Fattouh Engineering
                               Company for General Contracting Compliance
                               with Terms and Conditions of Sub-fixed Price
                               Contract Number EW-WB-120 under American
    6-294-11-029-N    6/8/11
                               Near East Refugee Aid, Cooperative Agreement
                               Number 294-A-00-05-00240-00, the Emergency
                               Water and Sanitation Program, for the Period
                               From August 4, 2008, to December 4, 2008

                               Close-out Examination of Al Moheet Contracting
                               Company Compliance with Terms and Conditions
                               of Sub-fixed Price Contract Number EW-WB-095
                               under American Near East Refugee Aid,
    6-294-11-030-N    6/8/11
                               Cooperative Agreement Number 294-A-00-05-
                               00240-00, the Emergency Water and Sanitation
                               Program, for the Period From May 20, 2008, to
                               September 22, 2008




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 80 

                                                 
                                   USAID Office of Inspector General


                                                                                  Amt. of
     Report          Date of                                                                 Type of
                                               Report Title                       Findings
     Number          Report                                                                  Findings
                                                                                   ($000)
                               Close-out Examination of Shak'a and Khatib for
                               Contracting Compliance with Terms and
                               Conditions of Sub-fixed Price Contract Number
                               JV-S-ED1 under American Near East Refugee Aid,
    6-294-11-031-N    6/8/11
                               Cooperative Agreement Number 294-A-00-02-
                               00229-00, Job Opportunities Through Basic
                               Services Program, for the Period From December
                               1, 2007, to August 21, 2008

                               Close-out Financial Audit of the Egyptian
                               Association for Supporting Democratic
                               Development, Provide Support for a Program in        252        QC
    6-263-11-032-N   7/14/11   Monitoring Campaign of 2008 Elections of the
                               Local Popular Councils, USAID/Egypt Funded           239        UN
                               Agreement Number 263-G-00-08-00021-00, for
                               the Period From March 6, 2008, to July 31, 2008

                               Close-out Financial Audit of USAID/Egypt
                               Resources Managed and Expenditures Incurred by
                               the Ministry of Health and Population,                5         QC
    6-263-11-033-N   7/14/11   Communication for Healthy Living, Project
                               Number 263-0287.05, Implementation Letter             5         UN
                               Number 2, for the Period From January 1, 2008,
                               to September 30, 2009

                               Close-out Examination of Abu Thaher Contracting
                               Company Compliance With Terms and
                               Conditions of Sub-fixed Price Contracts Under
                               Prime Cooperative Housing Foundation,
    6-294-11-034-N   7/21/11
                               Cooperative Agreement Number 294-A-00-07-
                               00213-00, The Emergency Jobs Program, for the
                               Period from February 25, 2009, to October 18,
                               2009

                               Close-out Examination of Al Bushra Al Waeda
                               Contracting Company Compliance With Terms
                               and Conditions of Sub-fixed Price Contract Under
                               Prime Cooperative Housing Foundation,
    6-294-11-035-N   7/21/11
                               Cooperative Agreement Number 294-A-00-07-
                               00213-00, the Emergency Jobs Program, for the
                               Period From September 24, 2009, to November
                               24, 2010




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 81 

                                                 
                                   USAID Office of Inspector General


                                                                                  Amt. of
     Report          Date of                                                                 Type of
                                               Report Title                       Findings
     Number          Report                                                                  Findings
                                                                                   ($000)
                               Close-out Examination of Al Khaled for General
                               Contracting Compliance With Terms and
                               Conditions of Sub-fixed Price Contract Under
    6-294-11-036-N   7/21/11   Prime Cooperative Housing Foundation,
                               Agreement Number 294-A-00-07-00213-00, the
                               Emergency Jobs Program, for the Period From
                               August 16, 2009, to January 26, 2010

                               Close-out Examination of Al Mosleh for
                               Contracting Compliance With Terms and
                               Conditions of Sub-fixed Price Contracts Under
    6-294-11-037-N   7/21/11   Prime Cooperative Housing Foundation,
                               Agreement Number 294-A-00-07-00213-00, the
                               Emergency Jobs Program, for the Period From
                               September 4, 2008, to February 5, 2009

                               Close-out Examination of Al Naser Engineering
                               and Construction Institute Compliance With
                               Terms and Conditions of Sub-fixed Price
                               Contracts Under Prime Cooperative Housing
    6-294-11-038-N   7/21/11
                               Foundation, Agreement Number 294-A-00-07-
                               00213-00, the Emergency Jobs Program, for the
                               Period From March 23, 2009, to December 27,
                               2009

                               Close-out Examination of Al Omar Engineering
                               Company Compliance With Terms and
                               Conditions of Sub-fixed Price Contract Under
                               Prime Cooperative Housing Foundation,
    6-294-11-039-N   7/21/11
                               Cooperative Agreement Number 294-A-00-05-
                               00242-00, Local Democratic Reform Program, for
                               the Period From October 27, 2008, to May 28,
                               2009

                               Close-out Examination of Khaled Tayeb Office for
                               General Contracting Compliance With Terms and
                               Conditions of Sub-fixed Price Contracts Under
    6-294-11-040-N   7/21/11   Prime Cooperative Housing Foundation,
                               Cooperative Agreement Number 294-A-00-07-
                               00213-00, The Emergency Jobs Program, for the
                               Period from June 2, 2008, to December 7, 2008




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 82 

                                                 
                                   USAID Office of Inspector General


                                                                                   Amt. of
     Report          Date of                                                                  Type of
                                               Report Title                        Findings
     Number          Report                                                                   Findings
                                                                                    ($000)
                               Close-out Examination of Al Madi Company for
                               Engineering & Contracting Compliance with
                               Terms and Conditions of Sub-fixed Price Contract
                               Under Prime Cooperative Housing Foundation,
    6-294-11-041-N   8/17/11
                               Cooperative Agreement Number 294-A-00-05-
                               00242-00, Local Democratic Reform Program, for
                               the Period From March 16, 2009, to December 7,
                               2009

                               Close-out Examination of Abu Haniyeh for
                               Construction and Development's Compliance with
                               Contract Terms and Conditions of Sub-fixed Price
                               Contracts Number EO1-WSO-NW-001, EO1-
                               WSO-NW-004, EO1-WSO-NW-016, EO1-WSO-
    6-294-11-042-N   8/17/11   NW-029 and EO1-WSO-CW-025 Under Prime
                               American Near East Refugee Aid's Cooperative
                               Agreement Number 294-A-00-08-00219-00, the
                               Emergency Water and Sanitation and Other
                               Infrastructure Program, for the Period From
                               February 25, 2009, to August 10, 2010

                               Close-out Examination of Al-Amarah Company for
                               Contracting and Engineering Compliance with
                               Terms and Conditions of Sub-fixed Price Contract
                               Number EW-WB-108, Under Prime American
    6-294-11-045-N   9/19/11
                               Near East Refugee Aid, Cooperative Agreement
                               Number 294-A-00-05-00240-00, The Emergency
                               Water and Sanitation Program, for the Period
                               From May 7, 2008, to October 9, 2008

                               Close-out Examination of As-Saleh for Contracting
                               Compliance with Terms and Conditions of Sub-
                               fixed Price Contract Number JV-S-ED2, Under
                               Prime American Near East Refugee Aid,
    6-294-11-046-N   9/19/11
                               Cooperative Agreement Number 294-A-00-02-
                               00229-00, Job Opportunities Through Basic
                               Services Program, for the Period From November
                               19, 2007, to July 16, 2008




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 83 

                                                 
                                   USAID Office of Inspector General


                                                                                  Amt. of
     Report          Date of                                                                 Type of
                                               Report Title                       Findings
     Number          Report                                                                  Findings
                                                                                   ($000)
                               Close-out Examination of Tarifi Contracting and
                               Reconstruction Company Compliance with Terms
                               and Conditions of Sub-fixed Price Contract
                               Number JV-S-CH1-Component 1, Under Prime
    6-294-11-047-N   9/19/11
                               American Near East Refugee Aid, Cooperative
                               Agreement Number 294-A-00-02-00229-00, Job
                               Opportunities Through Basic Services Program for
                               the Period From June 8, 2008, to August 22, 2008

                               Close-out Examination of Saadi Ameen
                               Contracting Company Compliance with Terms
                               and Conditions of Sub-fixed Price Contract
                               Number JV-S-CH1-Component 2, Under Prime
    6-294-11-048-N   9/19/11   American Near East Refugee Aid, Cooperative
                               Agreement Number 294-A-00-02-00229-00, Job
                               Opportunities Through Basic Services Program,
                               for the Period From June 8, 2008, to August 22,
                               2008

                               Close-out Examination of Musa Abu Hatab for
                               General Contracting and Trading Compliance with
                               Terms and Conditions of Sub-fixed Price ontracts
                               Number EO1-WSO-NW-005 and EO1-WSO-
    6-294-11-049-N   9/19/11   NW-038 Under Prime American Near East
                               Refugee Aid, Cooperative Agreement Number
                               294-A-00-08-00219-00, Emergency Water and
                               Sanitation Program II, for the Period From
                               February 9, 2009, to January 31, 2010

                               Close-out Examination of Shaltaf General
                               Contracting Company Compliance with Terms
                               and Conditions of Sub-fixed Price Contract Under
    6-294-11-051-N   9/25/11   Prime APCO-Arcon, Contract Number 294-I-00-
                               08-00221-00, Infrastructure Needs Program, for
                               the Period From October 15, 2009, to June 12,
                               2010




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 84 

                                                 
                                   USAID Office of Inspector General


                                                                                  Amt. of
     Report          Date of                                                                 Type of
                                               Report Title                       Findings
     Number          Report                                                                  Findings
                                                                                   ($000)
                               Close-out Examination of Saaideh General
                               Contracting Company Compliance with Terms
                               and Conditions of Sub-fixed Price Contract Under
    6-294-11-054-N   9/25/11   Prime International Relief and Development,
                               Contract Number 294-I-00-08-00217-00,
                               Infrastructure Needs Program, for the Period
                               From October 21, 2009, to March 6, 2010

                               Examination of Site Group for Services and Well
                               Drilling Ltd. Company Compliance with Terms
                               and Conditions of Sub-fixed Price Contract Under
                               Prime International Relief and Development, Task
    6-294-11-055-N   9/25/11                                                        968        QC
                               Order Number 43 Under Indefinite Quantity
                               Contract Number 294-I-00-08-00217-00,
                               Infrastructure Needs Program, for the Period
                               From December 16, 2009, to December 4, 2010

                               Close-out Examination of Technical Group
                               Company for General Contracting Compliance
                               with Terms and Conditions of Sub-fixed Price
                               Contract Under Prime International Relief and
    6-294-11-056-N   9/25/11   Development, Task Orders Number 11 and 15
                               Under Indefinite Quantity Contract Number 294-
                               I-00-08-00217-00, Infrastructure Needs Program,
                               for the Period From August 16, 2009, to June 4,
                               2010

                               Examination of the United Newland for
                               Investments Ltd. Compliance with Terms and
                               Conditions of Sub-fixed Price Contracts Under
                               Prime International Relief and Development, Task
    6-294-11-057-N   9/25/11
                               Orders Number 13, 20, 32, and 37 Under
                               Indefinite Quantity Contract Number 294-I-00-08-
                               00217-00, Infrastructure Needs Program, for the
                               Period From October 15, 2009, to July 9, 2010

                               Close-out Examination of Al Baraa Company for
                               Contracting's Compliance with Terms and
                               Conditions of Sub-fixed Price Contract Under
    6-294-11-058-N   9/26/11   Prime APCO-Arcon Task Order Number 22,
                               Indefinite Quantity Contract Number 294-I-00-08-
                               00221-00, Infrastructure Needs Program, for the
                               Period From January 5, 2010, to March 15, 2010


        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 85 

                                                 
                                   USAID Office of Inspector General


                                                                                  Amt. of
     Report          Date of                                                                 Type of
                                               Report Title                       Findings
     Number          Report                                                                  Findings
                                                                                   ($000)
                               Close-out Examination of Al-Eswed Company for
                               Contracting's Compliance with Terms and
                               Conditions of Sub-fixed Price Contracts, Under
    6-294-11-059-N   9/26/11   Prime APCO-Arcon Indefinite Quantity Contract
                               Number 294-I-00-08-00221-00, Infrastructure
                               Needs Program, for the Period From October 16,
                               2008, to November 26, 2009

                               Close-out Examination of Al-Qalaa Company for
                               Contracting's Compliance with Terms and
                               Conditions of Sub-fixed Price Contract Numbers
                               24024-10-WB-SA072, 24024-09-WB-SA061,
                               24024-10-WB-SA067, 24024-08-WB-SA006, and
    6-294-11-060-N   9/26/11
                               24024-08-WB-SA038, Under Cooperative
                               Housing Foundation's Cooperative Agreement
                               Number 294-A-00-07-00213-00, the Emergency
                               Jobs Program, for the Period From May 18, 2008,
                               to May 7, 2010

                               Close-out Examination of Saqqa and Khoudary
                               Compliance with Terms and Conditions Under
    6-294-11-062-N   9/28/11   USAID Task Order Number 294-I-00-07-00209-
                               00, Infrastructure Needs Program, for the Period
                               From September 27, 2008, to August 31, 2010

                               Close-out Examination of Modern Infrastructure
                               Contracting and Investment Compliance with
                               Terms and Conditions of Sub-fixed Price
    6-294-11-063-N   9/28/11   Contract, Under Prime APCO-Arcon, Contract
                               Number 294-I-00-08-00221-00, Infrastructure
                               Needs Program, for the Period From January 5,
                               2010, to July 12, 2010

                               Close-out Audit of the Fund Accountability
                               Statement of USAID Resources Managed by
                               Palestine Trade Center, Marketing Services
    6-294-11-064-N   9/28/11   Development Project, Sub-Grant Number PED-
                               WB-0019, Under Development Alternative Inc.,
                               Task Order Number 294-M-00-05-000231-00, for
                               the Period From July 18, 2007, to July 18, 2008




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 86 

                                                 
                                   USAID Office of Inspector General


                                                                                    Amt. of
     Report          Date of                                                                   Type of
                                               Report Title                         Findings
     Number          Report                                                                    Findings
                                                                                     ($000)
                               Agency-Contracted Audit of the Local Currency
                               Expenses Incurred by the Ministry of Health of the
                               Republic of Mali under the USAID Health Strategic
                                                                                      159        QC
                               High Impact Health Services Strategic Objective
    7-688-11-001-N   6/24/11
                               Program No. 688-006-00 from January 1, 2009,           100        UN
                               through June 30, 2010 and the President's Malaria
                               Initiative Program from July 1, 2008, through
                               June 30, 2010

                               Consolidated Audit of USAID and Other Donor
                               Resources Granted to the Permanent Interstate           18        QC
    7-624-11-009-R   4/28/11   Committee for Drought Control in the Sahel
                               (CILSS) for the Period January 1, 2009, to              15        UN
                               December 31, 2009

                               Recipient Contracted Audit of USAID Resources
                               Managed by the Catholic Secretariat of Nigeria
                               under the Scale-Up of the Catholic Community           119        QC
    7-620-11-010-R   6/23/11   Based Outreach in Response to HIV/AIDS
                               Program (Cooperative Agreement No. 620-A-00-           119        UN
                               07-00217-00) for the Period from November 1,
                               2008, to October 31, 2009

                               Recipient Contracted Audit of USAID Resources
                               Managed by Christian Health Association of
                                                                                       79        QC
                               Nigeria under the Nigeria Indigenous Capacity
    7-620-11-011-R   8/17/11
                               Building Agreement No. 620-A-00-07-00180-00             1         UN
                               for the period from January 1, 2009, through
                               December 31, 2009

                               Recipient Contracted Audit of USAID and
                               Kreditanstalt Für Wiederaufbau (KFW) Resources
                               Managed by the Agency for the Development of            1         QC
    7-685-11-012-R   8/19/11   Social Marketing (ADEMAS) under Grant
                               Agreement No. 685-A-00-03-00118 and the KFW             1         UN
                               Program Agreement No. 2002-65-033 for the year
                               ending December 31, 2010

                               Recipient-Contracted Audit of USAID Resources
                               managed by Pro-Health International of Nigeria
    7-620-11-013-R    9/2/11   under the HIV/AIDS Reduction Program in the            421        QC
                               Niger Delta (CA No. 620-A-00-08-00132-00) for
                               the year ended December 31, 2009


        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 87 

                                                  
                                   USAID Office of Inspector General


                                                                                    Amt. of
     Report          Date of                                                                   Type of
                                               Report Title                         Findings
     Number          Report                                                                    Findings
                                                                                     ($000)
                               Recipient-Contracted Audit of USAID Resources
                               Managed by Avocats Sans Frontières under the
                               Rule of the Law in Democratic Republic of the
    7-623-11-014-R    9/8/11
                               Congo Program (Grant Agreement No. 623-A-00-
                               08-00046-00) for the Period from January 1 to
                               December 16, 2010

                               Recipient-Contracted Audit of USAID Resources
                               Managed by EQUIP Liberia under the Protection
                               of Vulnerable Groups from Gender-based
                               Violence (GBV) Program (Grant Nos. DFD-G-00-
                               09-00019-00 and DFD-G-00-10-00133-00) for the
    7-669-11-015-R   9/29/11                                                           46        QC
                               Periods from November 20, 2008, to
                               December 31, 2009, and March 26, 2010; and the
                               Malaria Prevention and Control Program (Grant
                               No. GHS-A-00-08-00003-00) for the period from
                               September 30, 2008, to September 29, 2010

                               Financial Audit of the Program "Civilian Technical
                               Assistance Program (CTAP)" USAID/Afghanistan
    F-306-11-001-N   7/21/11   Grant Agreement No. 306-09-CTAP-0001,                   2         QC
                               Managed by the Ministry of Finance, for the Period
                               from September 30, 2009, to September 30, 2010

                               Financial Audit of the Program "Regenerating
                               Murad Khane, Restoring Refurbishing and
                               Revitalizing the Old City," USAID/Afghanistan
    F-306-11-003-R   7/14/11   Cooperative Agreement No. 306-A-09-00503-00,
                               Managed by the Turquoise Mountain Trust (TMT),
                               for the Period from January 1, 2010, to
                               December 31, 2010

                               Closeout Audit of the Program "Interactive
                               Teaching & Learning Project," USAID/Pakistan
                               Cooperative Agreement No. 391-A-00-06-01075-
                               00, and Financial Audit of Program "Links to
                                                                                       13        QC
                               Learning Education Support to Pakistan," Sub-
    G-391-11-002-R    4/8/11
                               Award under USAID/Pakistan Cooperative                  13        UN
                               Agreement No. 391-A-00-08-01100-00, Managed
                               by Children's Global Network Pakistan Limited,
                               for the Period from July 1, 2008, to February 26,
                               2010




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 88 

                                                  
                                   USAID Office of Inspector General


                                                                                        Amt. of
      Report         Date of                                                                       Type of
                                                Report Title                            Findings
      Number         Report                                                                        Findings
                                                                                         ($000)
                               Financial Audit of the Pakistan Competitiveness
                               Support Fund, USAID/Pakistan Grant Agreement                3         QC
    G-391-11-003-R   5/10/11   No. 391-G-00-06-01073-00, Managed by
                               Competitiveness Support Fund (CSF), for the                 2         UN
                               Period from July 1, 2009, to June 30, 2010

                               Closeout Financial Audit of the Forman Christian
                               College, USAID/Pakistan Grant Agreement No.
    G-391-11-004-R   6/23/11   391-G-00-04-01036-00, Managed by Forman                    123        QC
                               Christian College (FCC), for the Period from
                               July 1, 2009, to March 31, 2010

                               Financial Audit of the Business Revitalization
                               Program, USAID/Pakistan Cooperative Agreement
    G-391-11-005-R   9/21/11   No. 391-A-00-10-01145-00, Managed by Khushhali
                               Bank, for the Period from February 6, 2010, to
                               December 31, 2010


                                      Local Currency Trust Fund
                               Financial Audit of USAID/Pakistan's Rupee Trust
    G-391-11-001-N   5/26/11   Fund, for the Period from October 1, 2006, to
                               September 30, 2009


                                        U.S.-Based Contractors
                               The Louis Berger Group, Inc., Report on Adequacy
    0-000-11-002-D    4/8/11
                               of Initial Disclosure Statement Effective July 1, 2008

                               The Louis Berger Group, Inc. - Nation Building
    0-000-11-003-D   5/10/11   Segment Report on Adequacy of Initial Disclosure
                               Statement, Effective July 1, 2008

                               The Louis Berger Group, Inc. - Integrated
    0-000-11-004-D   5/12/11   Development Segment Report on Adequacy of
                               Initial Disclosure Statement Effective July 1, 2008

                               Sigma One Corporation, Report on Audit of
    0-000-11-005-D   6/22/11
                               Incurred Costs for Fiscal Year 2005

                               Sigma One Corporation, Report on Audit of
    0-000-11-006-D   6/28/11
                               Incurred Costs for Fiscal Year 2006




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 89 

                                                   
                                   USAID Office of Inspector General


                                                                                   Amt. of
     Report          Date of                                                                  Type of
                                                Report Title                       Findings
     Number          Report                                                                   Findings
                                                                                    ($000)
                               Black & Veatch Special Projects Corporation
    0-000-11-007-D   9/21/11   (BVSPC), Report on Incurred Costs for Fiscal Year
                               Ended December 31, 2004

                               Agreed-Upon Procedures Review of USAID
                               Resources Managed by Research Triangle Institute
                                                                                      64        QC
                               in Malawi covering the Indoor Residual Spraying
    4-612-11-003-O   9/21/11
                               (IRS) program Under Indefinite Quantity Contract       33        UN
                               (IQC) No. GHN-I-01-06-00002-00 for the period
                               October 1, 2007, to November 30, 2009

                               Audit of the Cost Representation Statement of
                               USAID Resources Managed by DPK Consulting
                               Under Contract Number DFD-I-00-04-00173-00,
    6-294-11-050-N   9/20/11
                               Netham Rule of Law Program-Justice and
                               Enforcement, for the Period From July 1, 2008, to
                               June 30, 2009

                               Audit of Locally Incurred Costs Billed to USAID
                               by CARANA Corporation Under Task Order
    6-294-11-052-N   9/25/11   Number AFP-I-01-03-00020-00, Palestinian
                               Agribusiness Partnership Activity, for the Period
                               From April 1, 2007, to June 30, 2008

                               Audit of the Cost Representation Statement of
                               Locally Incurred Costs Managed by Louis Berger
                               Under Contract Number 294-GEG-I-00-04-
    6-294-11-061-N   9/28/11                                                          9         QC
                               00003-00, Modernizing Financial Institutions for
                               West Bank and Gaza, for the Period From
                               September 29, 2007, to June 30, 2008

                               Audit of USAID Resources Managed and
                               Expenditures Locally Incurred by AECOM
                               International Development Under "Iraq Legislative
    E-267-11-002-N   5/16/11
                               Strengthening Program," USAID/Iraq Task Order
                               No. 263-I-03-06-00015-00, for the Period From
                               October 1, 2008, to September 30, 2010

                               Independent Audit of International Business and
                               Technical Consultants, Inc. (IBTCI) Report on
    E-267-11-003-D   6/29/11   Costs Incurred and Billed Under USAID Contract         68        QC
                               No. 267-C-00-05-00508-00 for the Period of
                               January 1, 2008, Through December 31, 2008


        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 90 

                                                  
                                   USAID Office of Inspector General


                                                                                  Amt. of
     Report          Date of                                                                 Type of
                                               Report Title                       Findings
     Number          Report                                                                  Findings
                                                                                   ($000)
                               Independent Audit of International Resources
                               Group, Ltd. Report on Costs Incurred and Billed
    E-267-11-004-D   9/12/11   Under USAID Contract No. 517-C-00-04-00106-
                               00 for the Period of January 1, 2008, through
                               February 28, 2009

                               Audit Report No. F-306-11-001-D of Technologist
                               Inc. Costs Incurred/Billed under USAID Task          6,563      QC
                               Order No. 306-O-00-04-00539-00, for
    F-306-11-001-D   8/23/11
                               Afghanistan Industrial Estate Development            269        UN
                               Program for the Period from May 24, 2004,
                               through December 31, 2007

                               Financial Audit of the Project “Policy Capacity
                               Initiative Activity (PCIA)” USAID/Afghanistan
                               Grant Agreement No. 306-IL-09-12-0004.00,            118        QC
    F-306-11-003-N   9/29/11   Managed by the Ministry of Communication and
                               Information Technology, for the Period from           12        UN
                               Program Inception April 09, 2009, through
                               September 30, 2010


                                         U.S.-Based Grantees
                               Report on Audit of Incurred Costs of New
                               Mexico State University USAID's Afghanistan
    0-000-11-001-N   4/12/11   Water, Agriculture and Technology Transfer           728        QC
                               Program for the Period March 31, 2008, to
                               September 30, 2010

                               Audit Report of the Western NIS Enterprise Fund
    0-000-11-006-E    4/7/11   (WNISEF) for the Fiscal Year Ended September
                               30, 2010

                               Desk Review of Southern Africa Enterprise
    0-000-11-007-E   9/14/11   Development Fund for Fiscal Year Ended
                               September 30, 2010

                               Project Concern International, OMB Circular A-
    0-000-11-086-T    4/1/11   133 Audit Report for Fiscal Year Ended September      2         QC
                               30, 2010




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 91 

                                                 
                                   USAID Office of Inspector General


                                                                                    Amt. of
     Report          Date of                                                                   Type of
                                               Report Title                         Findings
     Number          Report                                                                    Findings
                                                                                     ($000)
                               OMB Circular A-133 Audit Report of the CHF              8         QC
    0-000-11-089-T   4/25/11   International for Fiscal Year Ended September 30,
                               2008                                                    8         UN


                               The Centre for Development and Population
    0-000-11-090-T    4/5/11   Activities, OMB Circular A-133 Audit Report for
                               Fiscal Year Ended December 31, 2009

                               Desk Review of OMB Circular A-133 Audit
    0-000-11-091-T    4/1/11   Report for World Resources Institute for Fiscal
                               Year Ended September 30, 2010

                               Air Serv International, Inc. and Subsidiaries, OMB
    0-000-11-092-T   4/18/11   Circular A-133 Audit Report for Fiscal Year Ended       12        QC
                               December 31, 2009

                               EngenderHealth, Inc. OMB Circular A-133 Audit
    0-000-11-093-T   5/24/11
                               Report for Fiscal Year Ended June 30, 2010

                               OMB Circular A-133 Audit Report of the East-
    0-000-11-094-T    8/3/11   West Management Institute, Inc. for the Year
                               Ended December 31, 2008

                               The Nature Conservancy (TNC), OMB Circular
    0-000-11-095-T   5/24/11   A-133 Audit Report of the Fiscal Year Ended June
                               30, 2010

                               Desk Review of Family Health International OMB
    0-000-11-096-T   5/24/11   Circular A-133 Audit Report for Fiscal Year Ended
                               September 30, 2009

                               OMB Circular A-133 Audit Report of The Nature
    0-000-11-097-T   5/24/11
                               Conservancy for Fiscal Year Ended June 30, 2009

                               OMB Circular A-133 Audit Report of Education
    0-000-11-098-T   6/13/11   Development Center for Fiscal Year Ended
                               September 30, 2010

                               OMB Circular A-133 Audit Report of Family
    0-000-11-099-T    6/2/11   Health International for Fiscal Year Ended
                               September 30, 2010



        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 92 

                                                  
                                   USAID Office of Inspector General


                                                                                      Amt. of
     Report          Date of                                                                     Type of
                                                Report Title                          Findings
     Number          Report                                                                      Findings
                                                                                       ($000)
                               Africare, OMB Circular A-133 Audit Report for
    0-000-11-100-T    6/2/11
                               Fiscal Year Ended June 30, 2009

                               OMB Circular A-133 Audit Report of the
                               Winrock International Institute for Agricultural
    0-000-11-101-T    6/6/11
                               Development for the Fiscal Year Ended December
                               31, 2009

                               OMB Circular A-133 Audit Report of Management
    0-000-11-102-T    6/8/11   Sciences for Health, Inc. for Fiscal Year Ended June
                               30, 2009

                               OMB Circular A-133 Audit Report of World
    0-000-11-103-T   6/20/11
                               Learning, Inc. for Fiscal Year Ended June 30, 2009

                               OMB Circular A-133 Audit Report of
    0-000-11-104-T    6/8/11   ACDI/VOCA for Fiscal Year Ended December 31,
                               2009

                               OMB Circular A-133 Audit Report of National
    0-000-11-105-T    6/8/11   Democratic Institute for International Affairs for
                               Fiscal Year Ended September 30, 2009

                               Helen Keller International, Inc., OMB Circular A-
    0-000-11-106-T   6/16/11   133 Audit Report for Fiscal Year Ended June 30,
                               2010

                               American University of Beirut, OMB Circular A-
    0-000-11-107-T   6/22/11   133 Audit Report for Fiscal Year Ended September
                               30, 2009

                               OMB Circular A-133 Audit Report of International
    0-000-11-108-T    7/8/11   Republican Institute for Fiscal Year Ended
                               September 30, 2009

                               Medical Teams International, OMB Circular A-133
    0-000-11-109-T   6/23/11                                                             33        QC
                               Audit Report for Fiscal Year Ended June 30, 2009

                               Grassroot Soccer, Inc., OMB Circular A-133 Audit
    0-000-11-110-T    7/5/11
                               Report for Fiscal Year Ended December 31, 2009




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 93 

                                                  
                                   USAID Office of Inspector General


                                                                                    Amt. of
     Report          Date of                                                                   Type of
                                               Report Title                         Findings
     Number          Report                                                                    Findings
                                                                                     ($000)
                               Mercy Corps and Affiliates, OMB Circular A-133
    0-000-11-111-T    7/5/11
                               Audit Report for Fiscal Year Ended June 30, 2010

                               Mucia, Inc., OMB Circular A-133 Audit Report for
    0-000-11-112-T    7/5/11
                               Fiscal Year Ended June 30, 2009

                               OMB Circular A-133 Audit Report of Christian
    0-000-11-113-T   7/15/11   Reformed World Relief Committee, Inc. for Fiscal        7         QC
                               Year Ended June 30, 2008

                               OMB Circular A-133 Audit Report of World
                               Relief Corporation of National Association of
    0-000-11-114-T   7/14/11
                               Evangelicals for Fiscal Year Ended September 30,
                               2008

                               A-133 Audit Report of the Himalayan Cataract
    0-000-11-115-T   7/20/11   Project, Inc. for Fiscal Year Ended December 31,
                               2010

                               OMB Circular A-133 Audit Report on American
    0-000-11-116-T   7/21/11   Council of Education for the Fiscal Year Ended
                               September 30, 2010

                               OMB Circular A-133 Audit Report of the
                               Woodrow Wilson International Center for
    0-000-11-117-T    8/4/11
                               Scholars, Inc. for Fiscal Year Ended September 30,
                               2010

                               OMB Circular A-133 Audit Report of Inter-
    0-000-11-118-T   8/17/11   American Dialogue for Fiscal Year Ended
                               December 31, 2010

                               OMB Circular A-133 Audit Report of International
                               Relief and Development Holdings, Inc. and
    0-000-11-119-T   8/29/11
                               Affiliates, for the Fiscal Year Ended December 31,
                               2009

                               Africare, OMB Circular A-133 Audit Report for
    0-000-11-120-T    9/1/11
                               Fiscal Year Ended June 30, 2010




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 94 

                                                  
                                   USAID Office of Inspector General


                                                                                  Amt. of
     Report          Date of                                                                 Type of
                                               Report Title                       Findings
     Number          Report                                                                  Findings
                                                                                   ($000)
                               Freedom House, Inc. and Affiliate, OMB Circular
    0-000-11-121-T    9/8/11   A-133 Audit Report for the Year Ended June 30,
                               2010

                               CARE USA, OMB Circular A-133 Audit Report
    0-000-11-122-T   9/16/11                                                         44        QC
                               for Fiscal Year Ended June 30, 2010

                               Christian Mission Aid United States of America,
    0-000-11-123-T   9/12/11   OMB Circular A-133 Audit Report for Fiscal Year
                               Ended June 30, 2010

                               Save the Children Federation, Inc., OMB Circular
    0-000-11-124-T   9/15/11   A-133 Audit Report for Fiscal Year Ended
                               December 31, 2009

                               The Population Council, Inc., OMB Circular A-133
    0-000-11-125-T   9/16/11   Audit Report for the Fiscal Year Ended
                               December 31, 2009

                               Agreed-Upon Review Procedures of USAID
                               Resources Managed by Management Sciences for
                               Health in Malawi (MSH) under USAID
                               Contract/Agreement Nos. GHS-I-03-07-00006-00,
    4-936-11-044-R   5/26/11                                                         9         QC
                               GHN-A-00-07-00002-00, GHS-A-00-05-00019-00,
                               and GHA-1-00-04-00002-00 (Task order GHA-1-
                               06-04-00002-00) for the period October 1, 2007,
                               to November 30, 2008

                               Audit of the Fund Accountability Statement of
                               Locally Incurred Costs of USAID Resources
                               Awarded to International Foundations for
                               Electoral Systems Under Cooperative Agreement
    6-294-11-023-N   5/17/11   Number 294-A-00-05-00202-00, Technical
                               Assistance to the Central Election Commission of
                               the Palestinian Authority and to the Elections
                               Reform Support Group, for the Period From
                               March 1, 2007, to June 30, 2008




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 95 

                                                 
                                   USAID Office of Inspector General


                                                                                   Amt. of
     Report          Date of                                                                  Type of
                                                Report Title                       Findings
     Number          Report                                                                   Findings
                                                                                    ($000)
                               Close-out Audit of the Fund Accountability
                               Statement of Locally Incurred Costs of USAID
                               Resources Managed by American Near East
    6-294-11-026-N   5/30/11   Refugee Aid, Cooperative Agreement Number
                               294-A-00-02-00229-00, Jobs Opportunities
                               Through Basic Services, for the Period From
                               August 30, 2005, to September 29, 2008

                               Close-out Audit of the Fund Accountability
                               Statement of Locally Incurred Costs of USAID
                               Resources Managed by International Republican
                               Institute, Cooperative Agreement Number 294-A-
    6-294-11-027-N   5/30/11                                                         1,021      QC
                               00-05-00215-00, Support for Democratic
                               Legislative and Local Elections in West Bank and
                               Gaza, for the Period From June 7, 2005, to
                               February 28, 2007

                               Audit of the Fund Accountability Statement of
                               USAID Resources Managed by Seeds of Peace
                               Under USAID Cooperative Agreement Number
                               294-A-00-07-00211-00 to Cultivate an
    6-294-11-043-N   8/22/11
                               Environment of Tolerance, Dialogue and Civic
                               Engagement in Palestinian and Israeli Schools and
                               Youth Organizations Program, for the Period
                               From September 28, 2007, to June 30, 2008

                               Audit of the Fund Accountability Statement of
                               USAID Resources Managed by Mercy Corps
                               Under Sub-Grant SC/TVET 002 with Save the
    6-294-11-044-N    9/8/11   Children Cooperative Agreement Number 294-A-
                               00-07-00210-00, Technical and Vocational
                               Education and Training Program, for the Period
                               From October 1, 2007, to June 30, 2009

                               Close-out Audit of the Locally Incurred Costs of
                               USAID Resources Managed by CARE
                               International, Under Cooperative Agreement
    6-294-11-053-N   9/25/11
                               Number 294-A-00-03-00225-00, Emergency
                               Medical Assistance Program II, for the Period
                               From October 1, 2004, to December 31, 2005




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 96 

                                                  
                               USAID Office of Inspector General




                                Financial Audits
           Associated Questioned Costs, Unsupported Costs, and
         Value of Recommendations That Funds Be Put to Better Use
                               USADF and IAF
                             April 1–September 30, 2011



    During the reporting period, neither the USADF nor the IAF had financial audits with
    associated questioned costs, unsupported costs, or recommendations that funds be put
    to better use.




    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 97 

                                             
                                   USAID Office of Inspector General




                                  Performance Audits
                  Associated Questioned Costs, Unsupported Costs, and
                Value of Recommendations That Funds Be Put to Better Use
                                                USAID
                                   April 1–September 30, 2011
                                                                                      Amt. of
     Report          Date of                                                                     Type of
                                                Report Title                          Findings
     Number          Report                                                                      Findings
                                                                                       ($000)
    1-521-11-003-P   4/19/11   Audit of USAID's Efforts to Provide Shelter in Haiti

                               Audit of USAID/El Salvador's Maternal and Child
    1-519-11-004-P    6/3/11
                               Health Activities

    1-521-11-005-P    6/6/11   Audit of USAID/Haiti's Education Activities

                               Audit of USAID/Bolivia's Integrated Food Security
    1-511-11-006-P   7/28/11
                               Program                                                  143        QC

                                                                                       1,449       QC
    1-519-11-007-P    8/9/11   Audit of USAID/El Salvador's Education Activities
                                                                                        438        UN

                               Follow-up Audit of USAID/Colombia's Human
    1-514-11-008-P   8/29/11
                               Rights Program

    1-518-11-009-P   9/26/11   Audit of USAID/Ecuador's Environment Program

                               Audit of USAID/Tanzania's Ongoing Activities
    4-621-11-007-P   4/29/11
                               Under the President's Malaria Initiative

    4-696-11-008-P    7/1/11   Audit of USAID/Rwanda's Agricultural Activities

                               Audit of USAID/Southern Africa's HIV/AIDS
    4-674-11-009-P   7/20/11
                               Treatment Activities

                               Audit of USAID/Sudan's Maternal and Child Health
    4-650-11-010-P   7/28/11
                               Activities

    4-673-11-011-P   8/15/11   Audit of USAID/Namibia's HIV/AIDS Care Program




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 98 

                                                  
                                   USAID Office of Inspector General


                                                                                    Amt. of
     Report          Date of                                                                   Type of
                                                Report Title                        Findings
     Number          Report                                                                    Findings
                                                                                     ($000)
                               Audit of USAID/Madagascar's Family Planning and
    4-687-11-012-P   9/22/11                                                           9         QC
                               Reproductive Health Activities

                               Audit of USAID/Vietnam's Competitiveness
    5-440-11-007-P   5/27/11
                               Initiative Phase II

                               Audit of USAID/Bangladesh's Integrated Protected
    5-388-11-008-P   7/21/11
                               Area Co-management Project

                               Audit of USAID/Vietnam's Social Marketing
    5-440-11-009-P   7/27/11
                               Prevention and Supportive Services Program

                               Audit of Phase III of USAID/India's Innovations in
    5-386-11-010-P   8/25/11                                                           74        BU
                               Family Planning Services Project

                               Audit of USAID/Egypt's Communication for Healthy
    6-263-11-007-P    6/9/11
                               Living Program

                               Audit of Selected USAID/West Bank and Gaza's
    6-294-11-008-P   6/30/11   Infrastructure Needs Program I: Selected Water
                               Task Orders

                               Audit of USAID/West Bank and Gaza's Palestinian
    6-294-11-009-P   9/28/11
                               Authority Capacity Enhancement Program

    7-669-11-007-P    6/6/11   Audit of USAID/Liberia's Energy Activities

                               Audit of USAID's Food Assistance Under the
    7-683-11-008-P    6/9/11
                               Multiyear Assistance Program in Niger

    7-688-11-009-P   6/15/11   Audit of USAID/Mali's Malaria Activities

                               Audit of USAID/Guinea's HIV/AIDS and Fistula
    7-675-11-010-P    9/8/11
                               Care Activities

    7-641-11-011-P   9/22/11   Audit of USAID/Ghana's Malaria Program

                               Audit of Selected USAID Missions' Efforts to
    9-000-11-002-P   7/21/11   Mitigate Environmental Impact in Their Project
                               Portfolios




        Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 99 

                                                  
                                   USAID Office of Inspector General


                                                                                    Amt. of
     Report          Date of                                                                   Type of
                                                Report Title                        Findings
     Number          Report                                                                    Findings
                                                                                     ($000)
                                                                                     23,050      QC
    E-267-11-002-P   5/16/11   Audit of USAID/Iraq's Agribusiness Program
                                                                                     23,050      UN


                               Audit of USAID/Iraq's Microfinance Activity Under
    E-267-11-003-P    8/4/11
                               Its Provincial Economic Growth Program

                               Audit of USAID/Afghanistan's Support to The            6,350      QC
                               Electoral Process (STEP) and Support for Increased
    F-306-11-003-P   6/19/11
                               Electoral Participation In Afghanistan (IEP)           1,400      UN
                               Programs

                               Audit of USAID/Afghanistan's On-budget Funding
                               Assistance to the Ministry of Public Health in
    F-306-11-004-P   9/29/11
                               Support of the Partnership Contracts for Health
                               Services Program

                               Audit of USAID/Pakistan's Management of the
    G-391-11-004-P    5/6/11
                               Preaward Assessments

                               Audit of USAID/Pakistan's Road Rehabilitation and
    G-391-11-005-P   6/20/11   Reconstruction Activities under the Quick Impact
                               Projects in South Waziristan

                               Audit of USAID/Pakistan's Community
    G-391-11-006-P   8/29/11
                               Rehabilitation Infrastructure




       Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 100 

                                                 
                                USAID Office of Inspector General




                              Performance Audits
           Associated Questioned Costs, Unsupported Costs, and
         Value of Recommendations That Funds Be Put to Better Use
                                USADF and IAF
                              April 1–September 30, 2011


      During the reporting period, neither USADF nor the IAF had performance audits
      with associated questioned costs, unsupported costs, or recommendations that funds
      be put to better use.




    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 101 

                                              
                                   USAID Office of Inspector General




                                Miscellaneous Reports
                 Associated Questioned Costs, Unsupported Costs, and
               Value of Recommendations That Funds Be Put to Better Use
                                               USAID
                                   April 1–September 30, 2011
                                                                                Amt. of
     Report          Date of                                                               Type of
                                              Report Title                      Findings
     Number          Report                                                                Findings
                                                                                 ($000)
                                       Quality Control Reviews
                               Quality Control Review of OMB Circular A-
    0-000-11-001-Q    5/9/11   133 Audit Report of Catholic Relief Services
                               for Fiscal Year Ended September 30, 2009

                               Quality Control Review of the Audit Report
                               and Audit Documentation for the Financial
                               Audits Conducted by Ernst & Young Terco of
                               the USAID Cooperative Agreement No. RLA-
                               A-00-06-00065-00, FORTIS Consortium
    1-512-11-001-Q   9/13/11   “Programa Fortalecimento Institucional no Sul
                               do Amazonas” Managed by Instituto
                               Internacional de Educaçäo do Brasil (IEB) for
                               the Periods from October 1, 2007, to
                               September 30, 2008, and October 1, 2008, to
                               September 30, 2009

                               Quality Control Review of USAID Resources
                               Managed by the Primary Health Care Institute-
                               Iringa under Strategic Objective Grant
    4-621-11-010-Q    5/4/11
                               Agreement No. 621-0011.01, Implementation
                               Letter Nos. 2, 6, 10, 15 and 19 for the period
                               July 1, 2006, to June 30, 2009

                               Quality Control Review for the Audit of
                               USAID Resources Managed by the Luapula
    4-936-11-011-Q   5/26/11   Foundation under Agreement No. GHH-A-00-
                               07-00021-00 for the year ended September 30,
                               2008




       Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 102 

                                                  
                                   USAID Office of Inspector General


                                                                                 Amt. of
     Report          Date of                                                                Type of
                                              Report Title                       Findings
     Number          Report                                                                 Findings
                                                                                  ($000)
                               Quality Control Review of the Audit of USAID
                               Resources Managed by the Ministry of Health
                               and Social Welfare – Centre for Educational
                               Development in Health Arusha (CEDHA)
    4-621-11-012-Q   5/26/11
                               under Strategic Objective Grant Agreement
                               No. 621-0011.01, Implementation Letter Nos.
                               11, 16 and 20, for the period July 1, 2008, to
                               June 30, 2009

                               Quality Control Review of Agreed Upon
                               Review Procedures Report of USAID
                               Resources Managed by Management Sciences
                               for Health in Malawi under USAID
                               Contract/Agreement Nos. GHS-I-03-07-00006-
    4-936-11-013-Q   5/26/11
                               00, GHN-A-00-07-00002-00, GHS-A-00-05-
                               00019-00 and GHA-1-00-04-00002-00 (task
                               order No. GHA-1-06-04-00002-00) for the
                               period October 1, 2007, to November 30,
                               2008

                               Quality Control Review of
                               PricewaterhouseCoopers, Jordan, Audit of Al-
                               Nasher Technical Services Company, Jordan
    6-278-11-001-Q   9/27/11   Communication and Outreach Campaign,
                               USAID Grant Number 278-C-00-06-00331-00,
                               for the Period From October 12, 2006, to
                               January 12, 2008

                               Quality Control Review of Talal Abu-Ghazaleh
                               & Co. International, Jordan, Close-out Audit of
                               Business Development Center, Tatweer
    6-278-11-002-Q   9/28/11
                               Program, USAID Cooperative Agreement
                               Number 278-A-00-06-00311-00, for the Period
                               December 1, 2008, to February 28, 2010




       Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 103 

                                                  
                                   USAID Office of Inspector General


                                                                                  Amt. of
      Report         Date of                                                                 Type of
                                              Report Title                        Findings
      Number         Report                                                                  Findings
                                                                                   ($000)
                               Quality Control Review of the Audit Report
                               and Audit Documentation for Financial Audits
                               Conducted by Khalid Majid Rahman Sarfraz
                               Rahim Iqbal Rafiq of the "Interactive Teaching &
    G-391-11-001-Q    4/8/11   Learning Project," Managed by Children's
                               Global Network Pakistan Limited, under
                               USAID/Pakistan Cooperative Agreement No.
                               391-A-00-06-01075-00 for the Period from July
                               1, 2008, to February 26, 2010

                               Quality Control Review of the Audit Report
                               and Audit Documentation for Financial Audit
                               Conducted by Nasir Javaid Maqsood Imran, of
                               Pakistan Competitiveness Support Fund,
    G-391-11-002-Q   5/10/11
                               USAID/Pakistan Grant Agreement No. 391-G-
                               00-06-01073-00, Managed by Competitiveness
                               Support Fund (CSF), for the Period from July 1,
                               2009, to June 30, 2010

                               Quality Control Review of the Audit Report
                               and Audit Documentation for Financial Audit
                               Conducted by A.F. Ferguson, of the Forman
                               Christian College, USAID/Pakistan Grant
    G-391-11-003-Q   6/23/11
                               Agreement No. 391-G-00-04-01036-00,
                               Managed by Forman Christian College (FCC),
                               for the Period from July 1, 2009, to March 31,
                               2010


                                                     Other
                                                                                     61        QC
                               Review of the Pan American Development
    1-521-11-002-S   9/23/11
                               Foundation's Management Controls
                                                                                     60        UN

                               Review of Selected Controls Over the
    2-000-11-003-S    6/8/11
                               Removal of Classified Electronic Material

                               Review of the Information and Records
    2-000-11-004-S   6/15/11   Division's Implementation of Agency Records
                               Management Program




       Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 104 

                                                  
                                   USAID Office of Inspector General


                                                                               Amt. of
     Report          Date of                                                              Type of
                                             Report Title                      Findings
     Number          Report                                                               Findings
                                                                                ($000)
                               Survey of USAID Negative Unliquidated
    2-000-11-005-S   6/22/11   Obligation Balances in the Financial
                               Management System

                               Review of USAID/Afghanistan's Portion of the      525        QC
    F-306-11-004-S    6/9/11
                               Embassy Air Program
                                                                                 525        UN
                               Review of USAID/Afghanistan's Afghan Civilian
    F-306-11-005-S   8/31/11
                               Assistance Program                               8,379       QC




       Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 105 

                                                 
                                 USAID Office of Inspector General




                              Miscellaneous Reports
           Associated Questioned Costs, Unsupported Costs, and
         Value of Recommendations That Funds Be Put to Better Use
                                USADF and IAF
                               April 1–September 30, 2011


      During the reporting period, neither USADF nor IAF had miscellaneous reports
      with associated questioned costs, unsupported costs, or recommendations that funds
      be put to better use.




    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 106 

                                              
                                               USAID Office of Inspector General




                                 Statistical Table of Reports With
                                Questioned and Unsupported Costs
                                             USAID
                                               April 1–September 30, 2011

                                                                               Questioned                    Unsupported
                                               Number of
                 Reports                                                         Costs                          Costs1
                                              Audit Reports
                                                                                  ($)                            ($)

    A. For which no management
       decision had been made as of                     52                       28,876,3182,3                  22,878,8862,3
       April 1, 2011
    B. Add: Reports issued April 1–
                                                        99                       61,639,3634                     28,302,3884
       September 30, 2011

Subtotal                                              151                      90,515,681                      51,181,274
    C. Less: Reports with a
       management decision made                        985                       41,399,2166                     24,952,7406
       April 1–September 30, 2011

        Value of recommendations
                                                                                  5,676,246                       2,257,340
        disallowed by Agency officials

        Value of recommendations
                                                                                  35,722,970                     22,695,400
        allowed by Agency officials

    D. For which no management
       decision had been made as of                     59                       49,116,4657                     26,228,5347
       September 30, 2011
    1Unsupported    costs, a subcategory of questioned costs, are reported separately as required by the Inspector General Act.
    2The ending balances on March 31, 2011, for questioned costs totaling $28,651,332 and for unsupported costs totaling
    $22,707,242 were increased by $224,986 and $171,644, respectively, to reflect adjustments in recommendations from prior
    periods.
     3Amounts    include $0 in questioned costs and $0 in unsupported costs for audits performed for OIG by other federal audit
     agencies.
     4Amounts   include $6,630,735 in questioned costs and $268,578 in unsupported costs for audits performed for OIG by other
     federal audit agencies.
     5Unlikethe monetary figures of this row, this figure is not being subtracted from the subtotal. Some audit reports counted here
     may be counted again in the figure below it because some reports have multiple recommendations and fall into both categories.
     6Amounts    include $0 in questioned costs and $0 in unsupported costs for audits performed for OIG by other federal audit
     agencies.
     7Amounts   reflect $6,630,737 in questioned costs and $268,578 in unsupported costs for audits performed for OIG by other
     federal audit agencies.




           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 107 

                                                               
                                USAID Office of Inspector General




                Statistical Table of Reports With
               Questioned and Unsupported Costs
                         USADF and IAF
                               April 1–September 30, 2011

                                                                                           

      During the reporting period, neither USADF nor IAF had reports with questioned or
      unsupported costs.




    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 108 

                                             
                                    USAID Office of Inspector General




                       Statistical Table of Reports With
                        Recommendations That Funds
                             Be Put to Better Use
                                     USAID
                                    April 1–September 30, 2011
                                                                 Number of        Value
                               Reports
                                                                Audit Reports      ($)

    A. For which no management decision had been made as of
                                                                     0              0
       April 1, 2011


    B.    Add: Reports issued April 1–September 30, 2011             2           1,473,860


         Subtotal                                                    2          1,473,860

    C. Less: Reports with a management decision made April 1–
                                                                     2           1,473,860
       September 30, 2011

                 Value of recommendations agreed to by Agency
                                                                                 1,473,860
                 officials

                 Value of recommendations not agreed to by
                                                                                    0
                 Agency officials

    D. For which no management decision had been made as of
                                                                     0              0
       September 30, 2011




    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 109 

                                                 
                               USAID Office of Inspector General




             Reports With Recommendations That
                 Funds Be Put to Better Use
                        USADF and IAF
                             April 1, 2011–September 30, 2011



         During the reporting period, neither USADF nor IAF had reports with
         recommendations that funds be put to better use.




    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 110 

                                             
                                    USAID Office of Inspector General




                       Reports Over 6 Months Old With
                          No Management Decision
                                   USAID
                                    April 1–September 30, 2011
       Report                   Issue
                    Auditee                                               Status
       Number                   Date
                                         Recommendation 5. Under the Privacy Act of 1974 (5 U.S.C.
                                         552a), USAID established a new system of records entitled the
                                         Partner Vetting System (PVS).The information was intended to be
                                         used to conduct screening to ensure that USAID funds and USAID–
                                         funded activities are not used to provide support to entities or
                                         individuals deemed to be a risk to national security. On November 6,
                                         2007, OIG made a recommendation to USAID’s Office of Security to
                                         develop a plan to expand and then implement its antiterrorism vetting
                                         database for worldwide use. The fiscal year 2010 appropriations bill
                                         prohibits the use of funds to implement PVS on a worldwide basis, but
                                         it also provides that funds may be used for a PVS pilot program, which
                   USAID’s
                                         is to apply equally to the programs and activities of the Department of
    9-000-08-001-P Office of   11/6/07
                   Security              State and USAID. USAID’s Office of Management Policy, Budget, and
                                         Performance (M/MPBP) is leading the PVS pilot effort, which is a joint
                                         endeavor with the Department of State. MPBP, the Office of Security,
                                         the Office of General Counsel, the Office of Acquisition and
                                         Assistance, and the Office Legislative and Public Affairs are part of
                                         USAID’s team that will implement the early stages of the pilot effort
                                         during the first quarter of fiscal year 2012. USAID will continue to
                                         address necessary actions such as database development,
                                         administrative and regulatory actions, and preparation of training
                                         materials during the implementation of the pilot phase. The pilot is
                                         expected to run for 1 year, after which a decision will be made as to
                                         whether it is appropriate to implement PVS more broadly.




       Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 111 

                                                  
                                USAID Office of Inspector General




             Reports Over 6 Months Old With No
                    Management Decision
                      USADF and IAF
                              April 1–September 30, 2011



      During the reporting period, neither USADF nor IAF had reports over 6 months old
      with no management decision.




    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 112 

                                             
                                       USAID Office of Inspector General




                     Significant Revisions of Management
                                   Decisions
                             USAID, USADF and IAF
                                     April 1–September 30, 2011



Section 5(a) (11) of the Inspector General Act requires a description and explanation of the reasons for any
significant revised management decision during the reporting period. USAID/Iraq made a significant
revision to a previous management decisions.

Audit of Costs Incurred and Billed by International Relief and Development, Inc.
(IRD), Under USAID Cooperative Agreement No. 267-A-00-06-00503-00, for the
Period of October 1, 2007, Through September 30, 2008. In November 2010, OIG issued a
report of a DCAA audit of a cooperative agreement awarded to IRD. The purpose of the cooperative
agreement was to provide support in Iraq for the Community Stabilization Program. DCAA questioned
$40,043,000 of the $314,760,000 of costs incurred and billed by IRD for the period of October 1, 2007,
through September 30, 2008. The report recommended that USAID/Iraq’s Office of Acquisition and
Assistance determine the allowability and collect $40,043,000 as appropriate.

    • In February, 2011, USAID made a management decision based on an agreement officer’s
      determination that $39,900,000 of the $40,043,000 was unallowable. OIG agreed with the
      management decision.

    • In May 2011, USAID issued its first revised management decision determining that $39,891,000 was
      unallowable.

    • In June 2011, USAID/Iraq and the Washington Office of Acquisition and Assistance and IRD further
      discussed the questioned costs. As a result of a review by a senior USAID acquisition and assistance
      specialist, USAID issued its second revised management decision, which determined that $2,575,000
      was unallowable. The mission issued a bill of collection for this amount to IRD on September 5 with a
      target date for collection in October 2011. OIG agreed that a second revised management decision has
      been reached.


         Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 113 

                                                    
                                  USAID Office of Inspector General




           Management Decisions With Which the
               Inspector General Disagrees
                 USAID, USADF, and IAF
                                April 1–September 30, 2011



    The Inspector General Act of 1978, as amended, requires semiannual reports to include
    information concerning any significant management decisions with which the inspector
    general disagrees.

    During this reporting period, the Inspector General did not disagree with any significant
    management decision.




         Noncompliance with the Federal Financial
          Management Improvement Act of 1996
                USAID, USADF, and IAF
                                April 1–September 30, 2011


    Section 5(a)(13) of the Inspector General Act requires semiannual reports to include an
    update on issues outstanding under a remediation plan required by the Federal Financial
    Management Improvement Act of 1996 (FFMIA, Public Law 104–208, Title VIII, codified
    at 31 U.S.C. 3512 note). FFMIA requires agencies to comply substantially with (1) federal
    financial management system requirements, (2) federal accounting standards, and (3) the
    U.S. Standard General Ledger at the transaction level. An agency that is not substantially
    compliant with FFMIA must prepare a remediation plan.

    USAID had no instances of noncompliance to report during this reporting period.




       Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 114 

                                                    
                                                               USAID Office of Inspector General




                                                Significant Findings From
                                                 Contract Audit Reports
                                                          USAID
                                                           April 1–September 30, 2011


            The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110–181, Section
            845) requires inspectors general to submit information on contract audit reports 28 that
            contain significant audit findings in semiannual reports to the Congress.

            The act defines “significant audit findings” to include unsupported, questioned, or
            disallowed costs in excess of $10 million and other findings that the Inspector General
            determines to be significant. During this reporting period, OIG conducted an audit of
            USAID’s agribusiness program in Iraq, which resulted in recommendations involving $
            23 million in questioned costs.




                                                            
28
     Includes grants and cooperative agreements.

                  Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 115 

                                                                               
                                      USAID Office of Inspector General




                              Peer Reviews
                       USAID, USADF, IAF, and MCC
                                    April 1–September 30, 2011



The Dodd–Frank Wall Street Reform and Consumer Protection Act (Public Law 111–203) requires federal
inspectors general to report on results of peer reviews in their semiannual reports.

Results of any peer reviews conducted on USAID OIG during the reporting period.

Audit: No peer reviews were conducted during this period.
Investigations: In April 2011, the Office of Investigations underwent a peer review conducted by the
Corporation for National and Community Service Office of Inspector General. The office was found to be
in compliance with the quality standards established by the Council of Inspectors General on Integrity and
Efficiency.

Date of the last peer review conducted on USAID OIG, if a review was not
conducted during the last reporting period.

Audit: September 2009


List of outstanding recommendations for any peer review conducted on USAID
OIG that have not been fully implemented.

Audit: None
Investigations: None

List of peer reviews conducted by USAID OIG during the reporting period, including a list of any
outstanding recommendations from any previous peer review (including any peer review conducted before
the reporting period) that remain outstanding or have not been fully implemented.

Audit: None
Investigations: None

              Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 116 

                                                        
                        USAID Office of Inspector General




               OFFICE OF INSPECTOR GENERAL

                      SEMIANNUAL REPORT
                       TO THE CONGRESS

         MILLENNIUM CHALLENGE CORPORATION

                     April 1–September 30, 2011

                                            




    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 117 

                                        
                        USAID Office of Inspector General



 




    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 118 

                                        
                                                               USAID Office of Inspector General




                                                                   Introduction
Established in 2004 by the Millennium                                             During this period, OIG has provided audit
Challenge Act of 2003, 29 the Millennium                                          oversight for MCC’s financial and performance
Challenge Corporation (MCC) is a U.S.                                             accountability. Financial audits of U.S. taxpayer
Government corporation that works to reduce                                       monies granted to compact countries are an
poverty and stimulate economic growth in some                                     important component of OIG’s audit activities.
of the poorest countries in the world. When a                                     With the assistance of independent audit firms,
country meets the performance standards of                                        OIG issued 12 audit reports covering
MCC’s 17 policy indicators, it may become                                         approximately $490.7 million expended by
eligible to receive a compact—the chief grant                                     compact countries. The audits identified
instrument between MCC and the country to                                         questioned costs of about $3.3 million.
fund specific programs.
                                                                                  In addition, in response to a congressional
MCC has a binding commitment under                                                request, OIG carried out reviews of MCC–
international law once it signs a compact.                                        funded contracts with government–owned
Compact countries must ensure that certain                                        enterprises (GOEs) in Ghana, Mali, Namibia,
conditions are met after the agreement is signed,                                 and Tanzania. The reviews addressed (1) worker
which can take several months to resolve. When                                    health and safety, (2) environmental protection,
the agreement conditions are met, the agreement                                   (3) construction quality, and (4) sound labor
timeline begins and the agreement is said to                                      practices. OIG made 11 recommendations to
“enter into force.” Entry into force is the point at                              improve MCC’s operations in Ghana and
which MCC’s commitment becomes                                                    Namibia and 4 recommendations to improve
unconditional and compact funds are obligated.                                    project implementation in Tanzania and Mali.
Each compact country identifies an entity or
                                                                                  OIG’s reviews also assessed whether the host
organization that will manage the compact funds
                                                                                  government entities overseeing the projects
and oversee compact implementation. Such
                                                                                  adhered to MCC's procurement guidelines when
entities are usually called Millennium Challenge
                                                                                  awarding the contracts to the GOEs, and OIG
accounts (MCAs).
                                                                                  did not find any evidence to the contrary.

                                                                                  However, after the procurements, MCC
                                                            
29
  Title VI of the Consolidated Appropriations Act, 2004                           determined that the GOEs had often competed
(Public Law 108–199).

                  Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 119 

                                                                               
                                        USAID Office of Inspector General


for the contracts with some form of support from             sufficient skills and knowledge to transition them
their home government. As a result, MCC                      to other activities. The audit report included four
amended its procurement guidelines to exclude                recommendations to strengthen MCC’s process
GOEs from competing for MCC–funded                           for managing El Salvador's compact program.
contracts.
                                                             MCC has made several improvements in its
OIG conducted several information technology–                operations during this reporting period. In
related audits of MCC. The audits dealt with                 particular, as the result of an OIG review of
MCC’s governance over its information                        Ghana’s Agricultural Program, MCC agreed to
technology investments and controls over                     transfer $1.8 million that had been sitting idle in
personal digital assistants (e.g., Blackberries).            a non–interest–bearing bank account to an
As a result of the audits, OIG made 27                       account that could be used for immediate
recommenda–tions to strengthen MCC’s                         compact activities. Further, it reprogrammed
governance of information technology projects                $8.8 million from the program to put the funds
and its controls over personal data assistants.              to better use.

Lastly, OIG conducted a performance audit of                 MCC has also improved its Privacy Program. In
two MCC–funded programs in El Salvador to                    a July 2010 audit report, 30 OIG reported that
determine whether they were achieving their                  MCC had not implemented key components of a
goals, one to integrate the country’s Northern               privacy program for its information technology
Zone with national and regional highway systems              systems and was at risk of violating privacy
and the other to train Northern Zone farmers to              requirements. To correct the extensive
transition them to high–profit activities. OIG               weaknesses, OIG made 18 recommendations.
concluded that the MCC–funded connectivity                   Over the past year, MCC reported that final
project will not achieve its project activity goals of       corrective action has been taken for each of the
integrating the Northern Zone with the national              18 recommendations and that MCC now has a
and regional highway systems because the                     privacy program in place.
funding provided by the compact was
insufficient.

Further, the OIG found that, although technical
                                                                                                                         
assistance and training were being provided to               30
                                                                Audit of the Millennium Challenge Corporation’s
farmers, auditors were unable to determine                   Implementation of Key Components of a Privacy Program
                                                             for Its Information Technology Systems (Audit Report No.
whether the training would provide farmers                   M–000–10–003–P; July 9, 2010). 


             Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 120 

                                                          
                                      USAID Office of Inspector General



                                     Significant Findings
     Economic Growth and                                 contained seven recommendations to improve
                                                         the likelihood that the compact will be completed
          Prosperity
                                                         by its end date and to improve internal controls

              Economic Security                          related to procurement and travel. Management
                                                         decisions were reached on two recommendations,
Limited Scope Review of the Millennium                   with final action taken on five.
Challenge Corporation Resources
Managed by Millennium Challenge                          Audit of Millennium Challenge

Account-Mongolia Under the Compact                       Corporation-Funded Programs in El

Agreement Between MCC and the                            Salvador (Report No. M-000-11-005-P). In

Government of the Republic of Mongolia                   November 2006, the Millennium Challenge

(Report No. M-000-11-009-S). In October                  Corporation signed a 5–year, $460.9 million

2007, the Millennium Challenge Corporation               compact with the Government of El Salvador to

(MCC) signed a 5–year, $285 million compact              implement two projects intended to advance

with the Government of Mongolia designed to              economic growth and reduce poverty in the

reduce poverty and promote sustainable                   Northern Zone of El Salvador: (1) Improving the

economic growth through investments.                     Northern Transnational Highway and network of
                                                         connecting roads and (2) providing training to
OIG’s review concluded that several issues could
                                                         transition farmers to high–profit activities.
impact MCA–Mongolia’s ability to successfully
complete all of its projects by the end of the           OIG found that, although the road projects

compact. The most important issue relates to the         intended to physically integrate the Northern

termination of a $188 million rail project and its       Zone with the rest of the country and within the

subsequent restructuring into a roads project that       region, funding provided by the compact was

have resulted in some unavoidable delays in              insufficient. Consequently, the $86.5 million

implementing a significant portion of the                network of connecting roads was canceled and its

compact.                                                 budget reallocated to the Northern Transnational
                                                         Highway project. With respect to the technical
The review also found that procurement
                                                         assistance and training being provided to farmers,
requisition forms were not prepared for two of
                                                         OIG was unable to determine whether the
three procurements reviewed and that
                                                         training would provide sufficient skills and
international travel and related costs were not
being reviewed in detail. Overall, the report
           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 121 

                                                      
                                      USAID Office of Inspector General


knowledge to transition the farmers to other             over its PDAs. Management decisions have been
activities.                                              reached on each of the six recommendations.

OIG made four recommendations to strengthen              Risk Assessment of the Millennium
MCC’s project cost estimates and monitoring              Challenge Corporation’s Information
and evaluation. Management decisions have been           Technology Governance Over Its
reached on each of the four recommendations.             Information Technology Investments
                                                         (Report No. M-000-11-001-O). OIG
    Management Capabilities                              contracted with an independent certified public
                                                         accounting firm to conduct a risk assessment of
              Information Technology
                                                         selected MCC information technology (IT)

Survey of the Millennium Challenge                       governance processes.

Corporation’s Implementation of
                                                         The firm found that some processes were
Selected Controls Over Personal Digital
                                                         standardized and under constant improvement,
Assistants (Two Reports—Report No. M-
                                                         while others relied heavily on the knowledge of
000-11-007-S and Supplemental Report
                                                         individuals and needed to be standardized.
No. M-000-11-007-S). OIG initiated this
                                                         Weaknesses in MCC’s IT governance processes
survey to determine whether MCC has
                                                         may increase IT project costs, lengthen
implemented selected controls over its personal
                                                         deployment, and deliver solutions that do not
digital assistants (PDAs), such as appropriate
                                                         satisfy business needs. To address the weaknesses,
approvals for staff to receive them, reviews of
                                                         the report included 23 recommendations.
charges and collections for unauthorized use, and
                                                         Management decisions have been reached on all
security procedures.
                                                         23 recommendations.
OIG found that MCC was being reimbursed for
unauthorized charges when they were reported;                       Financial Management
had security, issuance, and use policies in place;
                                                         Management Letter on Millennium
and had configured its server to enforce selected
                                                         Challenge Corporation-Funded Programs
security functions. However, OIG found that
                                                         in Mali (Report No. M-000-11-002-S). OIG
MCC needed to institute procedures for
                                                         issued a management letter identifying several
reviewing PDA bills and consistently document
                                                         reportable issues related to MCA–Mali’s Niono
approvals and justifications. OIG made six
                                                         to Goma–Courra road project.
recommendations to strengthen MCC’s controls



              Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 122 

                                                      
                                      USAID Office of Inspector General


The issues included a major contractor’s poor            bearing bank account and was unused for several
performance and a $1.3 million advance                   years. The report included ten recommendations
guarantee funded by the contractor and held by           to address (1) putting funds to better use, (2)
MCA–Mali. OIG made four recommendations to               improving the likelihood that the compact will be
address these issues, including that the                 completed by its end date, and (3) auditing a
$1.3 million be put to better use and that a             grant.
program be established to identify contractors
with known performance problems. Management
                                                                      OIG’s review led to a
decisions were reached on four recommenda–
                                                                      recommendation that
tions, with final action taken on three.
                                                                   $8.8 million in funds be put
Limited Scope Review of the Millennium                                    to better use.
Challenge Corporation Resources
Managed by the Millennium Development
Authority (MiDA) Under the Compact                       In response to OIG’s report, MCC stated that
Agreement Between the MCC and the                        $8.8 million in ACP funds had been put to better
Government of Ghana (Report No. M-                       use and that it agreed to transfer the $1.8 million
000-11-011-S). In August 2006, MCC and the               in idle funds to a permitted bank account so it
Government of Ghana signed a 5–year compact              could be used for immediate compact activities.
that totaled approximately $547 million. The             Overall, management decisions were reached on
compact aims to reduce poverty by raising farmer         each of the ten recommendations, with final
incomes through private sector–led and                   action taken on nine.
agribusiness development. The objectives of
OIG’s review were to determine the status of                      Fund Accountability Statements
several compact projects and whether there were
                                                         OIG is responsible for reviewing and issuing
any weaknesses in the internal controls related to
                                                         semiannual fund accountability statement audits
the procurement process.
                                                         for each accountable entity that is awarded a
The review concluded the Agricultural Credit             compact. The audits are conducted by
Program (ACP) had not met expectations and               independent public auditors as required by
that MCC should reevaluate the planned uses of           compact agreements.
the ACP’s funds and put them to better use.
                                                         Under the terms of MCC compacts, funds
The review also found that funding totaling
                                                         expended by a recipient country must be audited
$1.8 million had been held in a non–interest–

           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 123 

                                                      
                                      USAID Office of Inspector General


at least annually, but they are usually audited           Independent auditors reported that, except for
twice a year. The recipient establishes an MCA            the unsupported questioned costs of $1,808,503,
and produces financial statements documenting             the MCA–Armenia fund accountability
account activity. The audit of the fund                   statement presented fairly, in all material
accountability statement is conducted by a firm           respects, program revenues and costs incurred for
that OIG has approved.                                    the period audited.

The selected audit firm issues an opinion on              In addition to the questioned costs, the auditors
whether the financial statements present fairly, in       noted noncompliance issues related to (1)
all material respects, the program revenues and           approval of petty cash, (2) approval of employee
costs incurred and reimbursed, in conformity              timesheets, and (3) contractor eligibility
with the terms of a compact agreement and                 verification. The auditors found no material
related supplemental agreement for the period             weaknesses in internal controls.
being audited.
                                                          Benin (Report No. M-000-11-027-N). The
In addition, the audit firm is required to employ         independent audit of MCA–Benin covered
generally accepted government auditing standards          incurred costs totaling approximately
in performing the audits. All audit reports are           $44.2 million for the period July 1, 2010, to
reviewed, approved, and issued by OIG. During             December 31, 2010. The $307 million compact
this reporting period, OIG issued 36 recommen–            with the Government of the Republic of Benin
dations for the 12 fund accountability statement          funds training for farmers in the production and
audits conducted.                                         marketing of high–value horticultural crops,
                                                          expands farmer access to credit through technical
Armenia (Report No. M-000-11-024-
                                                          assistance to financial institutions and loans,
N). The independent audit of MCA–Armenia
                                                          constructs and rehabilitates feeder roads, and
covered incurred costs totaling approximately
                                                          strengthens the institutional environment for
$29 million for the period of July 1 to
                                                          businesses and investment by improving the
December 31, 2010. The 5–year, $235.6 million
                                                          ability of the judicial system to resolve claims.
compact with the Government of the Republic of
Armenia intends to reduce rural poverty to                The auditors reported that the fund
achieve a sustainable increase in the economic            accountability statement presented fairly, in all
performance of the agricultural sector in                 material respects, program revenues and
Armenia.                                                  expenditures for the period audited. However,
                                                          they did identify two material instances of


           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 124 

                                                       
                                                               USAID Office of Inspector General


noncompliance: (1) nontimely review and                                           fund accountability statement presented fairly, in
approval of the fiscal accountability plan (FAP),                                 all material respects, program revenues, costs
and (2) noncompliance with the FAP                                                incurred and reimbursement, and commodities
requirements relating to the accounting of travel                                 and technical assistance directly procured by the
advances.                                                                         Millennium Challenge Corporation. Deficiencies
                                                                                  were noted in internal controls and compliance
Georgia―Two Audits
                                                                                  with laws and regulations.
(Report No. M-000-11-023-N). The
                                                                                  (Report No. M-000-11-026-N)
independent audit of MCG–Georgia 31 covered
incurred costs of approximately $37.2 million for                                 The independent audit of MCG–Georgia covered
the period of January 1 to June 30, 2010. The 5–                                  incurred costs totaling $96 million for the period
    year, $295.3 million compact with the                                         July 1, 2010, to December 31, 2010. The auditors
Government of Georgia includes projects that                                      reported that, except for unsupported questioned
focus on rehabilitating regional infrastructure                                   costs of $514,865, the fund accountability
and enterprise development to improve the lives                                   statement presented fairly, in all material
of the poor by (1) helping them integrate                                         respects, program revenues and expenditures for
economically through improved access to jobs                                      the period audited. The unsupported costs
and markets, (2) providing more reliable access to                                related to interim payment applications for
basic services, and (3) providing capital and                                     performed civil works of $514,865.
technical assistance for the enterprise
                                                                                  The independent auditors reported two material
development.
                                                                                  weaknesses in the internal controls:
In November 2008, the Government of Georgia                                       (1) documentation of civil works, under Samtkhe-
received supplemental funding of $100 million                                     Jakheti Road Rehabilitation Project, and (2) cost–
from MCC to finance increased activities of the                                   sharing contributions of ADA grantees. They also
Regional Infrastructure Rehabilitation Project                                    noted one significant deficiency in internal
and related program administration and control                                    control that related to the substantiation of staff
costs.                                                                            training expenses.

Except for the questioned unsupported or                                          Honduras (Report No. M-000-11-022-N).
ineligible costs of $63,465, the MCG–Georgia                                      The independent audit of MCA–Honduras
                                                                                  covered incurred costs totaling nearly
                                                            
31 Millennium Challenge Georgia Fund, the Georgian entity                         $72.8 million for the final close–out audit period
designated by the Georgian government to implement the
programs funded by the compact.                                                   of January 1, 2010, to January 27, 2011. The 5–

                  Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 125 

                                                                               
                                       USAID Office of Inspector General


year, $215 million compact with the Government            did not disclose any instances of noncompliance
of the Republic of Honduras, signed in June               that are required to be reported under U.S.
2005, intended to reduce poverty by alleviating           Government auditing standards.
two key impediments to economic growth: low
                                                          However, independent auditors identified the
agricultural productivity and high transportation
                                                          need for MCA–Mali to comply with the
costs. However, in October 2009, because of
                                                          Government of the Republic of Mali’s social
actions by the Government of the Republic of
                                                          regulations. These regulations require that fringe
Honduras that were inconsistent with MCC’s
                                                          benefits be included in the base calculation of
eligibility criteria, MCC reduced the budget of
                                                          Mali’s social security contributions and salary
MCA–Honduras by $10 million.
                                                          taxes. The auditors also identified a significant

Auditors reported that the fund accountability            deficiency in the internal control structure

statement presented fairly, in all material               involving the management of fixed assets.

respects, the program’s revenues and costs
                                                          Morocco (No. M-000-11-020-N). The
incurred and reimbursed for the period audited.
                                                          MCA–Morocco audit covered incurred costs of

Mali (No. M-000-11-021-N). The                            $31.4 million for the period of January 1 to

independent audit of MCA–Mali covered                     June 30, 2010. The $697.5 million compact is

incurred costs totaling $102 million for the              intended to reduce poverty and stimulate

period July 1 through December 31, 2010. In               economic growth through investments in fruit

November 2006, MCC signed a 5–year,                       tree productivity, small–scale fisheries, and

$460.8 million compact with the Government of             artisan crafts. In addition, the compact supports

the Republic of Mali. The compact was intended            small business creation and economic growth

to reduce poverty by alleviating two key                  through investments in financial services and

impediments to economic growth: low                       enterprise support.

agricultural productivity and high transportation
                                                          Auditors reported that, except for unsupported
costs.
                                                          and ineligible questioned costs of $48,889, the

The auditors reported that the fund                       fund accountability statement presented fairly, in

accountability statement presented fairly, in all         all material respects, program revenues and

material respects, program revenues, costs                expenditures for the period audited. The

incurred and reimbursed, and commodities and              questioned costs included $43,555 in per diem

technical assistance procured directly by MCC             and $5,334 in insurance taxes. Independent

for the period audited. The results of the audit          auditors also reported multiple significant


           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 126 

                                                       
                                      USAID Office of Inspector General


deficiencies involving internal controls and              Republic of Namibia. The compact was intended
operations but no instance of material                    to increase the competence of the Namibian
noncompliance that is required to be reported             workforce and increase the productivity of
under U.S. Government auditing standards.                 agricultural and nonagricultural enterprise in the
                                                          rural areas.
Mozambique (Report No. M-000-11-017-
N). The independent audit of MCA–                         The auditors concluded that MCA–Namibia’s
Mozambique covered incurred costs totaling                fund accountability statement presented fairly, in
nearly $8.2 million from July 1 to December 31,           all material respects, program revenues, costs
2009. In July 2007, MCC signed a 5–year,                  incurred and reimbursement, commodities, and
$506.9 million compact with the Government of             technical assistance procured directly by MCC
the Republic of Mozambique to increase the                for the period audited except for a
productive capacity of the population in the              noncompliance weakness related to the payment
Northern districts, with the intended impact of           of value–added taxes on claimed expenses.
reducing the poverty rate, increasing household
                                                          Nicaragua (Report No. M-000-11-016-N).
income, and reducing chronic malnutrition in
                                                          The MCA–Nicaragua audit covered incurred
the targeted districts.
                                                          costs of $35.9 million for the period July 1, 2009,
Auditors reported that, except for the questioned         to June 30, 2010. The $113.5 million compact
unsupported costs of $683,627, the MCA–                   funds are intended to advance Nicaragua’s
Mozambique fund accountability statement                  progress toward economic growth and poverty
presented fairly, in all material respects, program       reduction, particularly by increasing income and
revenues, costs incurred and reimbursement, and           reducing poverty in Leon–Chinandega.
commodities and technical assistance procured
                                                          Independent auditors found many instances of
directly by MCC for the period audited.
                                                          noncompliance with compact requirements.
Deficiencies were noted in internal controls and
                                                          Except for the effect of questioned costs, the fund
compliance with laws and regulations.
                                                          accountability statement presented fairly, in all
Namibia (Report No. M-000-11-025-                         material respects, funds received from MCC, and
N). The independent audit of MCA–Namibia                  program costs incurred and reimbursed. The
covered incurred costs totaling $15.0 million for         questioned costs related to (1) ineligible costs of
the period July 1, 2010–December 31, 2010. On             $23,431 related to various items (e.g.,
July 28, 2008, MCC signed a 5–year, $304.5                circumvented petty cash payments, deliveries of
million compact with the Government of the                farm motors with poor quality, missing plants


           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 127 

                                                       
                                      USAID Office of Inspector General


and tools), and (2) unsupported costs of                 Vanuatu—Two Audits
$164,925.                                                (Report No. M-000-11-018-N)

Unsupported costs related to disbursements with          The independent audit of MCA–Vanuatu
missing documentation, petty cash payments               covered incurred costs of $10.4 million between
made to temporary employees, payment vouchers            January 1 and June 30, 2010. In March 2006,
missing proper authorization, and payments               MCC signed a 5–year, $65.7 million compact
made with inadequate documentation.                      with the Government of Vanuatu to reduce
                                                         poverty and increase incomes in rural areas by
Independent auditors also reported multiple
                                                         stimulating economic activity in the tourism and
material weaknesses and significant deficiencies
                                                         agricultural sectors through the improvement of
involving internal control and its operation:
                                                         transport infrastructure.
Annulled checks recorded as expenses,
disbursements used for activities not related to         Auditors reported that, except for ineligible
the program, a check cashed by a person not              questioned costs of $743, the fund accountability
related to the program, lack of reconciliation           statement presented fairly, in all material
between costs invoiced and refunded by MCC,              respects, program revenues and costs incurred for
disbursements lacking required supporting                the period audited. The ineligible costs pertained
documentation, and payment vouchers that did             to a $743 bonus that was not in compliance with
not show the preparation, revision, authorization,       MCC cost principles.
and goods receipt signatures.
                                                         The auditors also reported instances of material
In addition, auditors identified multiple material       noncompliance: (1) only four out of the six
instances of noncompliance. Contribution                 required Steering Committee meetings took place
agreements were signed by an officer other than          and (2) no Steering Committee minutes were
the one identified in the text, interest earned by       posted to MCA Vanuatu’s Web site.
bank accounts is not quarterly refunded to MCC,
                                                         (Report No. M-000-11-019-N)
and a difference exists between the budget
established by MCC and the one reflected in the          The MCA–Vanuatu audit covered incurred costs
fund accountability statement. Moreover,                 of nearly $8.3 million between July 1 and
procured plants were not fully delivered to the          December 31, 2010.
recipients, and some recipient producers have
                                                         Auditors reported that the fund accountability
not received needed equipment.
                                                         statement presented fairly, in all material
                                                         respects, program revenues and costs incurred

            Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 128 

                                                      
                                      USAID Office of Inspector General


and reimbursed, and commodities and technical            documentation regarding the reassessment of
assistance directly procured by MCC. However,            control and material risk determinations in the
the auditors did report a material instance of           working papers nor included specific testing
noncompliance pertaining to the untimely                 procedures to ensure compliance with
posting of Steering Committee monthly minutes.           requirements. To address these issues, OIG made
                                                         three audit recommendations.
Quality–Control Review—Mongolia
(Report No. M-000-11-002-Q). During this                      General Management Capability
reporting period, OIG conducted a quality
control review of work performed by the audit            OIG received a congressional request to review

firm that conducted semiannual audits of                 Chinese Government–owned enterprises that

compact funds in Mongolia. OIG found that the            received contracts for MCC–funded programs.

audit work was adequately planned and that the           The request specified an interest in the extent to

working papers supported the audit report                which Chinese GOEs adhere to health and

conclusions in accordance with generally                 safety, environmental, quality construction, and

accepted government auditing standards and               labor policies, and whether procurement

other guidelines.                                        processes were open, fair, and competitive. OIG
                                                         performed reviews of awards to Chinese
Quality–Control Review—Mozambique
                                                         government–owned enterprises in Ghana, Mali,
(Report No. M-000-11-003-Q). During this
                                                         Namibia, and Tanzania.
reporting period, OIG conducted a quality
control review of work performed by the audit            Review of Millennium Challenge
                                                         Corporation-Funded Contracts with
firm that conducted semiannual audits of
                                                         Government-Owned Enterprises in
compact funds in Mozambique.
                                                         Ghana (Report No. M-000-11-003-S). The
In this review, OIG found that the audit firm            review found that two government–owned
lacked a general knowledge and understanding of          enterprises, China Railway and Arab
continued professional educational requirements          Contractors, did not always adhere to their
as specified by the U. S. Government auditing            health and safety plans, environmental
standards and that it had not demonstrated the           management plans, or sound labor practices
application of sound professional judgment in            when implementing MCC compact projects. In
establishing the reasonableness of claimed               addition, the firms did not appear to be
expenses. OIG also determined that the auditors          complying with the Ghana Labour Act as it
had not provided management–approved                     relates to health and safety requirements.


          Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 129 

                                                      
                                       USAID Office of Inspector General


However, OIG found no instances in which                  noncompliance with MCC’s program
China Railway and Arab Contractors did not                procurement guidelines when selecting
adhere to quality of construction requirements            Sinohydro to implement compact projects.
with the Millennium Development Authority
                                                          OIG made three recommendations to improve
(MiDA). In addition, OIG found no instances of
                                                          worker health and safety. Management decisions
MiDA’s noncompliance with MCC’s program
                                                          were reached on three recommendations, with
procurement guidelines when selecting these
                                                          final action taken on one.
GOEs to implement compact projects.
                                                          Review of Millennium Challenge
OIG made three recommendations to address the
                                                          Corporation-Funded Contracts with
above issues. Management decisions were reached
                                                          Government-Owned Enterprises in
on each of the three recommendations.
                                                          Namibia (Review Report No. M-000-11-
Review of Millennium Challenge                            005-S). The review found that China Jiangsu, a
Corporation-Funded Contracts with                         Chinese government–owned enterprise, did not
Government-Owned Enterprises in Mali                      always meet the requirements for construction
(Report No. M-000-11-004-S). The review                   quality, worker health and safety, environmental
found that Sinohydro, a Chinese Government–               protection, and sound labor practices. OIG
owned enterprise with two MCC–funded                      observed drainage problems in new school
contracts in Mali, generally adhered to a health          buildings, apparent code violations, and poor
and safety plan but that it could take several            workmanship during its review.
actions to improve worker health and safety. For
                                                          Also, China Jiangsu International did not comply
example, Sinohydro needed to conduct regular
                                                          with requirements for worker protective gear and
vehicle inspections, better document employee
                                                          for minimum wage and overtime.
training, and add or replace equipment,
particularly respiratory masks and gloves.                Further, OIG found that China Jiangsu
                                                          International did not keep complete and accurate
The review team did not identify any
                                                          payroll records as required by the contract. OIG
noncompliance with the environmental
                                                          found no instances in which Millennium
management plan or problems with the quality of
                                                          Challenge Account–Namibia failed to comply
Sinohydro’s construction. Moreover, nothing
                                                          with MCC’s program procurement guidelines
came to the review team’s attention that would
                                                          when selecting the GOE to implement the
indicate unsound labor practices by Sinohydro or
                                                          compact project.
Millennium Challenge Account–Mali’s


           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 130 

                                                       
                                         USAID Office of Inspector General


                                                             Review of Millennium Challenge
                                                             Corporation-Funded Contracts with
                                                             Government-Owned Enterprises in
                                                             Tanzania (Report No. M-000-11-006-S).
                                                             During the early stages of the contract, OIG
                                                             found that Sinohydro’s adherence to the
                                                             contract’s quality standards was not always
                                                             satisfactory; however, Sinohydro’s performance
                                                             had improved, and OIG’s review did not find any
    Floods and drainage problems at the Olukolo School
               in Namibia (photos by OIG).                   instances in which Sinohydro currently failed to
                                                             meet the construction standards.

                                                             OIG found no examples of Sinohydro’s
                                                             noncompliance with MCC’s environmental
                                                             protection policies or procedures. 32 OIG’s review
                                                             found no instance in which MCA–Tanzania
                                                             failed to adhere to MCC’s program procurement
                                                             guidelines when selecting the three reviewed
                                                             GOEs to implement compact projects.

                                                             Although Sinohydro’s compliance had improved,
                                                             OIG made one recommendation on the source
                                                             and quality of material (bitumen) used in road
                                                             construction and on the construction work plan
                                                             to help ensure the project’s timely completion. A
                                                             management decision was reached on the
                                                             recommendation.
    Floods and drainage problems at the Ondjora School
               in Namibia (photos by OIG).
                                                                                                                         
                                                             32
                                                                 As part of a separate audit, OIG found that
OIG made eight recommendations to address the
                                                             Sinohydro did not always fully comply with MCC’s
findings in the report. Management decisions                 policies and procedures regarding health and safety
                                                             and local labor laws. MCC and Millennium Challenge
have been reached on each of the eight                       Account–Tanzania officials stated that Sinohydro had
recommendations.                                             improved its compliance onsite since the previous
                                                             audit.

                                                              

              Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 131 

                                                          
                                   USAID Office of Inspector General




     Significant Recommendations Described Previously
                    Without Final Action
                           MCC
                                   April 1–September 30, 2011

Section 5(a)(3) of the Inspector General Act of 1978 requires semiannual reports to identify each
significant recommendation described in previous semiannual reports on which corrective action
has not been completed.

                                                                                  Final Action
     Report                                         Issue     Rec. Management
                       Subject of Report                                             Target
     Number                                         Date      No. Decision Date
                                                                                      Date
                     Audit of the Millennium
                     Challenge Corporation's                   3          -              -
    M-000-09-003-P                                  4/29/09
                     Management of the                         5       4/07/09       10/14/11
                     Threshold Program



                     Audit of the Millennium
                     Challenge Corporation's
    M-000-09-007-P
                     Regional Infrastructure        9/30/09    2       6/10/10       10/04/11
                     Rehabilitation Project In
                     Georgia

                                                               1       9/30/09       11/06/11
                     Audit of Agricultural Credit              2       9/30/09       11/06/11
    M-000-09-005-P                                  9/30/09
                     Program in Ghana                          4       9/30/09       11/06/11
                                                               5       9/30/09       11/06/11

                     Audit of the Millennium
    M-000-10-001-P   Challenge Corporation's        3/31/10    5       06/08/10      11/06/11
                     Access to Markets Project
                     in Benin
                     Review of the Termination
                     of the Millennium Challenge
    M-000-10-002-P                                  3/31/10    3       06/08/10      11/06/11
                     Corporation Compact with
                     Madagascar

 




          Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 132 

                                                     
                                   USAID Office of Inspector General


                                                                                 Final Action
      Report                                       Issue     Rec. Management
                       Subject of Report                                            Target
      Number                                       Date      No. Decision Date
                                                                                     Date
                                                              1        3/31/10     10/31/11
                     Management Letter: Audit
                                                              2        3/31/10     10/31/11
                     of the Millennium Challenge
                                                              9        3/31/10     10/31/11
                     Corporation's Financial
    M-000-10-002-C                                 3/31/10    11       3/31/10     10/31/11
                     Statements for the Period
                                                              12       3/31/10     10/31/11
                     Ending September 30, 2009
                                                              13       3/31/10     10/31/11
                     and 2008
                                                              14       3/31/10     10/31/11

                     Audit of the Millennium
                                                              1        9/23/10     10/04/11
                     Challenge Corporation’s
    M-000-10-005-P                                 9/30/10    3        9/28/10     10/04/11
                     Transport Infrastructure
                                                              7        9/28/10     10/04/11
                     Project in Vanuatu

                     Audit of the Millennium                  1        9/23/10     10/04/11
    M-000-10-006-P   Challenge Corporation’s       9/30/10    2        9/23/10     10/04/11
                     Programs in Burkina Faso                 3        9/23/10     10/04/11




          Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 133 

                                                    
                              USAID Office of Inspector General




       Investigative Activities Including Matters
         Referred to Prosecutive Authorities
                         MCC
                            April 1–September 30, 2011



    Investigative activities for MCC are incorporated into the totals appearing on page 58.




    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 134 

                                                
                                USAID Office of Inspector General




             Incidents in Which OIG Was Refused
                   Assistance or Information
                             MCC
                               April 1–September 30, 2011



    Section 6(b)(2) of the Inspector General Act of 1978 requires the Inspector General to
    report to the head of the agency whenever requested information or assistance is
    unreasonably refused or not provided.

    During this reporting period, there were no reports to the USAID Administrator or to the
    Board of Directors of MCC regarding instances in which information or assistance was
    unreasonably refused or not provided.




      Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 135 

                                                  
                               USAID Office of Inspector General




                                 Financial Audits
                Associated Questioned Costs, Unsupported Costs, and
              Value of Recommendations That Funds Be Put to Better Use
                                           MCC
                               April 1–September 30, 2011
                                                                          Amt. of
      Report         Date of                                                         Type of
                                           Report Title                   Findings
      Number         Report                                                          Findings
                                                                           ($000)
                               Audit of the Millennium Challenge
                               Corporation (MCC) Resources Managed
                               by Millennium Challenge Account-
                               Nicaragua (MCA-Nicaragua), Under the         188        QC
    M-000-11-016-N   5/05/11
                               Compact Agreement Dated July 14, 2005        165        UN
                               Between the MCC and the Government of
                               Nicaragua from July 1, 2009, to June 30,
                               2010 (Report No. M-000-11-016-N)

                               Audit of the Millennium Challenge
                               Corporation (MCC) Resources Managed
                               by Millennium Challenge Account-
                               Mozambique (MCA-Mozambique), Under
                                                                            684        QC
    M-000-11-017-N   5/24/11   the Compact Agreement Between the
                                                                            684        UN
                               MCC and the Government of the Republic
                               of Mozambique from July 1, 2009, to
                               December 31, 2009 (Report No. M-000-
                               11-017-N)

                               Audit of the Millennium Challenge
                               Corporation (MCC) Resources Managed
                               by Millennium Challenge Account-Vanuatu
                               (MCA-Vanuatu), Under the Compact
    M-000-11-018-N   7/26/11   Agreement Between the MCC and the             1         QC
                               Government of Vanuatu from January 1,
                               2010, to June 30, 2010 (Report No. M-
                               000-11-018-N)




         Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 136 

                                                
                               USAID Office of Inspector General


 

                                                                          Amt. of
      Report         Date of                                                         Type of
                                           Report Title                   Findings
      Number         Report                                                          Findings
                                                                           ($000)
                               Audit of the Millennium Challenge
                               Corporation (MCC) Resources Managed
                               by Millennium Challenge Account-Vanuatu
                               (MCA-Vanuatu), Under the Compact
    M-000-11-019-N   7/26/11
                               Agreement Between the MCC and the
                               Government of Vanuatu from July 1, 2010,
                               to December 31, 2010 (Report No. M-
                               000-11-019-N)

                               Audit of the Millennium Challenge
                               Corporation (MCC) Resources Managed
                               by Millennium Challenge Account-Morocco
                               (MCA-Morocco), Under the Compact              49        QC
    M-000-11-020-N   8/02/11
                               Agreement Between the MCC and the             49        UN
                               Government of Morocco from January 1,
                               2010, to June 30, 2010 (Report No. M-
                               000-11-020-N)

                               Audit of the Millennium Challenge
                               Corporation (MCC) Resources Managed
                               by Millennium Challenge Account-Mali
    M-000-11-021-N   8/02/11   (MCA-Mali), Under the Compact
                               Agreement Between the MCC and the
                               Government of the Republic of Mali from
                               January 1, 2010, to December 31, 2010

                               Final Close-Out Audit of the Millennium
                               Challenge Corporation (MCC) Resources
                               Managed by Millennium Challenge
                               Account-Honduras (MCA-Honduras),
    M-000-11-022-N   8/09/11
                               Under the Compact Agreement Between
                               the MCC and the Government of the
                               Republic of Honduras from January 1,
                               2010, to January 27, 2011




         Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 137 

                                                
                               USAID Office of Inspector General


                                                                            Amt. of
      Report         Date of                                                           Type of
                                           Report Title                     Findings
      Number         Report                                                            Findings
                                                                             ($000)
                               Audit of the Fund Accountability Statement
                               of the Millennium Challenge Corporation
                               (MCC) Resources Managed by Millennium           63        QC
    M-000-11-023-N   8/16/11   Challenge Georgia Fund (MCG) Under the
                                                                               63        UN
                               Compact Agreement Between the MCC
                               and the Government of Georgia from
                               January 1, 2010, to June 30, 2010

                               Audit of the Millennium Challenge
                               Corporation (MCC) Resources Managed
                               by Millennium Challenge Account-Armenia
                                                                              1,808      QC
    M-000-11-024-N   8/18/11   (MCA-Armenia), Under the Compact
                                                                              1,808      UN
                               Agreement Between the MCC and the
                               Government of the Republic of Armenia
                               from July 1, 2010, to December 31, 2010.

                               Audit of the Millennium Challenge
                               Corporation (MCC) Resources Managed
                               by Millennium Challenge Account-Namibia
    M-000-11-025-N   9/27/11   (MCA-Namibia), Under the Compact
                               Agreement Between the MCC and the
                               Government of the Republic of Namibia
                               from July 1, 2010, to December 31, 2010

                               Audit of the Millennium Challenge
                               Corporation (MCC) Resources Managed
                               by Millennium Challenge Georgia Fund-
                                                                              515        QC
    M-000-11-026-N   9/27/11   Georgia (MCG), Under the Compact
                                                                              515        UN
                               Agreement Between the MCC and the
                               Government of Georgia from July 1, 2010,
                               to December 31, 2010




                               Audit of the Millennium Challenge
                               Corporation (MCC) Resources Managed
                               by Millennium Challenge Account-Benin
    M-000-11-027-N   9/27/11   (MCA-Benin), Under the Compact
                               Agreement Between the MCC and the
                               Government of the Republic of Benin from
                               July 1, 2010, to December 31, 2010




         Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 138 

                                                
                               USAID Office of Inspector General


 


                               Performance Audits
                Associated Questioned Costs, Unsupported Costs, and
              Value of Recommendations That Funds Be Put to Better Use
                                            MCC
                               April1–September 30, 2011
                                                                     Amt. of
      Report         Date of                                                    Type of
                                        Report Title                 Findings
      Number         Report                                                     Findings
                                                                      ($000)
                               Risk Assessment of the Millennium
                               Challenge Corporation’s
    M-000-11-001-O   6/01/11   Information Technology
                               Governance Over Its Information
                               Technology Investments

                               Office of Inspector General’s final
                               report on the Review of Millennium
                               Challenge Corporation-Funded
    M-000-11-003-S   5/31/11   Contracts with Government-
                               Owned Enterprises in Ghana
                               (Review Report No. M-000-11-003-
                               S).

                               Audit of the Millennium Challenge
                               Corporation’s Compliance with the
    M-000-11-004-P   9/27/11   Federal Information Security
                               Management Act of 2002–Fiscal
                               Year 2011

                               Office of Inspector General’s final
                               report on the Review of Millennium
    M-000-11-004-S   5/31/11   Challenge Corporation-Funded
                               Contracts with Government-
                               Owned Enterprises in Mali

                               Audit of the Millennium Challenge
    M-000-11-005-P   9/30/11   Corporation-Funded Programs in El
                               Salvador




         Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 139 

                                                 
                               USAID Office of Inspector General


 

                                                                  Amt. of
     Report          Date of                                                 Type of
                                       Report Title               Findings
     Number          Report                                                  Findings
                                                                   ($000)
                               Review of Millennium Challenge
                               Corporation-Funded Contracts
    M-000-11-005-S   5/31/11
                               with Government-Owned
                               Enterprises in Namibia

                               Review of Millennium Challenge
                               Corporation-Funded Contracts
    M-000-11-006-S   5/31/11
                               with Government-Owned
                               Enterprises in Tanzania

                               Limited Scope Review of the
                               Millennium Challenge Corporation
                               (MCC) Resources Managed by
    M-000-11-009-S   8/31/11   Millennium Challenge Account-
                               Mongolia Under the Compact
                               Agreement Between MCC and the
                               Government of Mongolia
                               Limited Scope Review of the
                               Millennium Challenge Corporation
                               (MCC) Resources Managed by the
    M-000-11-011-S   9/21/11   Millennium Development Authority    10,600      BU
                               (MiDA) Under the Compact
                               Agreement Between MCC and the
                               Government of Ghana




         Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 140 

                                                
                                USAID Office of Inspector General




                               Miscellaneous Reports
                Associated Questioned Costs, Unsupported Costs, and
              Value of Recommendations That Funds Be Put to Better Use
                                              MCC
                                April 1–September 30, 2011
                                                                       Amt. of
      Report         Date of                                                      Type of
                                         Report Title                  Findings
      Number         Report                                                       Findings
                                                                        ($000)
                                   Quality Control Reviews
                                Audit of the Fund Accountability
                                Statement of the Millennium
                                Challenge Corporation Resources
                                Managed by the Millennium
                                Challenge Account-Mongolia under
    M-000-11-002-Q   8/11/11
                                the Compact Agreement dated
                                November 13, 2006 between MCC
                                and the Government of Mongolia
                                for the audit period from January 1,
                                2009 to June 30, 2009

                                Audits of the Millennium Challenge
                                Corporation (MCC) Resources
                                Managed by the Millennium
                                Challenge Account-Mozambique
                                for the periods from January 1,
                                2008 to December 31, 2008;
    M-000-11-003-Q   9/29/11    January 1, 2009 to June 30, 2009;
                                and July 1, 2009 to December 31,
                                2009, under the Compact
                                Agreement dated July 13, 2007,
                                between MCC and the
                                Government of the Republic of
                                Mozambique
                                               Other
                                Review of the Millennium Challenge
    M-000-11-002-S   6/03/11    Corporation’s compact with the           1,300      BU
                                Government of Mali




         Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 141 

                                                  
                               USAID Office of Inspector General


                               Office of Inspector General’s final
                               report on the Survey of the
                               Millennium Challenge
    M-000-11-007-S   6/01/11
                               Corporation’s Implementation of
                               Selected Controls Over Personal
                               Digital Assistants

                               Office of Inspector General’s final
                               Supplemental Report on the Survey
                               of the Millennium Challenge
    M-000-11-008-S   6/01/11
                               Corporation’s Implementation of
                               Selected Controls Over Personal
                               Digital Assistants




         Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 142 

                                                  
                                          USAID Office of Inspector General




                       Statistical Table of Reports With
                      Questioned and Unsupported Costs
                                      MCC
                                        April 1–September 30, 2011
                                                          Number
                                                                  Questioned                    Unsupported
                                                            of
                        Reports                                     Costs                          Costs
                                                           Audit
                                                                     ($)                            ($) 1
                                                          Reports
    A. For which no management decision had
                                                                  13        5,400,507                4,820,130
       been made as of April 1, 2011

    B. Add: Reports issued April 1–
                                                                  7         3,307,998                3,282,978
       September 30, 2011

    Subtotal                                                   20         8,708,505                8,103,108

    C. Less: Reports with a management decision
                                                                  5          617,009                   62,560
       made April 1–September 30, 2011

                   Value of recommendations
                                                                              33,817                   33,817
                   disallowed by agency officials

                   Value of recommendations
                                                                             583,192                   28,743
                   allowed by agency officials

    D. For which no management decision had
                                                                  15        8,091,496                8,040,548
       been made as of September 30, 2011
    1Unsupported    costs, a subcategory of questioned costs, are reported separately as required by the Inspector
    General Act.




         Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 143 

                                                               
                                    USAID Office of Inspector General




                      Statistical Table of Reports With
                       Recommendations That Funds
                            Be Put to Better Use
                                     MCC
                                   April 1–September 30, 2011
                                                                    Number of
                                                                                  Value
                                Reports                               Audit
                                                                                   ($)
                                                                     Reports

    A. For which no management decision had been made as of
                                                                        0            0
       April 1, 2011


    B.    Add: Reports issued April 1–September 30, 2011                2        11,900,000


         Subtotal                                                       2       11,900,000

    C. Less: Reports with a management decision made April 1–
                                                                        2        11,900,000
       September 30, 2011

                 Value of recommendations agreed to by agency
                                                                                 11,900,000
                 officials

                 Value of recommendations not agreed to by agency
                                                                                     0
                 officials

    D. For which no management decision had been made as of
                                                                        0            0
       September 30, 2011




          Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 144 

                                                      
                                    USAID Office of Inspector General




                     Reports Over 6 Months Old With
                        No Management Decision
                                  MCC
                                   April 1–September 30, 2011
      Report                            Issue
                      Auditee                                            Status
      Number                            Date


    M-000-10-026-N    MCA-Benin         9/30/10   OIG expects a management decision to be reached by
                                                  November 6, 2011.




    M-000-11-002-N     MCA–Mali        11/11/10   OIG expects a management decision to be reached by
                                                  November 6, 2011.




    M-000-11-003-N   MCA–Honduras      12/30/10   OIG expects a management decision to be reached by
                                                  November 6, 2011.




    M-000-11-004-N   MCA–Tanzania      12/30/10   OIG expects a management decision to be reached by
                                                  November 6, 2011.



                                                  OIG expects a management decision to be reached by
    M-000-11-005-N   MCA–Namibia       12/30/10
                                                  November 6, 2011.



                     MCA–Burkina                  OIG expects a management decision to be reached by
    M-000-11-006-N                     12/30/10
                        Faso                      November 6, 2011.



                                                  OIG expects a management decision to be reached by
    M-000-11-007-N   MCG–Georgia       12/30/10
                                                  November 6, 2011.




           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 145 

                                                    
                                  USAID Office of Inspector General



      Report                          Issue
                      Auditee                                          Status
      Number                          Date


                       MCA–                     OIG expects a management decision to be reached by
    M-000-11-008-N                   12/30/10
                      Morocco                   November 6, 2011.



                       MCA–                     OIG expects a management decision to be reached by
    M-000-11-009-N                   1/28/11
                      Mongolia                  November 6, 2011.



                                                OIG expects a management decision to be reached by
    M-000-11-010-N   MCA–Benin       3/08/11
                                                November 6, 2011.



                                                OIG expects a management decision to be reached by
    M-000-11-011-N MCA–Armenia       3/08/11
                                                November 6, 2011.



                       MCA–                     OIG expects a management decision to be reached by
    M-000-11-012-N                   3/08/11
                      Morocco                   November 6, 2011.



                                                OIG expects a management decision to be reached by
    M-000-11-013-N MCA–Lesotho       3/08/11
                                                November 6, 2011.



                       MCA–                     OIG expects a management decision to be reached by
    M-000-11-014-N                   3/18/11
                     Mozambique                 November 6, 2011.



                                                OIG expects a management decision to be reached by
    M-000-11-015-N   MiDA–Ghana      3/18/11
                                                November 6, 2011.




           Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 146 

                                                  
                                USAID Office of Inspector General




                           Significant Revisions of
                           Management Decisions
                                    MCC
                           April 1, 2011–September 30, 2011



    Section 5(a)(11) of the Inspector General Act of 1978 requires semiannual reports to
    include a description and explanation of the reasons for any significant revised management
    decision made during the reporting period. One of those disclosures includes significant
    revisions of previous management decisions. During the reporting period, MCC did not
    make any significant revisions of previous management decisions.




      Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 147 

                                                  
                                    USAID Office of Inspector General



           Management Decisions With Which the
               Inspector General Disagrees
                          MCC
                                   April 1–September 30, 2011


    Section 5(a)(12) of the Inspector General Act of 1978 requires semiannual reports to
    include information concerning any significant management decisions with which the
    inspector general disagrees.

    During the prior reporting period the Inspector General disagreed with MCC’s
    management decision not to implement Recommendation 3 from the Audit of the
    Millennium Challenge Corporation’s Management of the Threshold Program (Audit
    Report No. M–000–09–003–P, April 29, 2009). As of the current reporting period, the
    Inspector General and MCC are still not in agreement with MCC’s management decision.
    The recommendation asked MCC to develop more definitive guidance for selecting
    countries for the Threshold Program. MCC disagreed with the recommendation and said
    that MCC's authorizing legislation provides a significant degree of flexibility to the board
    regarding the selection of threshold-eligible countries, and it does not believe that reducing
    this flexibility is either necessary or advisable.




      Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 148 

                                                          
                                 USAID Office of Inspector General




        Noncompliance With the Federal Financial
         Management Improvement Act of 1996
                       MCC
                                April 1–September 30, 2011


    Section 5(a)(13) of the Inspector General Act of 1978 requires semiannual reports to
    include an update on issues outstanding under a remediation plan required by the Federal
    Financial Management Improvement Act of 1996 (FFMIA, Public Law 104–208, Title VIII,
    codified at 31 U.S.C. 3512 note). FFMIA requires agencies to comply substantially with (1)
    federal financial management system requirements, (2) federal accounting standards, and (3)
    the U.S. Standard General Ledger at the transaction level. An agency that is not
    substantially compliant with FFMIA must prepare a remediation plan.

     OIG had no instances of MCC noncompliance to report during the reporting period.




       Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 149 

                                                   
                                 USAID Office of Inspector General




         Significant Findings From Contract Audit
                           Reports
                            MCC
                                April 1–September 30, 2011


    The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110–181, Section
    842) requires the Inspector General to submit information on contract audit reports that
    contain significant audit findings in semiannual reports to Congress. The act defines
    “significant audit findings” to include unsupported, questioned, or disallowed costs in
    excess of $10 million and other findings that the Inspector General determines to be
    significant. During the reporting period, OIG had no significant findings from MCC
    contract audit reports.




                                     Peer Reviews
                                        MCC
                                April 1–September 30, 2011


    The Dodd–Frank Wall Street Reform and Consumer Protection Act (Public Law 111–203)
    requires federal inspectors general to report on peer results in their semiannual reports.
    OIG’s peer review reporting requirement is addressed on page 118 of our Semiannual
    Report to the Congress for USAID, USADF, and IAF.




      Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 150 

                                                    
                        USAID Office of Inspector General




 
                            Abbreviations

        AOTR         agreement officer’s technical representative

        BU           funds recommended to be put to better use

        COTR         contracting officer’s technical representative

        FATA         Federally Administered Tribal Areas

        FBI          Federal Bureau of Investigation

        FFMIA        Federal Financial Improvement Act of 1996

        IAF          Inter–American Foundation

        MCA          Millennium Challenge Account

        MCC          Millennium Challenge Corporation

        OIG          Office of Inspector General

        OMB          Office of Management and Budget

        PEPFAR       President’s Emergency Fund for AIDS Relief

        PMI          President’s Malaria Initiative

        QC           questioned costs

        SAI          Supreme Audit Institution

        UN           unsupported costs

        USADF        United States African Development Foundation

        USAID        United States Agency for International Development




    Semiannual Report to the Congress: April 1–September 30, 2011 ¾ 151 

                                           
United States Agency for International Development
            Office of Inspector General
            1300 Pennsylvania Avenue, NW
                     Room 6.6D
                Washington, DC 20523
                www.usaid.gov/oig
